<html>
<title> - THE FUTURE OF WARFARE</title>
<body><pre>[Senate Hearing 114-211]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-211

                         THE FUTURE OF WARFARE

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2015

                               __________

         Printed for the use of the Committee on Armed Services




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









        Available via the World Wide Web: http://www.fdsys.gov/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-570 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  




















                            C O N T E N T S

                               __________

                            november 3, 2015

                                                                   Page

The Future of Warfare............................................     1

Alexander, General Keith B., USA, Ret., Former Commander, U.S. 
  Cyber Command And Former Director, National Security Agency....     4
Clark, Bryan, Senior Fellow, Center for Strategic and Budgetary 
  Assessments....................................................    10
Scharre, Paul, Senior Fellow and Director of the 20YY Warfare 
  Initiative, The Center for a New American Security.............    17
Singer, Dr. Peter W., Strategist and Senior Fellow, New America..    30

                                 (iii)
 
                         THE FUTURE OF WARFARE

                              ----------                              


                       TUESDAY, NOVEMBER 3, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:27 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Hon. John McCain 
(chairman) presiding.
    Committee Members Present: Senators McCain [presiding], 
Inhofe, Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, 
Ernst, Tillis, Sullivan, Reed, Nelson, McCaskill, Manchin, 
Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, and 
King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning. The committee meets 
this morning to consider the future of warfare. This hearing 
builds on a series of hearings this committee is conducting to 
discuss our current geopolitical challenges, examine the 
ability of our defense enterprise to meet these challenges, and 
identify what reforms are necessary to ensure that we have the 
most agile, innovative, and effective military and defense 
organization possible.
    Today we focus on the future, what features will define the 
battlefields of tomorrow, what technologies and methods of 
employing them our future warfighters will require, and what we 
must do to reform our defense institutions to function and 
adapt closer to the need of innovation than the speed of 
bureaucracy.
    We are fortunate to have a distinguished panel of witnesses 
this morning who will present their views on how to reimagine 
and reshape our military for the future. General Keith 
Alexander, former Commander of U.S. Cyber Command and Director 
of the National Security Agency, an outstanding leader. Mr. 
Bryan Clark, Senior Fellow at the Center for Strategic and 
Budgetary Assessments. Mr. Paul Scharre, a Senior Fellow and 
Director of the 20YY Warfare Initiative at the Center for a New 
American Security. Dr. Peter Singer, Strategist and Senior 
Fellow at the New America Foundation.
    The witnesses who have testified before this committee 
continue to warn that the current global threat environment is 
the most challenging, complex, and uncertain in 70 years. But 
what is truly disturbing is that as we look to the future, the 
trends that are making the world more dangerous seem likely to 
persist and intensify.
    Many of our adversaries are investing billions of dollars 
into reshaping their militaries and developing technologies to 
counter and thwart America's military advantages. At the same 
time, the speed of globalization and commercialization means 
that advanced disruptive technologies are increasingly 
available to rival militaries, terrorist groups, and other non-
state actors. Add to that the harm caused by the Budget Control 
Act and sequestration, and we are now facing the dual problem 
of a quantitative and qualitative erosion of our military edge.
    Reversing this trend certainly requires greater military 
capacity. There is still a lot of truth in the old adage that 
quantity has a quality all its own. That said, simply buying 
more of what we have now is insufficient. That is not how we 
will preserve our military technological advantage or win our 
future wars. Our enemies are not just investing in new defense 
technologies, they are investing in strategies to counter 
America's traditional military strengths asymmetrically through 
cyber, hybrid warfare, and anti-access and area denial 
capabilities. Doing more of the same simply plays into our 
adversaries' hands.
    As the National Defense Panel concluded, quote, 
``maintaining the operational and technological edge of our 
armed forces requires sustained and targeted investment.'' I 
want to emphasize 
``targeted.'' We are witnessing rapid technological advancement 
in areas such as cyber and space capabilities, robotics, and 
unmanned systems, miniaturization, and directed energy, 
hypersonics, and data analytics. This is not science fiction. 
It is happening right now and we better understand the 
implications of these changes for the future of warfare because 
we know our adversaries are working overtime to do so.
    This is a major defense acquisition challenge because these 
kinds of disruptive technologies are being developed more by 
nontraditional commercial companies than traditional defense 
industry. Indeed, the top four U.S. defense contractors 
combined spend only 27 percent of what Google does annually on 
research and 
development, and yet the defense acquisition system all too 
often serves to repel rather than attract producers of 
disruptive new technologies. Leading commercial companies are 
innovating on an 18-month cycle, but the Department of Defense 
is stuck on 18-year cycles. This is a recipe for failure and 
fixing this problem must continue to be a top priority for this 
committee's acquisition reform 
efforts.
    It is not enough, however, just to acquire new 
technologies. We must also devise entirely new ways to employ 
them. It would be a failure of imagination merely to try to 
conform emerging defense technologies to how we operate and 
fight today. Ultimately, we must recognize the radical 
potential that these capabilities possess and shape new ways of 
operating and fighting around these new technologies.
    The classic example is the tank prior to World War II. At 
the time, all the major powers had tanks, but they could only 
imagine them as mobile artillery or armored cavalry. It as the 
Germans who first understood that a tank is a tank, and they 
built entirely new operational concepts around it and realized 
its true potential.
    Similarly, the United States Navy in the 1930's adapted 
itself despite fervent opposition at times, both internal and 
external, from a force built around a battleship to one 
organized around carrier aviation. Key military leaders at that 
time anticipated the opportunities that aviation presented, 
developed novel ways to fight with aircraft at sea, and 
prepared our Nation to wage and win a new type of naval 
warfare.
    We face similar challenges now. Instead of thinking about 
how cyber or unmanned systems or other new technologies can 
simply enable us to do things we are already doing now, we must 
discern the real potential of these capabilities, both how they 
may be used against us and how they should be used by us. Then 
we must rethink and reimagine and reshape our military around 
these disruptive new technologies. That is the only way we will 
sustain our qualitative military edge.
    This will require tough choices. Prioritizing for the 
future will not always be popular in all quarters of the 
defense establishment. Advocates for the status quo will likely 
resist change. But these are the choices we must make to ensure 
that our military will be ready to deter and, if necessary, 
fight and win our future wars.
    I look forward to the testimony of our witnesses.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me join you in thanking our witnesses for their 
willingness to appear today to provide their thoughts on the 
future of warfare and how it may shape the organization of and 
the investments in our military going forward. Each of you has 
contributed to our national discussion on these issues. I look 
forward to your testimony. Thank you, gentlemen.
    A central theme of last week's hearing, one that I suspect 
will continue today, is the steady erosion of U.S. 
technological superiority and the need for a so-called third 
offset strategy to recapture a distinct qualitative advantage 
over our adversaries in operationally critical areas. The 
presumption that the decades' long technological superiority 
enjoyed by the United States and our allies will continue into 
the future may no longer be valid, as near peer 
competitors have learned from our past success and made 
advancements of their own, particularly in the areas of 
precision and long-range strike, anti-access/area denial, 
space, and cyber. This diffusion of technology has even 
impacted our advantages over non-state groups like ISIL 
[Islamic State of Iraq and the Levant] and al Qaeda who are 
increasingly able to acquire and employ tools, including drones 
and satellite communications equipment which would have been 
unthinkable only a few years ago.
    As Deputy Secretary of Defense Bob Work told students at 
the National Defense University last year, as any good student 
of Clausewitz knows, the fundamental nature of war is an 
interactive clash, a two-sided duel, action followed by 
reaction. While the United States fought two lengthy wars, the 
rest of the world did not sit idly. They saw what our 
advantages were back in 1991's Desert Storm and they studied 
them and they set about devising ways to compete. He continued, 
our forces face the very real possibility of arriving in a 
future combat theater and finding themselves facing an arsenal 
of advanced disruptive technologies that could turn our 
previous technological advantage on its head where our armed 
forces no longer have uncontested theater access or unfettered 
operational freedom of maneuver.
    Underlying these challenges are several technological 
trends that are reshaping the future of warfare. Global 
investment, notably by the commercial sector, in research and 
innovation is far outpacing the research and development 
budgets of the DOD [Department of Defense] and the U.S. 
Government as a whole. To compete, we will have to develop 
better acquisition hiring policies, harness this trend to 
incentivize some of those talented scientists and engineers in 
the U.S. private sector to work with us. We will have to 
protect the military and civilian research programs, 
laboratories, and agencies that are driving innovation that 
will shape our future military capabilities. The pace of 
technological change is accelerating, but DOD processes seem to 
be slower and more bureaucratic than ever. We need a 21st 
century defense enterprise to keep up, and I hope this is a key 
theme in the committee's efforts at defense reform being led by 
the chairman.
    Beyond acquisition reform, this includes the development of 
new military concepts of operations that, for example, deal 
with complex robotic systems, new rules of engagement for the 
expanding cyber battlefield, new regulations to smartly deal 
with expanded use of things like nanotechnology, artificial 
intelligence, or biotechnology, and a new attitude both in the 
Pentagon and in Congress that encourages the informed risk 
taking and innovation that is characteristic of the people and 
companies that are shaping the future.
    I welcome the witnesses' thoughts and suggestions on these 
issues, and I look forward to the testimony. Thank you, Mr. 
Chairman.
    Chairman McCain. Thank you.
    General Alexander, welcome.

  STATEMENT OF GENERAL KEITH B. ALEXANDER, USA, RET., FORMER 
  COMMANDER, U.S. CYBER COMMAND AND FORMER DIRECTOR, NATIONAL 
                        SECURITY AGENCY

    General Alexander. Thank you, sir. Chairman McCain, Ranking 
Member Reed, distinguished members of the committee, I would 
like to talk briefly about what you have addressed in your 
opening statement, Chairman, about where technology is going 
and what this means to the future of warfare. I am going to do 
this rather quickly.
    I submitted a statement for the record and would ask that 
that be put on the record.
    Chairman McCain. All witness statements will be made a 
permanent part of the record.
    General Alexander. Thank you, Chairman.
    When you look at the rate of change of technology, what you 
brought up in terms of the cycle of where we are with the DOD 
acquisition system and where industry is, 18 years, versus 18 
months, it is unacceptable especially when we look at 
cybersecurity. When you think about the rate of change for 
cybersecurity, it is doubling every 2 years. So that means that 
the kids that are in college today, what they learn in their 
freshman year--half of it is outdated by their junior year. 
When you think about the volume of information that is being 
created, the unique volume of information, it is about 7 
exabytes. What that means is we are going to create more unique 
information this year than the last 5,000 years combined. When 
you think about the staggering rate of that change of 
information and where it is going, and then you look at on the 
civilian side, the top 10 in-demand jobs now did not exist 10 
years ago. So that means we are teaching students for jobs that 
do not exist, using technology that has not been created to 
solve problems we do not even know are problems.
    But there is tremendous good that is going to come out of 
this in terms of the future of warfare and health care and 
saving money for our taxpayers in the energy market and others. 
When you look at just the revolution that is going to go on in 
the energy sector and how we can stabilize our Nation and other 
nations' energy sector and not waste billions of dollars in 
fuel costs a year, this is a huge opportunity for our Nation.
    But with that opportunity comes tremendous vulnerability, 
and when you think about what the Defense Department is 
required to do, it rests on that civilian infrastructure. It 
rests on the energy sector, the communications infrastructure, 
and all of the other communications that are intertwined. Our 
Nation, in order to execute warfare, depends on that being 
there. It is not secure. Tremendous vulnerabilities.
    I will just hit some highlights of what I think we are 
going to face over the next several years. You only need to 
look back at what happened in Estonia in 2007, first a 
distributed denial of service attack; 2008, a distributed 
denial of service attack. Both of those were by Russian 
hackers. I learned this from my daughter to put footnotes 
around when she said a dirty word, but I will use ``Russian 
hackers.'' These are FSB [Federal Security Service]. They are 
going after our Nation. In 2007, it was Estonia. In 2008, it 
was Georgia uniquely timed to Russian troops entering into 
Georgia. As you know, Chairman, 2008 in October is when we 
found malware on the Defense Department's networks. If you jump 
to 2012, we saw a series of distributed denial of service 
attacks against our Nation's financial systems, largely 
attributed to Iran. It was preceded by a destructive attack 
against Saudi Aramco that destroyed the data on over 30,000 
systems. So from 2012 August when that attack occurred to 2013, 
350 attacks against our Nation's financial infrastructure.
    Now, when you jump forward to where we are today with what 
has happened to Target, Home Depot, Sony, and you look at what 
hit other countries, you are seeing that those nations who 
disagree with us are looking at ways to come at us using the 
full spectrum of power, diplomatic, political, economic, 
military, and within military, the easiest form for at least 
Russia and Iran, has been cyber. Now when you look at what is 
going on around the world today, you can see that what is going 
on in Syria, if we have a disagreement with Russia, or if the 
Iran deal goes bad, or if we do not have a meeting of the mind 
on the Ukraine, or something pops up in North Korea, I expect 
these countries will come back at us with cyber attacks, and 
they can say not our guys. It is an asymmetric way of hitting 
our country and cause tremendous damage. Our Nation is not 
ready for these types of attacks across the board.
    I think the cyber legislation that was brought forward 
takes us a great step down the road, but I think there is more 
that needs to be done. Within the Defense Department, only the 
Defense Department can defend this Nation in cyber. Homeland 
Security can set standards, but when our Nation is under 
attack, the U.S. Cyber Command, NSA [National Security Agency], 
FBI [Federal Bureau of Investigation]--those are the ones who 
are going to be the first responders.
    So let us look at what happened to Sony and use that as a 
case example to end my opening statement, Chairman.
    When Sony was hit--everybody can say, well, that is not 
critical infrastructure. I have got it. But when Sony was 
attacked, we would not allow as a Government Sony to attack 
back against North Korea. The reason is if Sony were to attack 
back, it could start a bigger war on the Korean peninsula. That 
is the responsibility of governments. But if Sony is not 
allowed to attack back, then who does that for Sony? That is 
where our Government steps in. That is where our Defense 
Department is, and that is what we are needed for. But we 
cannot see Sony's networks, and I am not advocating for the 
Government to be in all the networks.
    What I would advocate for is like a radar system. When a 
company or a sector is being hit, that they can tell the 
Government at large I am being attacked.
    Now, two things have to occur in order to do that. Those 
companies need to up their game in cybersecurity and understand 
what is going on, and they need to, much like a radar system, 
be able to tell the Government something is going on. Then the 
Government can determine what to do. All of this has to occur 
at network speed. It is not a place where you can have someone 
in the loop making a decision. Chairman, it is analogous to 
doing nuclear exchange where we are racing down the road 
building powerpoints to brief the White House on the next step 
when the missiles come in 30 minutes and the briefings come in 
30 hours. In cyberspace, to go halfway around the world takes 
67 milliseconds. That is your decision space. It does not 
provide any opportunity for us to miscalculate in this area.
    When you think about what those who wish us harm want to 
do, if I were a bad guy--I am a good guy, Chairman, I believe. 
If I were a bad guy, I would look at this as a military 
campaign and say how do I want to attack our financial sector, 
our energy sector, and our Government. I believe those who want 
to do us harm can do that much like what happened in 2012 but 
this time with more destructive tools against our energy sector 
and against our 
financial sector. If that happens the cost to our Nation would 
be measured in the trillions.
    So where do we need to go? I think that is one of the 
things, Chairman, that we ought to discuss, where we go in this 
area, how we set up and organize within the Government and set 
the rules of engagement and get things right, train our troops 
across the board, and partner with industry. We have got to do 
both. We need industry to tells us what is going on, but the 
Government has got to be there to protect industry. I am not an 
advocate of us pushing money to industry for them to go fix 
their problem. I am advocate for industry upping their game and 
having the capability to tell the Government that something is 
going on.
    These are areas that--you know, I like to really talk about 
what is going on in this domain. When you look at it and the 
Internet, our Nation is the one who created the Internet. We 
were the first to do this. We ought to be the first to secure 
it.
    Thank you, Chairman.
    [The prepared statement of General Alexander follows:]

          Prepared Statement of GEN (Ret) Keith B. Alexander*
    Chairman McCain, Ranking Member Reed, Members of the Committee: 
thank you for inviting me to discuss the future of warfare with you all 
today and, specifically, to engage in a dialogue with this Committee 
about two of the most pressing threats facing our Nation: (1) the 
threat from terrorist groups with global reach and ambitions; and (2) 
the threat from criminal syndicates and nation-states in cyberspace. I 
plan to talk candidly about these topics and give you a sense of where 
I think we are headed and what we might do to mitigate the very serious 
risks and threats we face as a nation.
    I want to thank you, Mr. Chairman, for taking the time to look at 
the major issues facing the Department of Defense and how we might 
architect the Department and our military services as we face evolving 
threats in this new environment. The efforts both you and the Ranking 
Member have made in this area will help ensure the security of our 
going forward and will help us keep faith with the men and women who 
serve our country with pride and honor in the far reaches of the globe.
    Before we turn to the future of warfare, it is important to discuss 
some of the significant changes going on in the hugely challenging 
global environment we find ourselves in today. In my mind, this 
discussion is critically important because it frames the way we need to 
think about future conflicts and how we might shape the Defense 
Department and our military services to be prepared for these 
conflicts.
    We live in amazing, challenging, and threatening times. Around the 
world, we see conflicts or situations that could easily spiral out of 
control, dramatically affecting our national security. Indeed, in many 
places, this process has potentially already begun. From the 
longstanding homeland threat posed by al Qaeda core and its affiliates 
around the world, to the growth of a potential terrorist state in the 
lands of Iraq and Syria, and the increasing role of Hizballah and Hamas 
in various conflict zones, just to name a few, the threat of terrorism 
is on the rise. Even more troubling, major nation-states continue to 
behave in ways that seek to challenge the United States and intimidate 
our allies.
    China continues to experience tremendous economic difficulties that 
drive their need to steal intellectual property and strengthen their 
stance in the South China Sea. Russia's intervention in Ukraine and in 
the Syrian conflict are just the start of a potential series of actions 
that seek to reshape the international environment in ways that do not 
reflect America's interests. A number of key allies and other important 
states face the very real threat of internal dissent and potential 
collapse. These regional conflicts and the surge of terrorist 
activities point to an uncertain future, with tremendous potential 
impact on our Nation.
    Moreover, in the cyber realm, we also see threats increasing. 
Whether it is the growing spread of nation-state espionage, including 
hacks against government systems and the rampant theft of core U.S. 
intellectual property from our companies, or financial crime conducted 
by criminal syndicates and nation-state sponsored groups, or the very 
real threat of destructive cyber attacks against critical 
infrastructure companies, we are seeing a rapid increase of challenges 
in this domain also.
    The evolution of computers and networks, the growing challenges to 
network and cyber security, and underlying concerns about civil 
liberties and privacy greatly complicate these areas. I am deeply 
concerned that our current cybersecurity strategy is incomplete at best 
and is further complicated by many of these issues.
--------------
    *Gen. (Ret) Keith Alexander is the former Director of the National 
Security Agency and former Commander, United States Cyber Command. He 
currently serves as the President and CEO of IronNet Cybersecurity, a 
startup technology company headquartered in the Washington, DC 
metropolitan region.
    I would like to start first with technology, then turn to 
terrorism, and finally briefly discuss how we might work to improve 
military readiness in these areas.
    Technology is an area of rapid and dramatic change and growth, with 
processing capacity doubling every two years under Moore's law. \1\ 
Moreover, Cisco estimates that annual global IP [Internet Protocol] 
network traffic will exceed one zettabyte by the end of 2016 (or nearly 
1 billion gigabytes per month), and will nearly double to two 
zettabytes per year by 2019. \2\ This means that global Internet 
traffic in 2019 will be approximately 66 times the volume of the entire 
global Internet traffic in 2005. \3\ Around the world, the number of 
devices connected to IP networks will be more than three times the 
global population by 2019. \4\
---------------------------------------------------------------------------
    \1\ See Annie Sneed, Moore's Law Keeps Going, Defying Expectations, 
Scientific American (May 14, 2015) available online at <http://
www.scientificamerican.com/article/moore-s-law-keeps-going-defying-
expectations/>.
    \2\ See Cisco, The Zettabyte Era--Trends and Analysis (May 2015), 
available online at <http://www.cisco.com/c/en/us/solutions/collateral/
service-provider/visual-networking-index-vni/
VNI_Hyperconnectivity_WP.html>
    \3\ Id.
    \4\ Id.
---------------------------------------------------------------------------
    While former Secretary of Education Richard Riley's prediction in 
the early 2000s about the job change across the economy may not have 
been exactly right, it certainly seems to me that his point is spot on 
when it comes to technology: namely, that many of the specific jobs 
available in technology today didn't even exist a decade ago; indeed, 
the notion, attributed to Riley, that ``we are training young people 
for jobs that don't even exist yet, to use technology that hasn't been 
created yet, to solve problems that we don't even know are problems 
yet'' seems clearly right. \5\ Others have noted that for the first 
time in history, we have four generations working side-by-side: the 
``write me,'' ``call me,'' ``email me,'' and ``text me'' generations. 
\6\ Today, we think and talk about communications and human interaction 
fundamentally differently. We talk about ``hanging out''--not in 
person, but online via Google; we talk about swiping, not to steal 
something, but to look for a mate on Tinder. Indeed, any person with 
access to Google today has better access to information than the 
President of the United States did 20 years ago. Some have suggested 
that by 2049, a $1,000 computer will exceed the computational 
capabilities of the entire human race. \7\
---------------------------------------------------------------------------
    \5\ See Steve Gunderson, et al., The Jobs Revolution: Changing How 
America Works, 58-60 (2004); David Tritelli, From the Editor, Liberal 
Education, vol. 9, no. 1 (Winter 2009), available online at <https://
www.aacu.org/publications-research/periodicals/editor-56>.
    \6\ Cf., e.g., Mareisha Winters, Write Me, Call Me, Text Me: 
Generational Differences in the Workplace, Let's Talk About Work (Aug. 
15, 2012), available online at <http://www.letstalk aboutwork.tv/write-
me-call-me-text-me-generational-differences-workplace/>.
    \7\ See Ray Kurzweil, The Law of Accelerating Returns (March 7, 
2001), available online at <http://www.kurzweilai.net/the-law-of-
accelerating-returns>.
---------------------------------------------------------------------------
    These changes are stunning and, in my view, form the foundation for 
other great revolutions. For example, nanotechnology is utilizing these 
data advances to make amazing progress. In June of 2014, I had a chance 
to see the improvements IBM is making in addressing brain cancer by 
partnering with the Genome Center in New York City. The prognosis on 
brain cancer radiation treatment that used to take nearly a month for a 
panel of oncologists can now be done in minutes with computer 
analytics.
    As such, technological change presents tremendous opportunities. 
But with these tremendous opportunities come tremendous 
vulnerabilities. From my perspective, there are four major threats in 
the cyber domain: cyber attack, cyber espionage, cyber theft of 
intellectual property, and criminal activity. In 2014, the Center for 
Strategic and International Studies estimated the worldwide loss from 
cybercrime to be $445 billion annually. \8\ While this number seeks to 
account for the theft of intellectual property, in my view, the value 
of theft of intellectual property from American industry is 
significantly greater than accounted for in this study and, in fact, 
represents the single greatest transfer of wealth in history.
---------------------------------------------------------------------------
    \8\ See Center for Strategic and International Studies, Net Losses: 
Estimating the Global Cost of Cybercrime (May 2014), available online 
at <http://csis.org/files/attachments/
140609_rp_economic_impact_cybercrime_report.pdf>.
---------------------------------------------------------------------------
    At the same time, the potential for actual cyber attacks also 
represents a major threat to our national security. Both the scope and 
nature of this threat is growing, as is the probability of increasing 
disruptive and destructive attacks. Specifically, since the 2007 
attacks against Estonia, the pace and nature of cyber attacks has 
grown. In 2008, we had the attacks against Georgia and the discovery of 
agent.btz malware in U.S. military systems. In 2012, we learned of the 
first publicly disclosed destructive attack against Saudi Aramco, where 
data on approximately 30,000 computers was destroyed, followed soon 
there after by a similar attack on Qatari RasGas. Between 2012 and 
2014, we saw large-scale distributed denial of service attacks on U.S. 
bank websites. We have all heard about the potential impact of the 
Havex and BlackEnergy malware on industrial control systems in the 
energy industry. We also see cyber threats from criminal actors, 
although these are largely focused on theft, including of customer 
data, at places like Target and Home Depot.
    While many of these hacks might be achieved with relative ease, 
most of the prominent events that we discussed have involved very 
sophisticated attackers using unique skill sets, clearly suggesting 
that there is some measure or potential of nation-state involvement or 
sponsorship.
    Having now talked about the cyber threat, I like to turn back to 
the terrorism threat, which we discussed briefly earlier and then get 
into how we might think about some of these issues going forward.
    On terrorism, just a few key points. There has been a massive 
increase in global terrorist acts and deaths from terrorism in recent 
years. According to State Department statistics, between 2012 and 2013, 
we saw a 43% increase in terrorist attacks worldwide and 61% increase 
in people killed as a result of terrorism. \9\ Between 2013 and 2014, 
we saw another 39% increase in attacks and an 83% increase in deaths, 
which represents a nearly tripling of deaths in just two years. \10\
---------------------------------------------------------------------------
    \9\ Compare U.S. State Department, Country Reports on Terrorism 
2012, National Consortium for the Study of Terrorism and Responses to 
Terrorism: Annex of Statistical Information (2013), available online at 
<http://www.state.gov/j/ct/rls/crt/2012/210017.htm> (6771 
attacks; 11098 fatalities) with U.S. State Department, Country Reports 
on Terrorism 2013, National Consortium for the Study of Terrorism and 
Responses to Terrorism: Annex of Statistical Information (2014), 
available online at <http://www.state.gov/j/ct/rls/crt/2013/224831.htm> 
(9707 attacks; 17891 fatalities)
    \10\ Id.; compare also Country Reports on Terrorism 2013 (9707 
attacks; 17891 fatalities) with U.S. State Department, Country Reports 
on Terrorism 2014, National Consortium for the Study of Terrorism and 
Responses to Terrorism: Annex of Statistical Information (2015), 
available online at <http://www.state.gov/j/ct/rls/crt/2014/239416.htm> 
(13463 attacks;32727 fatalities).
---------------------------------------------------------------------------
    When you combine these statistics with the issues we 
discussed briefly before: the permissive environments created 
by government collapse in countries like Yemen and Libya, ISIS 
[Islamic State of Iraq and Syria] control of territory between 
the lands of Iraq and Syria, increased Iranian support for 
proxy group like Hizballah and Shia militias in Iraq, continued 
interest by core al Qaeda and its affiliates like AQAP [Al-
Qaeda in the Arabian Peninsula] in homeland attacks, and the 
increasing pace of conflicts that continues to potentially 
destabilize countries in the Middle East, North Africa and 
elsewhere, we see a very challenging environment for America's 
national security and a clearly increasing terrorist threat.
    Having discussed the challenges facing us in both the cyber 
and terrorism environments, I would like to also briefly talk 
about key areas we need to change within the Defense Department 
to counter these asymmetric threats.
    When I retired in April 2014, I believed I could ``continue 
the mission'' by helping the private sector better protect 
themselves with better cybersecurity solutions. I believe there 
is much to be done to bring commercial cybersecurity to the 
``right'' standard and my experience, to date, is that business 
leaders are working these issues hard. In building a 
comprehensive approach to cybersecurity, we need to build a 
foundational framework that will give us the opportunity to 
provide game-changing new defensive capabilities to the private 
sector.
    More importantly, commercial and private entities cannot 
defend themselves alone against nation-state attacks nor 
nation-state-like attacks in cyberspace. We do not want them to 
``fire'' back. The U.S. Government is the only one that can and 
should ``fire'' back. That is, it is the government's job to 
defend this country in cyberspace from the type of destructive 
attacks that hit Sony and the disruptive attacks that hit Wall 
Street from August 2012 to April 2013. Truth be told, our 
Nation simply is not prepared for these events, at least at 
this time.
    To resolve this problem, we need cyber legislation that 
provides clear authority and liability protection to 
incentivize information sharing. Thank you for the work all of 
you have done in passing the cyber legislation. However, that 
legislation needs to ensure the government can do its job of 
defending our Nation at network speed, because that is the 
speed of these attacks. We also need industry to be able to 
``tell'' the government when they are under attack, at network 
speed, and the appropriate entities in government should 
receive this information at network speed, without delay. Our 
Nation will depend on that capability and speed in the next 
cyber engagement we face.
    In particular, for the Department of Defense, this means 
that DOD needs to receive information--directly and at network 
speed--that will help it protect the Nation. DHS [Department of 
Homeland Security] and other entities can receive this 
information at the same time, but information relevant to the 
defense of this country should not be delayed by another 
department or agency. I know that the legislation has a range 
of provisions on this issue, some that provide flexibility, and 
others that route information through particular paths. It is 
critical that as the two Houses confer on the final bill, 
members should keep in mind the critical importance of speed 
and flexibility for protecting the Nation against threats that 
morph rapidly and in real-time.
    As a consequence, we also need to build a complementary 
foundational framework within the Department of Defense. Most 
importantly, we need to have the right structure in place. As 
you know, during my tenure as Director of NSA, we worked 
closely within the Executive Branch and with this Committee to 
come up with the right structure and capability for U.S. Cyber 
Command. While these efforts have been successful and we have 
been able to bring a joint, combined arms approach together at 
Cyber Command, we now have an opportunity to go further. In my 
mind, some of the important concepts to consider include 
elevating U.S. Cyber Command to a Unified Command, providing it 
a consistent and increased set of funding authorities, 
investing in both people and technology enhancements, and 
preparing for what is an obviously more dangerous and rapidly 
changing environment. I believe our cyber investments should be 
analogous to and undertaken with the vigor and focus of the 
Manhattan project, and should involve both government and 
industry participants.
    On both the cyber and terrorism fronts, we also need to 
make significant progress in thinking more clearly--both in 
strategic and tactical terms--about how to deal with the 
increasing scale and scope of asymmetric threats. In 
particular, the use of asymmetric capabilities by an 
increasingly broader array of actors, many of whom don't 
respond to typical state-to-state incentives, raises tough 
issues for our military. A lighter, faster, more responsive and 
agile set of forces, specifically aimed at the terrorism and 
cyber target sets, is critical. Similarly, providing more 
authority and flexibility to commanders in the field working in 
these areas is critical to taking advantage of a more flexible 
and responsive force.
    In the end, while we have may significant progress in these 
areas in recent years, much more remains to be done and I look 
forward to providing you whatever assistance I can in your 
efforts going forward.
    Thank you for your time and attention.

    Chairman McCain. Thank you very much, General.
    Mr. Clark?

 STATEMENT OF BRYAN CLARK, SENIOR FELLOW, CENTER FOR STRATEGIC 
                   AND BUDGETARY ASSESSMENTS

    Mr. Clark. Good morning, Chairman. Chairman McCain, Ranking 
Member Reed, members of the committee, thank you for asking us 
to come here to testify today on this very important topic.
    I wanted to highlight some elements from my written 
statement to get at the strategy we should be using to approach 
technology development and the Department of Defense to get at 
some of the trends that General Alexander and that yourself 
brought up earlier.
    We have got a very dynamic security environment today, as 
we talked about in other sessions recently, and a very dynamic 
technology environment, as General Alexander highlighted. What 
that is doing is it is transitioning our several decades of 
military dominance that we have enjoyed since the Cold War into 
one of competition. So we are now going to have to compete to 
be able to maintain our warfighting edge against our likely 
adversaries.
    To be able to maintain our technological edge, we need to 
have an effective strategy that goes after the kinds of 
enduring advantages that we need to be able to have to 
deterring the future. The last time we were faced with a 
situation like this, where we had a long-term competition 
against a single or a series of adversaries, was during the 
Cold War. During that period, we used several series of offset 
strategies that have been described by Secretary Work and 
others to be able to demonstrate to the Soviets that we would 
be able to hold them at risk, attack their targets at home, and 
attack their forces out in the field. These involved nuclear 
weapons initially with the new look of President Eisenhower's 
strategy in the 1950's, and it was followed later on with the 
strategies the Defense Department mounted with precision 
strike, stealth, and related capabilities, always keeping the 
Soviets on edge that they did not know if the U.S. was going to 
be able to effectively attack Soviet targets at will. That kept 
them probably from attacking our allies in Central Europe.
    So these efforts were successful in large part, though, 
because we were able to identify the next phase in important 
mission areas such as strike and undersea warfare, develop 
capabilities that were going to be effective in that next phase 
of those warfare areas and establish an enduring advantage. So 
I will talk about a couple of examples.
    So in one, in undersea warfare, at the beginning of the 
Cold War with the advent of the nuclear submarine, the U.S. 
realized that passive sonar and submarine quieting were going 
to be key features of undersea warfare going into the Cold War 
and developed those capabilities. As a result, we were able to 
maintain a dominant position in undersea warfare versus the 
Soviets for almost the entire Cold War, and that redounded to a 
benefit in terms of our strategic deterrence because we could 
protect our own ballistic missile submarines while threatening 
those of the Soviet Union, as well as giving us the ability to 
attack their attack submarines out at sea.
    Another area would be stealth. So we saw later in the Cold 
War that Soviet radar systems were getting better and better. 
Those were being proliferated to their allies in the Warsaw 
Pact and elsewhere. So we started to develop stealth 
technologies and low probability of detection sensor systems 
that would need to be able to be effective against the kinds of 
sensors that the Soviets were developing. Those capabilities 
entered the force near the end of the Cold War, and we are all 
familiar with stealth being used in the Gulf War and then later 
gave us an advantage that still is benefiting the United States 
today in terms of the ability to strike targets at will almost 
anyplace on the globe. So several decades of benefit came from 
anticipating the next phase of warfare, developing the 
capabilities for it, and then moving into that next phase with 
an advantage that endures.
    So once again now we find ourselves in a situation where we 
are geographically disadvantaged because our allies are far 
away and we have to project power in order to support them, and 
we are numerically disadvantaged because a lot of our potential 
adversaries like China have much bigger forces than our own.
    So we need to, again, look at the approach we took in the 
Cold War of anticipating the next phase in some important 
warfare areas and important missions and then developing the 
capabilities to be effective in them. That should be the heart 
of our technology strategy, the offset strategies that we have 
been talking about. The third offset that Secretary Work talks 
about should be looking at the next phase of mission areas that 
we think are important to deterring the adversaries we are 
facing today.
    So some of those shifts--I talk about them in detail in my 
written statement, but just to highlight the major shifts.
    First of all, undersea warfare is likely to see a shift 
from listening for submarines with passive sonar and just 
quieting your submarines to one in which we use active sonar 
and non-acoustic methods to find submarines. That will mean our 
quiet submarines will not have the same benefit in terms of 
their survivability as they do today. We need to come up with 
new ways to counter detection using active systems, just as we 
do above the water to use jammers to counter radars. We will 
have to do the same thing under water probably.
    In strike, we are going to see the continuation of the 
trend we saw towards stealth and low probability sensors that 
started during the Cold War but sort of went on hiatus with the 
Soviet Union's fall. So stealth and low probability detection 
sensors are going to be the de rigueur features of strike 
warfare going into the future.
    In the EM spectrum [Electromagnetic Spectrum], we have been 
operating today with very high power systems, very detectable 
systems, and we are not going to be able to do that in the 
future. We will have to move to systems that are increasingly 
passive and low probability of detection. There are key 
technologies we need to develop in those areas.
    Then last in air warfare, these sensor advancements are 
going to result in a situation where fast, small, maneuverable 
aircraft are going to no longer be as beneficial as large 
aircraft that can carry big sensors and large weapons payloads 
in air-to-air warfare.
    So those are some key areas that we need to be able to take 
into our existing advantage and build upon in order to be 
successful against the adversaries we are likely to face in the 
future.
    General Alexander brought up cyber and space. So cyberspace 
is obviously an area of competition today. Space is a big area 
of competition. But it looks like, given the policy choices 
that the United States has made and is likely to make in the 
future and our own dependence on both of those areas, it may 
not be that those are areas where we gain a significant 
military advantage. We may be faced with a situation where we 
just have to defend our current capabilities as opposed to 
being able to use those areas to asymmetrically go after our 
enemies. We may be forced into a defensive mode there.
    So to be able to advance these technologies, we need to 
look at how we develop technology in the Defense Department. We 
have talked about and you talked about, Senator, the fact that 
we have an 18-month cycle in technology but an 18-year cycle in 
the Defense Department. There are some key ways that we need to 
drive the Defense Department to be able to develop technologies 
more quickly.
    The first is operational concepts. Today we develop 
technologies absent a real idea of how we are going to use 
them, and we develop ways of fighting that do not take 
advantage of new technologies. We need to marry those two ideas 
up and get new operational concepts that leverage new 
technologies to be able to build requirements that drive the 
acquisition system towards new systems.
    We also need to look at how we focus our technology 
investment. Today our technology investment is spread all over 
a large portfolio of areas instead of focused on those areas 
that are going to give us the greatest benefits strategically 
down the road. So we are watering all the flowers in hopes some 
of them will turn into trees, but in fact we need to focus on 
the ones that are most likely to turn into trees.
    The last one is how do we develop requirements. Acquisition 
reform has been a big topic, I know, a big focus area of yours, 
and in the Department there is working going on as well. One 
key area that has not been addressed yet is the need to refine 
how to we develop requirements. When we develop the 
requirements for a new platform, we start from scratch every 
time we come up with a new airplane or ship or missile and 
define the requirements for it up front before we even start 
building the thing. Instead, we need to look at ways to build 
the requirements as we are prototyping technologies to get an 
idea of what requirements are going to be feasible. So how fast 
can it go for a reasonable cost? What is achievable in terms of 
schedule, and what is achievable in terms of the performance 
parameters of the particular weapon system? Those can be 
defined in large part by prototyping existing technologies and 
then building the requirements as you do that. That would be 
how a business might go about it, but in the Defense 
Department, we build requirements in isolation from any 
expectation as to how feasible it will be to deliver those 
requirements. So refining the requirements process will be a 
key feature of speeding up that introduction of new 
technologies.
    So we have an opportunity here with our current 
technological capabilities, many of which are maturing in these 
mission areas that are really important, but we need to make 
some changes in order to leverage them to gain this enduring 
advantage that will take us into the future.
    I look forward to your questions. Thank you.
    [The prepared statement of Mr. Clark follows:]

                   Prepared Statement by Bryan Clark
    Chairman McCain, Senator Reed, thank you for inviting me to testify 
today on this important and timely subject. It is one we will have to 
address for the American military to continue credibly protecting our 
people, territory, allies, and interests. Without a comprehensive 
effort to sustain, and in some cases regain, our technological 
advantage, the U.S. military will have less ability to deter aggression 
and be compelled to fight more often to demonstrate American resolve. 
When they do fight, U.S. forces will be at a disadvantage against our 
enemies.
    After almost three decades of military dominance following the fall 
of the Soviet Union, the United States is facing an era of increased 
competition. New technologies are levelling the playing field for 
rivals such as Russia, China, and the Islamic State seeking to overturn 
existing borders and security relationships. They are leveraging their 
proximity to U.S. allies and new military capabilities to pursue their 
objectives while increasing the risk for arriving U.S. forces. This may 
significantly raise the bar for American intervention while aggressors 
quietly accrete territory and influence at the expense of America's 
friends and allies.
    This situation is clearly untenable. The U.S. Department of Defense 
(DOD) must do more than its current effort to develop plans that will 
produce new weapon systems in 10-15 years. It must take advantage of 
emerging technologies from DOD research labs as well as defense and 
commercial industry to rapidly field new 
capabilities in key missions such as undersea, strike, air, and 
electronic warfare that will impose costs on America's rivals and 
improve the capability of U.S. forces.
                     the ``third offset strategy''
    During the Cold War, U.S. forces mitigated their geographic 
separation from American allies and numerical disadvantages against the 
Soviets by deploying nuclear weapons in the 1950s and long-range 
precision strike and missile defense in the 1970s and 1980s. These 
high-tech capabilities likely helped deter Soviet aggression by 
asserting U.S. and NATO [North Atlantic Treaty Organization] forces 
could attack Warsaw Pact troops, military and political leaders, or 
civilian populations in response. When the Cold War ended, they 
continued to give America a military advantage over less capable, 
internally-focused competitors such as Iraq, North Korea, Russia, and--
for a time--China.
    This is changing as America's rivals build up their militaries and 
turn outward in an effort to gain territory and influence or distract 
their populations from internal grievances. They are increasingly 
empowered in this effort by the flattening of the research and 
development landscape. During the Cold War, American government and 
private institutions created the majority of patents as well as 
unpatented military advancements. Today most new patents originate 
outside the United States and scientific journals regularly feature 
articles by Chinese and Russian researchers in areas such as underwater 
acoustics, electronics engineering, materials science, and computer 
processing.
    Today the U.S. military again finds itself in a long-term 
competition and at a disadvantage geographically and numerically; this 
time against a more diverse set of adversaries than during the Cold 
War. In Europe, East Asia, and the Middle East U.S. forces are opposing 
efforts by state and non-state rivals to erode the sovereignty or 
stability of American allies and partners, aided by high-end technology 
that enables long-range surveillance and strike capabilities designed 
to thwart U.S. power projection. DOD plans to address this multifaceted 
challenge in part through a ``Third Offset Strategy'' that will 
leverage technological leaps in areas of current U.S. military 
advantage to impose costs on competitors and demonstrate the ability to 
hinder or defeat their aggression.
    DOD intends its Third Offset Strategy to build on U.S. superiority 
in areas such as undersea warfare, long-range precision strike, air 
warfare, and battle networks and is implementing long range plans to 
guide its research. But unlike the previous Offset Strategies that 
focused on a small set of operational concepts and shifted significant 
funding to their supporting technologies, DOD's current plans appear to 
cover a wide range of technologies without operational concepts or 
significant resource reallocation. This lack of focus will 
significantly reduce the advantage the U.S. military can establish and 
delay relevant capabilities.
                exploiting emerging technological shifts
    DOD needs a coherent and disciplined technology strategy instead of 
``watering all the flowers'' with its current approach. The two most 
significant challenges this strategy should address are threats to 
America's ability to project power and paramilitary or insurgent 
threats to the sovereignty of its allies in Europe and Asia. It needs 
to address these challenges by establishing enduring advantages for 
U.S. forces, rather than just gaining the upper hand temporarily.
    America created enduring advantages in previous competitions by 
anticipating and preparing for the next phase in important warfare 
areas. For example, early in the Cold War, the U.S. Navy realized 
nuclear submarines would introduce a new phase of undersea warfare 
dominated by passive sonar and submarine quieting. It expanded 
investment in these capabilities and dominated the undersea against the 
Soviets for decades. Similarly, the U.S. Air Force saw how stealth and 
passive sensing would dramatically change air warfare and aggressively 
developed these capabilities. They did not reach the force until the 
Cold War's end, but stealth technologies have given U.S. forces the 
unique ability to strike targets conventionally anywhere on the globe 
for the last 25 years.
    America's adversaries are now quickly catching up in these and 
other missions. DOD needs to identify the next phases in warfare areas 
where DOD has an advantage today that it must protect to be able to 
credibly deter and defeat aggression in the future. These include:
    Undersea Warfare: The U.S. military's ability to project power 
against high-end adversaries hinges on the ability of its undersea 
forces to circumvent enemy air and surface defenses. As quiet 
submarines become the norm and passive sonars reach their range and 
size limits, active sonar and non-acoustic submarine detection will 
come to dominate undersea warfare. This could also increase the risk to 
U.S. submarines near adversary shores and compel them to shift from 
being tactical platforms, like fighter aircraft, to being host and 
coordination platforms, like aircraft carriers. To maintain its 
undersea dominance in light of these two shifts, DOD should focus on 
concepts and technologies for:

    <bullet>  Low frequency active sonar: They have longer ranges than 
today's shipboard sonars, but with lower resolution. Improved 
processing power will continue improving the accuracy of these systems.
    <bullet>  Active sonar countermeasures: As with radar above the 
water, jammers and decoys will become essential to spoof, confuse, and 
defeat enemy active sonars.
    <bullet>  Unmanned undersea vehicles (UUV): Particularly small ones 
that are hard to detect and can be bought and deployed in large numbers 
and large ones that can act as ``trucks'' to deploy seabed payloads and 
UUVs in coastal waters.
    <bullet>  Seabed payloads: Long-endurance sensors, communication 
relays, and power supplies for UUVs will be a key component of future 
undersea networks that enable submarines and other forces to support 
and control UUVs while finding and engaging enemy undersea forces.

    Strike Warfare: U.S. forces must be able to threaten targets an 
enemy values or may use to coerce U.S. allies. Passive and active 
measures including underground facilities and surface-to-air missiles 
are changing today's precision strike advantage into a strike vs. 
missile defense competition. DOD should pursue the following concepts 
and technologies to sustain its strike capability:

    <bullet>  Overwhelming defenses: Smaller, cheaper networked weapons 
are emerging that can be launched in large numbers. They will be able 
to find and classify targets in flight and collaborate to ensure 
intended targets are destroyed--even if some strike weapons are lost to 
enemy defenses on the way.
    <bullet>  Disrupting defenses: High-powered microwave (HPM) 
transmitters are becoming small enough to go on missiles and bombs, 
while becoming powerful and selectable enough to damage or disrupt 
enemy sensors, weapons, and control systems at standoff range.
    <bullet>  Reaching hardened and buried targets: New burrowing and 
electromagnetic pulse weapons offer the ability to reach locations 
enemies attempt to place out of reach without having to resort to 
unsustainably large salvos.

    Air Warfare: U.S. forces have been able to establish air 
superiority at will since the end of the Cold War. But improving low-
probability of detection (LPD) sensors and sophisticated long-range 
missiles are reducing the value of aircraft speed and maneuverability 
and favoring larger aircraft able to carry larger sensors and weapons 
payloads. To sustain its current air superiority, DOD should prioritize 
concepts and technologies for:

    <bullet>  Longer-range LPD classification sensors: Historically, 
air engagements are won by the first pilot to classify a contact as 
enemy and shoot. Emerging long and medium wave passive infrared sensors 
and laser detection and ranging systems will enable U.S. fighters and 
air defenses to detect and classify enemy aircraft farther away without 
themselves being classified.
    <bullet>  Smaller, less expensive missiles: New energetic materials 
are making motors and warheads smaller, while new materials and 
processors are shrinking guidance systems. The resulting weapons can be 
bought and carried in larger numbers.
    <bullet>  Directed energy: Solid state laser and HPM weapons are 
reaching maturity. They offer greater capacity for air defense than 
traditional interceptor systems such as Patriot and can be small enough 
to be carried on larger aircraft as an offensive or defensive system.

    Electromagnetic (EM) Spectrum Operations: The continued 
sophistication of radar and radar detectors will drive EM operations 
toward stealth and passive or LPD sensors and communications. DOD 
should advance the following concepts and technologies to achieve an 
enduring advantage in its battle networks:

    <bullet>  Multi-spectral stealth: New aircraft and ships 
incorporate features to reduce their radar signature. Stealth must now 
reduce the detectability of platforms to IR, UV, or acoustic detection 
as well.
    <bullet>  Networked, agile multi-function EM operations: Active 
Electronically Scanned Arrays (AESA) in the RF spectrum and focal plane 
arrays in the IR spectrum are becoming cheaper and smaller and can 
simultaneously transmit and receive over a wide range of frequencies. 
They can be incorporated on almost every platform and vehicle to 
conduct sensing, communication, and counter-sensing operations, 
enabling new multi-platform passive and LPD sensing and communication 
concepts.
    <bullet>  ``Intelligent'' EM operations: DOD must go beyond 
automating radio, jammer, or radar operations and instead get inside 
the enemy's decision loop. Emerging technologies can sense the EM 
environment, identify both known and unfamiliar threats, and manage EM 
operations to conduct friendly operations while denying those of the 
enemy. Intelligent EM systems being developed today will enable U.S. 
forces to get inside the enemy's decision loop and dominate the EM 
spectrum.
                 the importance of operational concepts
    New technologies will not establish an enduring advantage for U.S. 
forces unless they are employed in operational concepts that achieve 
friendly objectives while denying those of the enemy. For example, 
stealth without a concept for how it could be used to conduct precision 
strike or air interdiction would not be a game-changing technology. 
Similarly, passive sonar without concepts for using it to track and 
threaten enemy submarines would not yield an operational benefit.
    One effective approach for identifying promising combinations of 
concept and technology is wargaming, which Deputy Secretary Work has 
reinvigorated in the DOD. These games, however, have not yet translated 
into new operational concepts that guide technology investments, 
acquisition requirements, or resource allocation. Unless the insights 
from them are analyzed further and acted upon, DOD will continue to 
pursue new versions of today's capabilities. This approach may yield, 
at best, temporary advantages.
                   reforming how we field technology
    Acquisition reform must be an element of any attempt to innovate 
within DOD. Specifically, reform is needed to address unnecessarily 
high costs for new weapons systems that threaten to crowd out other new 
capabilities and protracted development timelines that prevent new 
technologies from getting to warfighters in time for them to be 
relevant.
    Acquisition reform initiatives being pursued by DOD and Congress 
focus on improving accountability, but the most significant hindrance 
to developing affordable systems on time and budget is the requirements 
process. By defining requirements for new acquisition programs in 
isolation from technical or fiscal considerations, DOD makes it more 
likely new systems will use immature technologies while costing more 
and taking longer than expected. Further, rather than defining 
requirements and then allowing the acquisition system to develop a 
range of solutions to different elements of those requirements, DOD 
currently writes a set of requirements tailored to each new system, 
essentially eliminating the competition of ideas that might otherwise 
ensue.
    Some improvements are being implemented today to bring acquisition 
and technology concerns into requirements development, but these are 
personality and system dependent. Instead, DOD should expand the 
development of new systems to meet already-existing requirements 
through prototyping and demonstration programs. This approach is 
already being used by organizations such as the OSD [Office of the 
Secretary of Defense] Strategic Capabilities Office (SCO) and Air Force 
Rapid Capabilities Office (RCO). It enables new systems to emerge from 
combinations of new operational concepts and technologies grounded in 
what is achievable and feasible in the near-term, rather than a ``wish 
list'' of what a new weapons system would ideally do in 20 years (when 
it would otherwise be fielded). In this approach requirements are used 
to evaluate the proposed system, rather than driving its development 
from the start.
    These efforts should be expanded in DOD and used as the basis for 
reforming the requirements process, particularly for smaller systems. 
Platforms such as ships and aircraft have long lifetimes and are 
designed to carry and support warfighters; a more deliberate 
requirements process would be appropriate for them. Payloads such as 
missiles and sensors generally have shorter lifetimes and faster 
technology refresh cycles. Their requirements may be defined less 
explicitly in advance and could be developed or evaluated in 
conjunction with prototype and demonstration efforts that evaluate 
their feasibility.
                               conclusion
    The U.S. military has enjoyed unrivaled superiority since the end 
of the Cold War, but the technological and operational advantages it 
has relied upon are quickly eroding in the face of proliferating 
weapons and widely available commercial technology. DOD and civilian 
research and analysis efforts offer the potential to sustain and 
enhance DOD's advantages in support of a Third Offset Strategy. In its 
implementation, however, the DOD's current initiatives perpetuate 
today's diffused and unfocused efforts to develop new capabilities. 
Unless it changes, the result will be a shrinking number of expensive 
weapons using Cold War-era technology, a decline in American influence, 
and allies unsure of America's ability to protect their interests.

    About the Center for Strategic and Budgetary Assessments
    The Center for Strategic and Budgetary Assessments (CSBA)is an 
independent, nonpartisan policy research institute established to 
promote innovative thinking and debate about national security strategy 
and investment options. CSBA's analysis focuses on key questions 
related to existing and emerging threats to U.S. national security, and 
its goal is to enable policymakers to make informed decisions on 
matters of strategy, security policy, and resource allocation.

    Chairman McCain. Thank you.
    Mr. Scharre?

 STATEMENT OF PAUL SCHARRE, SENIOR FELLOW AND DIRECTOR OF THE 
20YY WARFARE INITIATIVE, THE CENTER FOR A NEW AMERICAN SECURITY

    Mr. Scharre. Thank you, Chairman McCain, Ranking Member 
Reed, distinguished Senators. It is an honor to be here today.
    We are living in the midst today of an information 
revolution that is sweeping in its scope and scale. There is 
about $3.8 trillion spent every year on information technology, 
and that is more than double all military spending, R&D 
[Research and Development] procurement personnel by every 
country on earth combined.
    Now, that is maturing a number of underlying technologies 
and sensors, computer processing, data networking that will 
have significant impacts on how militaries fight. It is already 
having those impacts today.
    So we are seeing changes in warfare much like how the 
industrial revolution led to changes in World War I and World 
War II in tanks and aircraft and submarines. The U.S. has 
already been able to be a first mover in the information 
revolution and gain many of the fruits of this technology with 
things like GPS [global positioning systems] and stealth and 
things others have mentioned today.
    Now, the challenge that we have is this technology is 
proliferating to others. We got an early move, but we do not 
get a monopoly. As Chairman McCain mentioned, many of those 
investments are happening outside of the defense sector.
    So we saw in the Gulf War what some of these technologies 
can do in terms of inflicting significant damage and lethality 
on the enemy. But now we are going to have to face that same 
technology in warfare.
    There is precedent for these kinds of changes. In the late 
19th century, the British developed an early model machine gun, 
a Maxim gun, that they used for conquests all across Africa. 
But in World War I, they faced an enemy that also had machine 
guns with incredible devastating effects. In the Battle of the 
Somme, the British lost 20,000 men in a single day.
    We are not prepared for those changes that are coming as 
this technology proliferates to others and then continues to 
evolve and mature.
    Thousands of anti-tank guided missiles now litter the 
Middle East and North Africa in the hands of non-state groups. 
Countries like China and Russia are developing increasingly 
capable electronic warfare and long-range precision strike 
weapons and anti-space capabilities, all of which threaten our 
traditional modes of power projection.
    Now that they have guided weapons, they can target our 
forces with great precision as well, saturating and 
overwhelming our defenses. Now, today missile defenses are very 
costly and the cost-exchange ratio favors the offense.
    Now, this vulnerability of our major power projection 
assets, our carriers, our ships, tanks, our bases, coincides 
with the very unfortunate long-term trend in U.S. defense 
spending in decreasing numbers of capital assets. This precedes 
the current budget problem and will continue beyond it unless 
there are some major changes.
    For several decades, the per-unit cost of our ships and 
aircraft has steadily risen, shrinking the number of assets 
that we can afford. Now, to date our response is to build more 
capable assets. We have extremely capable, qualitatively 
capable, ships and aircraft and submarines and aircraft 
carriers. But, of course, this drives costs up even further, 
reducing our quantities even more.
    Now, this has made sense in a world where others do not 
have weapons that can target us with great precision. We have 
been willing to make this trade, and we have done so in many 
cases very deliberately trading quantity for quality.
    But this is no longer going to work in a world where others 
can target us as well with great precision; can concentrate 
their fire power on our shrinking number of major combat 
assets. We are putting more and more eggs into a smaller number 
of vulnerable baskets.
    Now, the Department of Defense broadly refers to these 
challenges as anti-access/area denial. The problem is 
reasonably well understood. The problem is in launching a new 
offset strategy to counter it. A better ship or better aircraft 
alone is not going to solve the problem because on the path we 
have been on with the acquisition system and our requirements 
system that we have, we will build something that is even more 
expensive that will be good but even more expensive, and we 
will have even fewer of them.
    So to operate in this area, we need a more fundamental 
shift in our military thinking. We need to be able to disperse 
our forces, disaggregate our capabilities into larger numbers 
of lower cost systems, operate and deceive the enemy through 
deception measures and decoys, and we need to be able to swarm 
and overwhelm enemy defenses with large numbers of low cost 
assets.
    Now, so early thinking along these lines is underway in 
many parts of the Department. The Army's new operating concept 
talks about dispersed operations inside anti-access areas. The 
Marine Corps is also experimenting with distributed operations 
inside the littorals. The Naval Postgraduate School is 
researching aerial swarm combat with a 50-on-50 dog fight 
between swarm drones that they are working to develop. DARPA's 
[Defence Advanced Research Projects Agency] System of Systems 
Integration Technology and Experimentation program--it is one 
of those long DOD acronyms called SoSITE, S-o-S-I-T-E--aims to 
disaggregate aircraft capabilities entirely into a swarm of low 
cost expendable, cooperative assets.
    So collectively these hint at the next paradigm shift in 
warfare, from fighting as a network of a very small number of 
expensive, exclusive assets as we do today to fighting as a 
swarm of a large number of cooperative distributed assets.
    The main obstacles that stand in our way are not 
fundamentally technological. We could build the technology and 
within a reasonable defense budget if we are willing to make 
trades. They are not financial. The main obstacle is 
conceptual. It is a willingness to experiment with new ways of 
warfighting, and it is urgent that we begin this process of 
experimentation now.
    Thank you very much.
    [The prepared statement of Mr. Scharre follows:]

                   Prepared Statement by Paul Scharre
                      disruptive change in warfare
    Warfare--the way in which militaries fight--is constantly evolving. 
Militaries compete in a cycle of innovations, countermeasures, and 
counter-countermeasures in an attempt to gain an advantage over their 
enemies. War is a punishing environment, and even a small edge in 
capability can lead to dramatically different outcomes. A slightly 
longer-range sensor, missile, or longer spear can mean the difference 
between life and death. Occasionally, some innovations lead to a major 
disruption in warfare that changes the rules of the game entirely. 
Better horse cavalry no longer matter when the enemy has tanks. Better 
battleships are irrelevant in an age of aircraft carriers. New 
technologies are often catalysts for these changes, but it is their 
combination with doctrinal and organizational innovations in war that 
leads to paradigm shifts on the battlefield. Tanks or aircraft alone 
might be beneficial, but they require new training, organizations, and 
concepts for use to create the blitzkrieg.
    Even while militaries seek ordinary, incremental gains over 
adversaries, they must constantly be on guard for disruptive changes 
that revolutionize warfare. This challenge is particularly acute for 
dominant military powers, such as the United States today, who are 
heavily invested in existing ways of fighting while underdogs must 
innovate by necessity.
    Are we on the verge of another paradigm shift in warfare? On what 
timeframe? Is one already underway? If so, what early conclusions can 
we draw about these changes? There are two elements driving changes in 
warfare that will unfold in the coming decades:
    The first is the proliferation of existing advanced technologies to 
a wider range of actors. Even though these technologies already exist, 
their proliferation to multiple actors across the international system 
will change the operating environment for U.S. forces. Technologies 
that the United States has itself used in war, but not yet faced on the 
battlefield, are finding their way into the hands of potential 
adversaries. This will force changes in U.S. concepts of operation and 
capabilities, changes that can be seen in nascent form today but have 
not yet fully matured.
    Technology does not stand still, however. The information 
revolution, which has already yielded advances such as GPS, stealth, 
and precision-guided weapons, continues apace. Advances in autonomy, 
cyber weapons, data fusion, electronic warfare, synthetic biology, and 
other areas are likely to drive significant changes in military 
capabilities. This second driving force--the continued maturation of 
the information revolution--could lead to even more profound changes in 
how militaries fight.
    The U.S. military must prepare for these changes to come, which 
will inevitably unfold at uneven rates and in surprising ways. While no 
one can predict the future, U.S. defense spending represents a de facto 
prediction about what sorts of capabilities planners believe are likely 
to be useful in future conflicts. Research and development (R&D) and 
procurement investments often take decades to mature and yield 
platforms that stay in the force for even longer. The new Air Force 
long range strike bomber (LRS-B) will not reach initial operational 
capability for 10 years and will likely remain in the force for decades 
beyond. The B-52 bomber has been in service for 60 years. This year, 
the U.S. Navy began laying the keel for a new aircraft carrier, the USS 
John F. Kennedy (CVN-79), which will remain in active service until 
2070. These investments represent multi-billion dollar bets that 
warfare will evolve in such a way that these capabilities will remain 
useful for decades to come.
    Disruptive change is a near certainty over these timescales, 
however. The twentieth century saw major disruptive changes in warfare 
in World War I, World War II, the Cold War with the advent of nuclear 
weapons, and the Gulf War with first-generation information age weapons 
such as stealth, GPS, and precision strike. Thus, it is imperative that 
military planners peer as best they can into an uncertain future to try 
to understand the shape of changes to come.
                       the future is already here
    Science fiction author William Gibson, who coined the term 
cyberspace, has remarked, ``The future is already here, it's just not 
evenly distributed yet.'' Many of the changes to come in warfare will 
come not from new technologies, but from the diffusion of existing ones 
throughout the international system. \1\ The resulting difference in 
scale of a technology's use can often lead to dramatically different 
effects. A single car can help a person get from point A to point B 
faster. A world full of cars is one with superhighways, gridlock, smog, 
suburbia, road rage, and climate change. In war, the battlefield 
environment can look dramatically different when one technology 
proliferates to many actors.
---------------------------------------------------------------------------
    \1\ Michael Horowitz, The Diffusion of Military Power: Causes and 
Consequences for International Politics (New Jersey: Princeton)
---------------------------------------------------------------------------
    There is historical precedent for such changes. At the end of the 
nineteenth century, the British used an early model machine gun, the 
Maxim Gun, to aid their conquests of Africa. This technology gave them 
a decisive advantage over indigenous forces who did not have it. 
Machine gun technology rapidly proliferated to European competitors, 
however, resulting in a very different battlefield environment. In 
World War I, the British faced an enemy who also had machine guns and 
the result was disaster. At the Battle of the Somme, Britain lost 
20,000 men killed in a single day. Their concepts for warfighting had 
failed to evolve to their new reality.
    Today the United States faces a similar challenge. The 1991 Gulf 
War hinted at the potential of information age warfare. U.S. battle 
networks comprised of sensors, communication links, and precision-
guided weapons allowed U.S. forces to employ great lethality on the 
battlefield against Iraqi forces. \2\ The United States had these 
advantages because it was a first-mover in the information revolution, 
capitalizing on these opportunities before others. \3\
---------------------------------------------------------------------------
    \2\ Max Boot, War Made New: Weapons, Warriors, and the Making of 
the Modern World (Gotham, 2006).
    \3\ Barry Watts, The Evolution of Precision Strike (Washington DC: 
Center for Strategic and Budgetary Assessments, 2013).
---------------------------------------------------------------------------
    Now these same technologies are proliferating to others and the 
result is a very different operating environment. Thousands of anti-
tank guided missiles are in the hands of non-state groups in the Middle 
East and North Africa. Countries such as China are building long-range 
missiles to target our bases and ships. Now that others have guided 
weapons, they can target U.S. forces with great precision, saturating 
and overwhelming U.S. defenses. Missile interceptors to defend our 
assets are costly, and the cost-exchange ratios favor the offense.
    This vulnerability of major U.S. power projection platforms--our 
ships, air bases, and aircraft--to precision-guided weapons is 
particularly unfortunate because it coincides with a long-term trend in 
decreasing numbers of U.S. major combat systems. For several decades, 
per unit costs for ships and aircraft have steadily risen, shrinking 
the number of major combat assets the United States can afford. This 
trend preceded the current budget crunch and, unless corrected, will 
continue long after.
    To date, the U.S. response has been to make its platforms more 
capable to offset their reduced numbers. This has further driven up 
costs, exacerbating this trend. In a world where the enemy has unguided 
weapons, the United States has been willing to accept this trade. The 
U.S. has fewer ships and aircraft in its inventory than twenty years 
ago, but they are more capable.
    But in a world where the enemy can target U.S. forces with a high-
degree of precision, having a small number of exquisite systems creates 
an enormous vulnerability, because the enemy has fewer targets on which 
to concentrate firepower.
    The Department of Defense broadly refers to these adversary 
capabilities as ``anti-access / area denial'' (A2/AD), because any U.S. 
forces within their range will be vulnerable to attack. \4\ The 
Department of Defense has launched a new offset strategy to regain 
American military technical superiority. But the solution to this 
problem cannot be merely a better ship or aircraft. On the current 
trajectory, those assets would be even more expensive and purchased in 
fewer numbers, placing even more eggs in a smaller number of vulnerable 
baskets.
---------------------------------------------------------------------------
    \4\ U.S. Department of Defense, Air-Sea Battle: Service 
Collaboration to Address Anti-Access & Area Denial Challenges 
(Washington DC, 2013).
---------------------------------------------------------------------------
    A more fundamental shift in American military thinking is needed. 
To operate against adversaries with precision-guided weapons, the U.S. 
needs to disperse its forces, disaggregate its capabilities, confuse 
enemy sensors through decoys and deception, and swarm enemy defenses 
with large numbers of expendable assets.
    Early thinking along these lines is already underway in many 
corners of the Department of Defense. The Army's new operating concept 
includes dispersed operations for anti-access environments. \5\ The 
Marine Corps is experimenting with distributed operations across the 
littorals. The Naval Postgraduate School is researching aerial swarm 
combat. \6\ DARPA's System of Systems Integration Technology and 
Experimentation program aims to disaggregate aircraft capabilities into 
a swarm of cooperative, low cost expendable air vehicles. \7\
---------------------------------------------------------------------------
    \5\ U.S. Army, The U.S. Army Operating Concept: Win in a Complex 
World, 2020-2040, October 31, 2014, http://www.tradoc.army.mil/tpubs/
pams/tp525-3-1.pdf.
    \6\ Rollin Bishop, ``Record-Breaking Drone Swarm Sees 50 UAVs 
Controlled by a Single Person,'' Popular Mechanics, September 16, 2015, 
http://www.popularmechanics.com/flight/drones/news/a17371/record-
breaking-drone-swarm/.
    \7\ Defense Advanced Research Projects Agency, ``System of Systems 
Integration Technology and Experimentation (SoSITE),'' http://
www.darpa.mil/program/system-of-systems-integration-technology-and-
experimentation.
---------------------------------------------------------------------------
    Collectively, these efforts hint at the next paradigm shift in 
warfare: from fighting as a network of a few, expensive platforms as we 
do today; to in the future fighting as a swarm of many, low cost assets 
that can coordinate their actions to achieve a collective whole. The 
diffusion of advanced military technology is also increasing the number 
of actors who can effectively contest U.S. forces in certain domains--
undersea, the electromagnetic spectrum, space, and cyberspace. Areas 
where the United States has largely had freedom of maneuver to date are 
now becoming increasingly congested, requiring new U.S. responses.
    As the U.S. military adjusts to a world of proliferated precision-
guided weapons and adapts its concepts of operation to counter-A2/AD 
capabilities, it must also be cognizant of even more dramatic changes 
to come.
                  the unfolding information revolution
    The information revolution has already led to significant changes 
in warfare by enabling the advanced sensors, communications networks, 
and guided weapons that led to U.S. superiority and now anti-access 
capabilities as they proliferate. But the information revolution is not 
stopping. $3.8 trillion is invested annually in information technology, 
roughly double all military spending--procurement, R&D, personnel, 
construction--of every country on earth. \8\ While the United States 
was an early first-mover in information technology, the fruits of the 
massive commercial sector investments in better sensors, processors, 
and networks will be available to many.
---------------------------------------------------------------------------
    \8\ ``Gartner Says Worldwide IT Spending to Grow 2.4 percent in 
2015,'' Gartner.com, January 12, 2015, http://www.gartner.com/newsroom/
id/2959717.
---------------------------------------------------------------------------
    The scale of this investment, along with the continued exponential 
growth in computing power, virtually guarantees disruptive change. \9\ 
But in what ways will the continuing information revolution change 
warfare? Specific military applications may not yet be known, but we 
can look at underlying trends in what information technology enables. 
Across the many diverse applications of information technology run 
three core trends: increasing transparency, connectivity, and machine 
intelligence.
---------------------------------------------------------------------------
    \9\ Computing power continues advancing at an exponential rate, but 
the pace of change has begun to decline. See ``Performance 
Development,'' Top500.org, http://www.top500.org/statistics/perfdevel/; 
and Michael Feldman, ``Life Beyond Moore's Law,'' Top500.org, http://
www.top500.org/blog/life-beyond-moores-law/.
---------------------------------------------------------------------------
Increasing transparency
    One of the core features of the information revolution is the 
``datafication'' of our world--the generation of large amounts of 
digital data. Combined with the fact that computers make it virtually 
costless to copy information, this has resulted in a freer flow of 
information that is making the world increasingly transparent. 
Satellite images, once the province only of superpowers, are now 
available free online. Police and security services have found their 
activities subject to unprecedented scrutiny and are scrambling to 
adapt, even in the United States. \10\ Even secret government data is 
not as secret as it once was. According to the U.S. government, Edward 
Snowden stole in excess of an estimated 1.7 million documents, the 
largest leak in history. \11\ A leak of such scale would have been 
nearly impossible in a pre-digital era. The Vietnam Era Pentagon 
Papers, by comparison, were a mere 7,000 pages photocopied by hand. 
\12\ The datafication of our world combined with the ease with which 
digital information can be copied and shared is leading to a world that 
is more transparent, with secrets harder to keep on all sides. Sifting 
through this massive amount of data, particularly when it is 
unstructured and heterogeneous, becomes a major challenge.
---------------------------------------------------------------------------
    \10\ Scott Calvert, ``In Baltimore, Arrests Down and Crime Up,'' 
Wall Street Journal, May 20, 2015, http://www.wsj.com/articles/in-
baltimore-arrests-down-and-crime-up-1432162121. Michael S. Schmidt and 
Matt Apuzzo, ``F.B.I. Chief Links Scrutiny of Police With Rise in 
Violent Crime,'' New York Times, October 23, 2015, http://
www.nytimes.com/2015/10/24/us/politics/fbi-chief-links-scrutiny-of-
police-with-rise-in-violent-crime.html?_r=0.
    \11\ Chris Strohm and Del Quentin Wilber, ``Pentagon says Snowden 
took most U.S. secrets ever: Rogers,'' Bloomberg,com, January 9, 2014, 
http://www.bloomberg.com/news/articles/2014-01-09/pentagon-finds-
snowden-took-1-7-million-filesrogers-says.
    \12\ Douglas O. Linder, ``The Pentagon Papers (Daniel Ellsberg) 
Trial: An Account,'' 2011, http://law2.umkc.edu/faculty/projects/
ftrials/ellsberg/ellsbergaccount.html.
---------------------------------------------------------------------------
Increasing connectivity
    Information technology is increasing the degree of connectivity 
between people and things, both in terms of the number of people and 
things online as well as the volume and bandwidth of information 
exchanged. As the Internet continues to colonize the material world, 
more objects are increasingly networked (e.g., Internet of things), 
enabling remote access and information-sharing, as well as making them 
susceptible to hacking. Social media enables many-to-many 
communication, allowing any individual to share their story or report 
on abuses of authorities. The result is a fundamental shift in 
communication power dynamics, upending relationships between 
individuals and traditional authorities. In addition, connectivity 
allows crowdsourcing of problems and ideas, accelerating the pace of 
innovation and the momentum of human communication.
Increasingly intelligent machines
    The rapid growth in computing power is resulting in increasingly 
intelligent machines. When embodied in physical machines, this trend is 
allowing the growth of increasingly capable and autonomous munitions 
and robotic systems. \13\ Advanced computing also allows for the 
processing of large amounts of data, including gene sequencing, 
enabling advances in ``big data,'' artificial intelligence, and 
synthetic biology. While current computing methods have limitations and 
face tapering growth rates, possible novel computing methods, such as 
quantum computing or neural networks, hold potential for continued 
growth in intelligent machines. \14\
---------------------------------------------------------------------------
    \13\ Robert Work and Shawn Brimley, 20YY: Preparing for War in the 
Robotic Age (Washington DC: Center for a New American Security, 2014). 
Paul Scharre, Robotics on the Battlefield Part 1: Range, Persistence 
and Daring (Washington DC: CNAS, 2014), and Robotics on the Battlefield 
Part 2: The Coming Swarm (Washington DC: CNAS 2015. From a certain 
perspective, a guided weapon is a simple robot.
    \14\ Top500.org.
---------------------------------------------------------------------------
           six contests that will shape the future of warfare
    As militaries weigh how to spend scarce defense dollars, they must 
grapple with the challenge of predicting which attributes will be most 
valuable in the decades to come. Should they focus on speed, stealth, 
range, sensing, data processing, armor, mobility, or other areas? All 
of these attributes are valuable, but which will be most crucial to 
surviving the conflicts of the 21st Century?
    As the information revolution continues to mature, six key 
operational concepts will shape the future of warfare:

    1.  Hiding vs. Finding
    2.  Understanding vs. Confusion
    3.  Network Resilience vs. Network Degradation
    4.  Hitting vs. Intercepting
    5.  Speed of Action vs. Speed of Decision-Making
    6.  Shaping the Perceptions of Key Populations

    These contests are a product of both the proliferation of existing 
guided weapons, sensors, and networks as well as future advancements in 
information technology. Militaries will seek to both exploit these 
technologies for their own gain, finding enemies on the battlefield and 
striking them with great precision, as well as develop countermeasures 
to conceal their forces, sow confusion among the enemy, degrade enemy 
networks, and intercept incoming projectiles. As they do so, 
information-based technologies will not be the only ones that will be 
useful. Advances in directed energy weapons or electromagnetic rail 
guns to intercept enemy guided weapons, for example, have great 
potential value. But the scale of changes in greater transparency, 
connectivity, and more intelligent machines will make capitalizing on 
these advantages and countering adversaries' attempts to do so critical 
for gaining an operational advantage in the battlefields of the twenty-
first century. While militaries will seek dominance on both sides of 
these contests, technological developments may tilt the balance to 
favor one or the other side over time.
Hiding vs. Finding
    One of the prominent features of information-enabled warfare to-
date is the development of precision-guided weapons that can strike 
ships, aircraft, and bases at long distances. Defensively, this has 
placed a premium on hiding. Non-state groups seek to blend into 
civilian populations. State actors increasingly rely on mobile systems, 
such as mobile air defense systems and mobile missile launchers. 
Because of these innovations in hiding, offensive operations are often 
limited by intelligence, surveillance, and reconnaissance (ISR) 
capabilities. For the past two decades, the United States has been on 
the offensive side of this exchange. However, adversary developments in 
long-range precision strike are forcing the United States to think more 
carefully about concealment strategies as well. Because precision-
guided weapons can deliver a high volume of lethal firepower directly 
on a target, whoever gets the first salvo may decide victory. Getting 
that first shot may also depend increasingly on one's ability to 
effectively hide, while deploying sufficient sensors to find the enemy 
first. The maxim ``look first, shoot first, kill first'' may apply not 
only in beyond visual range air-to-air combat, but in all domains of 
warfare.
    One important asymmetry in the hiding vs. finding contest is the 
ability to leverage increasing computer processing power to sift 
through noise to detect objects, including synthesizing information 
gained from multiple active or passive sensors. This makes it 
increasingly difficult for those seeking to hide because they must 
conceal their signature or actively deceive the enemy in multiple 
directions at once and potentially against multiple methods of 
detection. Advanced electronic warfare measures enable precision 
jamming and deception, but these methods require knowing the location 
of enemy sensors, which may be passive. \15\ Thus, a contest of hiding 
and finding capital assets may first depend on a preliminary contest of 
hiding and finding distributed sensors and jammers lurking in the 
battlespace. These techniques, both for distributed passive sensing and 
distributed precision electronic warfare, depend upon effectively 
networked, cooperative forces, which are intimately linked with other 
contests. \16\
---------------------------------------------------------------------------
    \15\ Mark J. Mears, ``Cooperative Electronic Attack Using Unmanned 
Air Vehicles,'' Air Force Research Lab, Wright-Patterson Air Force 
Base, http://www.dtic.mil/dtic/tr/fulltext/u2/a444985.pdf.
    \16\ Paul Scharre, ``Robotics on the Battlefield Part II: The 
Coming Swarm,'' 32.
---------------------------------------------------------------------------
    Certain domains of warfare may have inherent characteristics that 
make hiding more or less difficult, changing where militaries make 
their investments over time. Warfare undersea is likely to become 
increasingly important, as the underwater environment offers a relative 
sanctuary from which militaries can project power well inside 
adversaries' anti-access zones. Cross-domain capabilities that allow 
militaries to project power from the undersea into air and land may be 
increasingly useful. Conversely, as other nations develop counter-space 
capabilities, U.S. investments in space are increasingly at risk. 
During the Cold War, the U.S. and U.S.S.R. had a tacit understanding 
that counter-space capabilities were destabilizing, since they could be 
seen as a prelude to a nuclear first strike. However, the era of U.S. 
sanctuary in space is over as U.S. satellites face an increasing array 
of threats from kinetic and non-kinetic weapons as well as the specter 
of cascading space debris. \17\ Satellites move through predictable 
orbits in space and maneuvering expends precious fuel, making them 
inherently vulnerable to attack. This vulnerability places a premium on 
redundant non-space backups to enhance U.S. resiliency and diminish the 
incentives for an adversary to strike first in space.
---------------------------------------------------------------------------
    \17\ Brian Weeden, ``The End of Sanctuary in Space,'' War is 
Boring, https://medium.com/war-is-boring/the-end-of-sanctuary-in-space-
2d58fba741a#.u6i8y2rpd. On the prospect of a runaway cascade of space 
debris, see Donald J. Kessler and Burton G. Cour-Palais (1978). 
``Collision Frequency of Artificial Satellites: The Creation of a 
Debris Belt''. Journal of Geophysical Research 83: 2637-2646, http://
onlinelibrary.wiley.com/doi/10.1029/JA083iA06p02637/abstract.
---------------------------------------------------------------------------
    Technology areas that could enhance hiding or finding include:

    <bullet>  Hiding
      o  Adaptive and responsive jamming
      o  Precision electronic attack
      o  Counter-space capabilities (kinetic and non-kinetic)
      o  Metamaterials for electromagnetic and auditory cloaking
      o  Cyber defenses
      o  Low-cost autonomous decoys
      o  Undersea capabilities--submarines, autonomous uninhabited 
undersea vehicles, and undersea payload modules
      o  Quantum encryption techniques (which can sense if the 
communications link is being intercepted) \18\
---------------------------------------------------------------------------
    \18\ This technique is called quantum key distribution. For an 
overview, see Valerio Scarani et al., ``The Security of Practical 
Quantum Key Distribution,'' Reviews of Modern Physics 81, 1301, 
September 30, 2009, http://arxiv.org/pdf/0802.4155.pdf.
---------------------------------------------------------------------------
    <bullet>  Finding
      o  Sensor fusion / data fusion
      o  Distributed sensing
      o  Foliage-penetrating radar
      o  Resilient space-based surveillance
      o  Low-signature uninhabited vehicles for surveillance
      o  Low-cost robotic systems, including leveraging commercial 
components for clandestine surveillance
      o  Long-endurance power solutions (such as radioisotope power) to 
enable persistent robotic surveillance systems
      o  Networked, undersea sensors
      o  Cyber espionage
      o  Quantum computing (to break encryption) \19\
---------------------------------------------------------------------------
    \19\ Steven Rich and Barton Gellman, ``NSA seeks to build quantum 
computer that could crack most types of encryption,'' Washington Post, 
January 2, 2014.

Understanding vs. Confusion
    As the volume and pace of information on the battlefield increases 
(including misinformation), turning information into understanding will 
be key. A key contest in war will be between adversary cognitive 
systems, both artificial and human, to process information, understand 
the battlespace, and decide and execute faster than the enemy. Advances 
in machine intelligence show great promise for increasing the ability 
of artificial cognitive systems to understand and react to information 
in intelligent, goal-oriented ways. However, machine intelligence 
remains ``brittle.'' While it is possible to design machines that can 
outperform humans in narrow tasks, such as driving, chess, or answering 
trivia, human intelligence far outstrips machines in terms of its 
robustness and adaptability to a wide range of problems. For the 
foreseeable future, the best cognitive systems are likely to be hybrid 
architectures combining human and machine cognition, leveraging the 
advantages of each. \20\
---------------------------------------------------------------------------
    \20\ Paul Scharre, ``Centaur Warfighting: The False Choice of 
Humans vs. Automation'' (forthcoming). Tyler Cowen, ``What are Humans 
Still Good for? The Turning Point in Freestyle Chess may be 
Approaching,'' Marginal Revolution, November 5, 2013.
---------------------------------------------------------------------------
    These technologies also offer the potential for new 
vulnerabilities, as militaries will attempt to thwart their enemies' 
ability to understand the operating environment by denying accurate 
information, planting misinformation, and sowing doubt in whatever 
information an enemy already has. Deception has been a key component of 
military operations for millennia and will remain so in the future, and 
these technologies will offer new opportunities for increasing 
confusion. \21\
---------------------------------------------------------------------------
    \21\ For example, Sun Tzu wrote: ``All warfare is based on 
deception.'' Sun Tzu, The Art of War, Chapter 1.
---------------------------------------------------------------------------
    Technology areas that could affect understanding or confusion 
include:

    <bullet>  Understanding
      o  Artificial cognitive systems
        <bullet>  Advanced microprocessor design \22\
---------------------------------------------------------------------------
    \22\ Top500.org.
---------------------------------------------------------------------------
        <bullet>  Data processing and ``big data'' analytics
        <bullet>  Artificial intelligence, neural networks, and ``deep 
learning''
    <bullet>  Human cognitive performance enhancement
        <bullet>  Pharmaceutical enhancements, such as Adderall or 
Modafinil
        <bullet>  Training methods, such as transcranial direct current 
stimulation
        <bullet>  Synthetic biology
    <bullet>  Human-machine synthesis
        <bullet>  Human factors engineering and human-machine 
interfaces
        <bullet>  Brain-computer interfaces \23\
---------------------------------------------------------------------------
    \23\ For example, see Nick Stockton, ``Woman Controls a Fighter Jet 
Sim Using Only Her Mind,'' Wired, March 5, 2015, http://www.wired.com/
2015/03/woman-controls-fighter-jet-sim-using-mind/.
---------------------------------------------------------------------------
        <bullet>  Synthetic telepathy
    <bullet>  Confusion
      o  Cyber espionage and sabotage
      o  Misinformation, deception, and spoofing attacks
      o  Human performance degradation
      o  Tailored biological weapons

    An important asymmetry between the United States and potential 
adversaries is the uneasiness with which human enhancement technologies 
are viewed in the United States. While there are no legal or ethical 
objections per se to human enhancement, they raise many legal and 
ethical issues that must be addressed. Experiments with cognitively 
enhancing drugs and training techniques can and have been performed in 
military labs, meeting stringent legal and ethical requirements. \24\ 
However, there remains a cultural prejudice in some military 
communities against human enhancement, even for treatments that have 
been shown to be both safe and effective. The Department of Defense 
currently lacks overarching policy guidance to the military services to 
articulate a path forward on human performance enhancing technologies. 
\25\
---------------------------------------------------------------------------
    \24\ For example, see Caldwell et al., ``Modafinil's Effects on 
Simulator Performance and Mood on Pilots During 37 H Without Sleep,'' 
Aviation, Space, and Environmental Medicine (September 2004), 777-784, 
http://www.ncbi.nlm.nih.gov/pubmed/15460629; McKinley et al., 
``Acceleration of Image Analyst Training with Transcranial Direct 
Current Stimulation,'' Behavioral Neuroscience (February 2015), http://
www.ncbi.nlm.nih.gov/pubmed/24341718.
    \25\ For an overview, see Patrick Lin et al., ``Enhanced 
Warfighters: Risk, Ethics, and Policy,'' January 1, 2013, http://
ethics.calpoly.edu/greenwall_report.pdf.
---------------------------------------------------------------------------
Network Resilience vs. Network Degradation
    Networking allows military forces to fight as a coherent whole, 
rather than as individual, non-cohesive units. For the past two 
decades, the U.S. military has been able to leverage the advantages of 
a networked force and has largely fought with freedom of maneuver in 
space and the electromagnetic spectrum. However, military networks will 
be increasingly contested by jamming, cyber attacks, and physical 
attacks on communications nodes. Resilient networks that are flexible 
and adaptable in the face of attacks, as well as doctrine that can 
adapt to degraded network operations, will be key to maintaining a 
force that can fight through network attacks. This includes ``thin 
line'' redundant backups that may offer limited communications among 
distributed forces, as well as off-network solutions. While many 
solutions for network resilience encompass doctrine and training to 
fight under degraded network conditions, technological solutions are 
also important to maintain networks under stress. This includes not 
only communications, but also position, navigation, and timing data, 
which are critical for synchronized and precise global military 
operations.
    Technology areas affecting network resilience and degradation 
include:

    <bullet>  Network resilience
      o  Protected communications, such as low probability of intercept 
and detection communications
      o  High-altitude long-endurance aircraft or airships to function 
as pseudo-satellites (``pseudo-lites'')
      o  Software-defined radios (to allow adaptable communications)
      o  Open-architecture communications systems, to allow rapid 
adaptability of hardware and software to respond to enemy jamming
      o  Cyber defenses
      o  Autonomous undersea vehicles (to protect undersea 
communications infrastructure)
      o  Lower-cost space launch options
      o  Faster-responsive space launch options to replenish degraded 
space architectures
      o  GPS-independent position, navigation, and timing
    <bullet>  Network degradation
      o  Improved jamming techniques
      o  Offensive cyber weapons
      o  Anti-satellite weapons (kinetic and non-kinetic)
      o  High-powered microwave weapons to disrupt or destroy 
electronic systems
Hitting vs. Intercepting
    Finding the enemy, understanding the data, and passing it to the 
right warfighting elements is only a prerequisite to achieving effects 
on target, frequently from missiles or torpedoes. If ``knowing is half 
the battle,'' the other half is violence. Because guided weapons can 
put lethal effects directly on a target, intercepting inbound threats 
or diverting them with decoys is generally a more effective response 
than attempting to mitigate direct hits via improved armor. However, 
missile defense is a challenging task. Missiles are difficult to strike 
mid-flight, requiring multiple interceptors, resulting in cost-exchange 
ratios that currently favor the offense.
    A number of possible technology breakthroughs could tilt this 
balance in either direction:

    <bullet>  Hitting
      o  Networked, cooperative munitions, including cooperative decoys 
and jammers
      o  Hypersonic weapons
      o  Advanced stealth, both for missiles and aircraft
      o  Large numbers of low-cost swarming missiles or uninhabited 
systems to saturate enemy defenses
      o  Airborne, undersea, or sea surface arsenal ships or ``missile 
trucks'' to more cost-effectively transport missiles to the fight
      o  High-fidelity decoys to increase the costs to defenders
      o  Long-endurance uninhabited aircraft to enable long-range 
persistence and strike
    <bullet>  Intercepting
      o  Low cost-per-shot electric weapons, such as high-energy lasers 
and electromagnetic rail guns
      o  High quality radars for tracking incoming rounds and guiding 
interceptors
      o  Long-endurance uninhabited aircraft for forward ballistic 
missile defense, both for launch detection and boost phase intercept
      o  Persistent clandestine surveillance, from space assets, 
stealthy uninhabited aircraft, or unattended ground sensors for early 
detection of ballistic missile launch and pre-launch preparation

    The U.S. military has long sought low cost-per-shot weapons such as 
high-energy lasers and electromagnetic rail guns to upend the missile 
defense cost-exchange ratio. High-energy lasers have already been 
demonstrated against slow-moving, unhardened targets such as low-cost 
drones or mortars. Current operationally-ready lasers are in the tens 
of kilowatts, however, and scaling up to sufficient power to intercept 
ballistic missiles would require on the order of a megawatt, more than 
an order of magnitude improvement. \26\ While such improvements are 
frequently seen in computer-based technologies, laser technology and 
perhaps more importantly key enablers such as cooling and energy 
storage are not improving at such a rapid pace. Electromagnetic rail 
guns, on the other hand, currently show the most promise for defense 
against ballistic missiles. They require significant amounts of power, 
however, on the order of tens of megajoules, necessitating more 
advanced power management systems, similar to those on the DDG-1000 
destroyer. \27\
---------------------------------------------------------------------------
    \26\ Jason Ellis, ``Directed Energy Weapons: Promise and 
Prospects,'' Center for a New American Security (Washington, DC), April 
2015, http://www.cnas.org/sites/default/files/publications-pdf/
CNAS_Directed_Energy_Weapons_April-2015.pdf.
    \27\ Office of Naval Research, ``Electromagnetic Railgun,'' http://
www.onr.navy.mil/Science-Technology/Departments/Code-35/All-Programs/
air-warfare-352/Electromagnetic-Railgun.aspx; U.S. Navy, ``DDG-1000 
fact sheet,'' http://www.navsea.navy.mil/teamships/PEOS_DDG1000/
DDG1000_factsheet.aspx.
---------------------------------------------------------------------------
Speed of Action vs. Speed of Decision-Making
    Speed has always been a critical aspect of warfare. Understanding 
the battlefield and reacting faster than the enemy can help in 
achieving a decisive edge over one's adversary, forcing the enemy to 
confront a shifting, confusing chaotic landscape. In recent times, this 
has been instantiated in the American military concept of an 
``observe, orient, decide, act'' (OODA) loop, where adversaries compete 
to complete this cycle faster than the enemy, thus changing the 
battle's conditions before the enemy can understand the situation and 
effectively respond. But the concept is ancient. Sun Tzu wrote, ``Speed 
is the essence of war.'' \28\
---------------------------------------------------------------------------
    \28\ Sun Tzu, The Art of War, Chapter 11. This statement is 
sometimes translated as ``swiftness'' or ``rapidity'' in place of 
``speed.''
---------------------------------------------------------------------------
    Many emerging technologies have the potential to accelerate the 
pace of battle even further, including hypersonics, directed energy 
weapons, cyber weapons, and autonomous systems. Militaries will seek to 
leverage these technologies and other innovations, such as improved 
training, doctrine, or organizations, to understand and react faster 
than the enemy. Nascent developments in these areas highlight a 
different contest, however--the challenge commanders have in keeping 
control over their own forces on the battlefield.
    The tension between the speed of action on the battlefield and the 
speed of decision-making by commanders will be an important aspect of 
future warfare. Disaggregated and dispersed swarming tactics may be 
valuable for operating within A2/AD areas and decentralized control 
will push decision-making closer to the battlefield's edge, but this 
comes at a cost of less direct control for higher commanders. 
Coordinating action across a widely dispersed battlefield will improve 
operational effectiveness, but depends upon resilient networks and 
effective command and control architectures. Different militaries will 
balance these tensions in different ways, with some retaining 
centralized control and others delegating decision-making to 
battlefield commanders.
    While this tension between centralized vs. decentralized command 
and control is not new, an important new dimension to this dilemma is 
the role of automation. Autonomous systems--robotics, data processing 
algorithms, and cyberspace tools--all have the potential to execute 
tasks far faster than humans. Automated stock trading, for example, 
happens at speeds measured in milliseconds. \29\ Autonomous systems 
will pose advantages in reacting quickly to changing battlefield 
conditions. They also pose risks, however. Autonomous systems are 
``brittle''--if used outside of their intended operating conditions, 
they may fail unexpectedly and dramatically. Automated stock trading, 
for example, has played a role in ``flash crashes,'' including the May 
2010 flash crash where the U.S. stock market lost nearly 10 percent of 
its value in a matter of minutes. \30\ Autonomous systems also may be 
more vulnerable to some forms of spoofing or behavioral hacking, which 
also allegedly played a role during the 2010 flash crash. \31\ 
Militaries will therefore want to think hard about the balance of human 
and machine decision-making in their systems. ``Human circuit 
breakers'' may be valuable safeguards against hacking and failures in 
autonomous systems, even if they induce some delays. \32\
---------------------------------------------------------------------------
    \29\ Irene Aldridge, High-Frequency Trading: A Practical Guide to 
Algorithmic Strategies and Trading Systems, 2nd Edition (Wiley Trading, 
2013), http://www.amazon.com/gp/product/B00B0H9S5K/ref=dp-kindle-
redirect?ie=UTF8&btkr=1.
    \30\ U.S. Commodity Futures Trading Commission and U.S. Securities 
and Exchange Commission, Findings Regarding the Market Events of May 6, 
2010 (September 30, 2010), 2, http://www.sec.gov/news/studies/2010/
marketevents-report.pdf. See also, Torben G. Andersen and Oleg 
Bondarenko, ``VPIN and the Flash Crash,'' Journal of Financial Markets 
17 (May 8, 2013), http://papers.ssrn.com/sol3/
papers.cfm?abstract_id=1881731; David Easley, Marcos Lopez de Prado, 
and Maureen O'Hara, ``The Microstructure of the `Flash Crash': Flow 
Toxicity, Liquidity Crashes, and the Probability of Informed Trading,'' 
The Journal of Portfolio Management, 37, no. 2 (Winter 2011), http://
papers.ssrn.com/sol3/papers.cfm?abstract_id=1695041; and Wes Bethel, 
David Leinweber, Oliver Ruebel, and Kesheng Wu, ``Federal Market 
Information Technology in the Post Flash Crash Era: Roles for 
Supercomputing,'' Proceedings of the Fourth Workshop on High 
Performance Computational Finance (September 25, 2011), http://
papers.ssrn.com/sol3/papers.cfm?abstract_id=1939522.
    \31\ Douwe Miedema and Sarah N. Lynch, ``UK Speed Trader Arrested 
over Role in 2010 `Flash Crash','' Reuters, April 21, 2015, http://
www.reuters.com/article/2015/04/21/us-usa-security-fraud-
idUSKBN0NC21220150421.
    \32\ Paul Scharre and Michael C. Horowitz, ``Keeping Killer Robots 
on a Tight Leash,'' Defense One, April 14, 2015, http://
www.defenseone.com/ideas/2015/04/keeping-killer-robots-tight-leash/
110164/.
---------------------------------------------------------------------------
    One example area where militaries already face this challenge is in 
defending against rocket, missile, and mortar attack. At least 30 
countries have automated defensive systems to defend land bases, ships, 
and vehicles from saturation attacks that could overwhelm human 
operators. \33\ These systems are vital for protecting military assets 
against salvos of guided munitions, but they are not without their 
drawbacks. In 2003, the U.S. Patriot air defense system shot down two 
friendly aircraft and its automation played a role in the incidents. 
\34\
---------------------------------------------------------------------------
    \33\ Paul Scharre and Michael C. Horowitz, ``An Introduction to 
Autonomy in Weapon Systems,'' Center for a New American Security, 
February 2015, http://www.cnas.org/sites/default/files/publications-
pdf/Ethical%20Autonomy%20Working%20Paper_021015_v02.pdf.
    \34\ John K. Hawley, ``Looking Back at 20 Years of MANPRINT on 
Patriot: Observations and Lessons,'' Army Research Laboratory, 
September 2007, http://www.arl.army.mil/arlreports/2007/ARL-SR-
0158.pdf. Office of the Under Secretary of Defense For Acquisition, 
Technology, and Logistics, Report of the Defense Science Board Task 
Force on Patriot System Performance Report Summary, 20301-3140 (January 
2005), http://www.acq.osd.mil/dsb/reports/ADA435837.pdf.
---------------------------------------------------------------------------
    Balancing the tension between the speed of action on the 
battlefield and the speed of decision-making by commanders is less 
about specific technologies than how those technologies are used and 
the training, rules of engagement, doctrine, and organizations that 
militaries employ. Realistic training under conditions of imperfect 
information and degraded networks can help prepare commanders for real-
world situations that demand decisive, decentralized action. Improved 
human-machine interfaces and design can also help in retaining 
effective human control over high-speed autonomous systems. \35\ 
Cognitive human enhancement may also play a role. Ultimately, 
militaries will have to balance the risks associated with delegating 
too much authority--whether to people or autonomous systems--and 
running the risk of undesired action on the battlefield vs. withholding 
authority and risking moving too slowly to respond to enemy action. 
There is no easy answer to this problem, but technology that quickens 
the pace of battle is likely to force it to be an even more significant 
dilemma in the future.
---------------------------------------------------------------------------
    \35\ John K. Hawley, ``Not by Widgets Alone: The Human Challenge of 
Technology-intensive Military Systems,'' Armed Forces Journal, February 
1, 2011, http://www.armedforcesjournal .com/not-by-widgets-alone/.
---------------------------------------------------------------------------
Shaping the Perceptions of Key Populations
    Technologies can aid in the conduct of war, but war is fought by 
people. Maintaining the support of key populations has always been 
critical in war. In guerrilla wars and insurgencies, influencing the 
civilian population is a direct aim of both sides, but even in nation-
state conflicts domestic support is crucial to sustaining the campaign. 
Militaries have often sought, as both sides did in World War II, to sap 
the will of the enemy population, either through propaganda or even 
direct attacks.
    The radical democratization of communications brought about by 
social media, the internet, blogs, and ubiquitous smartphones has 
increased the diversity of voices and the volume and pace of 
information being exchanged, altering the way in which actors compete 
to influence populations. In a pre-internet era, mass communications 
were the province of only a few organizations--governments and major 
media organizations. Even in democratic countries, there were only a 
handful of major newspaper and television outlets. Information 
technology and the advent of many-to-many communications has shifted 
the media landscape, however. Any person can now gain a nationwide or 
international following on YouTube, Twitter, or any number of other 
social media venues. Governments and non-state groups are already 
leveraging these tools to their benefit. Jihadist videos showing 
attacks--both for propaganda and instructional purposes--are available 
on YouTube. Russia has 
deployed an army of Twitter bots to spread its propaganda. \36\ The 
Islamic State similarly employs a sophisticated network of human 
Twitter users to spread its messages. \37\
---------------------------------------------------------------------------
    \36\ Lawrence Alexander, ``Social Network Analysis Reveals Full 
Scale of Kremlin's Twitter Bot Campaign,'' GlobalVoices.org, April 2, 
2015, https://globalvoices.org/2015/04/02/analyzing-kremlin-twitter-
bots/ and Lawrence Alexander, ``The Curious Chronology of Russian 
Twitter Bots,'' GlobalVoices.org, April 27, 2015, https://
globalvoices.org/2015/04/27/the-curious-chronology-of-russian-twitter-
bots/. For an interesting survey of Twitter bot activity and analysis 
of a specific application, see Stefanie Haustein et al., ``Tweets as 
impact indicators: Examining the implications of automated `bot' 
accounts on Twitter,'' http://arxiv.org/pdf/1410.4139.pdf.
    \37\ Jared Cohen, ``Digital Counterinsurgency: How to Marginalize 
the Islamic State Online,'' Foreign Affairs (November/December 2015), 
https://www.foreignaffairs.com/articles/middle-east/digital-
counterinsurgency.
---------------------------------------------------------------------------
    Various conflict actors, state and non-state alike, will seek to 
leverage new media tools as well as old media to help spread their 
messages. While states generally have more resources at their disposal, 
the net effect of the widespread availability of social media is to 
increase the relative power of non-state groups, whose messaging tools 
are now far more capable than twenty years ago. This means that even in 
conflicts between nation-states, messaging directly to various 
publics--the enemy's, one's own, and third parties--may be critical to 
influencing perceptions of legitimacy, victory, and resolve.
      strategic agility: a strategy for managing disruptive change
    How should the U.S. military prepare for these potential disruptive 
changes in warfare? While investments in key technology areas are 
important, the U.S. defense budget is insufficient, even in the best of 
times, to invest in every possible game-changing opportunity. Moreover, 
technology alone will rarely lead to paradigm shifts in warfare without 
the right concepts for use. To sustain American military dominance, the 
Department of Defense should pursue a strategy of strategic agility, 
with a focus on increasing the DOD's ability to rapidly respond to 
disruptive changes in warfare. \38\ Rapid reaction capabilities, 
modular design, and experimentation are critical components of 
achieving strategic agility.
---------------------------------------------------------------------------
    \38\ Richard Danzig, Driving in the Dark Ten Propositions About 
Prediction and National Security (Washington DC: Center for a New 
American Security, 2011).
---------------------------------------------------------------------------
Rapid reaction capabilities
    U.S. military forces have evolved considerably since the Cold War, 
but the nation remains saddled with a Cold War-era bureaucracy that is 
too sluggish to respond to the pace of change of modern warfare. The 
DOD's capability development process proved wholly inadequate to 
respond to emergent needs in Iraq and Afghanistan, necessitating the 
creation of ad hoc standalone processes and task forces, such as the 
MRAP Task Force, ISR Task Force, JIEDDO [Joint Improvised Threat Defeat 
Agency], Rapid Equipping Force, Joint Rapid Acquisition Cell, and other 
entities. \39\ While the specific capabilities that these groups 
fielded may not be needed in future wars, the need for rapid reaction 
capabilities is universal. In fact, rapidly responding to enemy 
innovations is likely to be even more critical in major nation-state 
wars than in counterinsurgencies, which often play out over longer time 
horizons and at lower violence levels. DOD should move to 
institutionalize many of the ad hoc processes developing during the 
most recent wars and ensure the Department is better prepared for rapid 
adaptability in future conflicts.
---------------------------------------------------------------------------
    \39\ Mine Resistant Ambush Protected Vehicle (MRAP) Task Force; 
Intelligence Surveillance and Reconnaissance (ISR) Task Force; Joint 
Improvised Explosive Device Defeat Organization (JIEDDO). For more on 
these and other rapid capability processes, see Department of Defense, 
``Report of the Defense Science Board Task Force on Fulfillment of 
Urgent Operational Needs,'' July 2009, http://www.acq.osd.mil/dsb/
reports/ADA503382.pdf; Christopher J. Lamb, Matthew J. Schmidt, and 
Berit G. Fitzsimmons, ``MRAPs, Irregular Warfare, and Pentagon 
Reform,'' Institute for National Strategic Studies, Occasional Paper 6, 
June 2009, http://usacac.army.mil/cac2/cgsc/sams/media/MRAPs.pdf; and 
Ashton B. Carter, ``Running the Pentagon Right,'' Foreign Affairs, 
January/February 2014, https://www.foreignaffairs.com/articles/
unitedstates/2013-12-06/running-pentagon-right.
---------------------------------------------------------------------------
Modular design
    Even as DOD pursues more rapid reaction capabilities, major 
platforms such as submarines, aircraft carriers, aircraft, and tanks 
will still have lifespans measured in decades. In order to ensure their 
continuing utility, modularity should be front and center in their 
design, with the platform conceived of as a ``truck'' to carry various 
weapon systems that can be more easily upgraded over time. In practice, 
this modular design principle is already in use in many weapon systems 
throughout the U.S. military, from the F-16 to the B-52 to the M-1 
tank, all of which have had many upgrades over the course of their 
lifespan. Some platforms are inherently modular, such as aircraft 
carriers, which carry aircraft that then project combat power. \40\ 
This principle of modularity, which emphasizes ``payloads over 
platforms'' should be expanded to include ``software over payloads'' as 
well, allowing rapid technology refresh to keep pace with the 
information revolution.
---------------------------------------------------------------------------
    \40\ Jerry Hendrix, Retreat from Range: The Rise and Fall of 
Carrier Aviation (Washington DC: Center for a New American Security, 
2015).
---------------------------------------------------------------------------
    Furthermore, modular design can evolve entirely beyond the 
platform, as the DARPA SOSITE program does, emphasizing the weapon 
system as a collection of plug-and-play platforms that can be upgraded 
over time. This concept places a greater burden on protected 
communications between distributed system elements. When successful, 
however, this concept allows even more rapid technology refresh as 
individual platform elements can be replaced individually without 
redesigning the entire weapon system, upgrading combat capability 
incrementally and at lower cost.
Experimentation
    In 1943, Lieutenant General Lesley McNair, then Commander of Army 
Ground Forces, sent a memorandum to the Chief of Staff of the Army 
arguing for reducing armor-centric units in favor of making tanks 
subordinate to infantry. LTG McNair explained that the success of the 
German blitzkrieg was, in his mind, an aberration and that the proper 
role of tanks was ``to exploit the success of our infantry.'' \41\ The 
fact that there remained significant debates within the U.S. Army as 
late as 1943, after Germany had decisively demonstrated the 
effectiveness of armored forces in Europe, shows the importance of 
doctrine in exploiting paradigm shifts in warfare. New technologies 
alone rarely accrue significant battlefield advantage if they are not 
used in combination with new concepts of operation, training, doctrine, 
and organization.
---------------------------------------------------------------------------
    \41\ Kent Roberts Greenfield, Robert R. Palmer and Bell I. Wiley, 
United States Army in World War II, The Army Ground Forces, The 
Organization of Ground Combat Troops (Washington, D.C.: U.S. Government 
Printing Office, 1947), 319-335, http://www.history.army.mil/html/
books/002/2-1/CMH_Pub_2-1.pdf. See also Kenneth Steadman, ``The 
Evolution of the Tank in the U.S. Army,'' Combat Studies Institute: 
U.S. Army Command and General Staff College, April 21, 1982.
---------------------------------------------------------------------------
    From a training perspective, the U.S. military currently retains 
many advantages over potential adversaries; however, that also means 
others have more room for 
improvement. When it comes to embracing new doctrinal or organizational 
shifts, however, U.S. military dominance may actually be a weakness. 
U.S. organizations heavily invested in current ways of warfighting may 
be slow to adapt to disruptive changes. \42\ A rigorous and deliberate 
program of experimentation is critical to uncovering new ways of 
warfighting and breaking out of pre-conceive doctrinal paradigms.
---------------------------------------------------------------------------
    \42\ Paul Scharre, ``How to Lose the Robotics Revolution,'' War on 
the Rocks, July 29, 2014, http://warontherocks.com/2014/07/how-to-lose-
the-robotics-revolution/.
---------------------------------------------------------------------------
    Experiments differ from training or unit qualification as the 
purpose of experiments is to try new ideas, fail, adapt, and try again 
in order to learn how new technologies change warfare. The U.S. 
military currently lacks sufficient depth in experimentation, which is 
critical to sustaining U.S. military advantage in the face of 
disruptive change. The ability to rapidly adjust not only the hardware 
and digital software comprising military power, but also the human 
software--the training, doctrine, concepts of operation, and 
organizations--is likely to be the most critical factor in ensuring 
long-term advantage.
                               conclusion
    The twentieth century saw a number of major disruptive changes in 
warfare, with the introduction of machine guns, tanks, aircraft, 
submarines, nuclear weapons, GPS, stealth, guided munitions, and 
communications networks all changing how militaries fought in war. The 
penalty for nations that failed to adapt to these changes was high. 
While the United States weathered these changes and in many cases led 
them, future success is not guaranteed. The proliferation of existing 
advanced technologies around the globe and the continued unfolding of 
the information revolution will drive further changes in how militaries 
fight. To be best prepared for the changes to come, the U.S. military 
should pursue strategic agility, supported by rapid reaction 
capabilities, modular design, and experimentation to rapidly respond to 
disruptive change. While the specific shape of the future is uncertain, 
the need to adapt to the challenges to come is universal.

    Chairman McCain. Dr. Singer?

STATEMENT OF DR. PETER W. SINGER, STRATEGIST AND SENIOR FELLOW, 
                          NEW AMERICA

    Dr. Singer. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, thank you for inviting 
me to join you here today. It is a deep honor.
    I am a defense analyst who has written nonfiction books on 
various emerging topics of importance to the series from 
private military contractors to drones and robotics to 
cybersecurity to my new book ``Ghost Fleet: A Novel of the Next 
World War,'' which combines nonfiction style research with a 
fictionalized scenario of a 21st century great power conflict 
to explore the future of war.
    This choice of scenario is deliberate as while terrorism 
and Middle East insurgencies are not going away, we face a 
return to the most serious kind of national security concern 
that shaped the geopolitics of the last century, great power 
competition, which could spill into actual conflict, either by 
accident or choice. In turn, the scale of such a challenge 
demonstrates the stakes at hand which hopefully we will not 
have to wait for to drive change.
    In my written submission, I cover five key areas that 
distinguish the future of war, most especially in a great power 
context and needed actions we need to take from recognizing the 
challenges of new domains of conflict in space and cyberspace, 
to dealing with our pattern of buying what I call the Pontiac 
Azteks of war, defense programs that are over-promised, over-
engineered, and end up overpriced.
    But in my remarks today, I would like to focus on one 
important issue, the new technology race at hand.
    Since 1945, U.S. defense planning has focused on having a 
qualitative edge to overmatch our adversaries, planning to be a 
generation ahead in technology and capability. This assumption 
has become baked into everything from our overall defense 
strategy all the way down to small unit tactics.
    Yet U.S. forces cannot count on that overmatch in the 
future. Mass campaigns of state-linked intellectual property 
theft has meant we are paying much of the research and 
development costs for our adversaries. These challengers are 
also growing their own cutting-edge technology. China, for 
example, just overtook the EU [European Union] in national R&D 
spending and is on pace to match the U.S. in 5 years, with new 
projects ranging from the world's fastest supercomputers to 
three different long-range drone strike programs. Finally, off-
the-shelf technologies can be bought to rival even the most 
advanced tools in the U.S. arsenal.
    This is crucial as not just are many of our most long-
trusted, dominant platforms from warships to warplanes 
vulnerable to new classes of weapons now in more conflict 
actors' hands but an array of potentially game-changing weapons 
lie just ahead in six key areas.
    New generation of unmanned systems, both more diverse in 
size, shape, and form, but also more autonomous and more 
capable, meaning they can take on more roles from ISR to 
strike, flying off of anything from aircraft carriers to 
soldiers' hands.
    Weapons that use not just the kinetics of a fist or the 
chemistry of gunpowder, but energy itself, ranging from 
electromagnetic railguns able to a fire projectile 100 miles to 
new directed energy systems that potentially reverse the cost 
equations of offense and defense.
    Artificial intelligence, ubiquitous sensors, big data, and 
battle management systems that will redefine the observe, 
orient, and decide and act, the OODA loop.
    Hypersonics, high speed rockets and missiles, 3-D printing 
technologies that threaten to do to the current defense 
marketplace what the iPod did to the music industry.
    Human performance modification technologies that will 
reshape what is possible and maybe even what is proper in war.
    The challenge, though, is the comparison that could be 
drawn between what is now or soon to be possible versus what 
are we actually buying today or planning to buy tomorrow. Our 
weapons modernization programs are too often not that modern. 
For example, if you start at the point of their conception, 
most of our top 10 programs of record are all old enough to 
vote for you, with several of them actually older than me.
    We too often commit to mass buys before a system is truly 
tested, locking in on single major programs that are too big to 
fail and actually are not all that new. This dynamic shapes not 
just what we buy but extends their development time and 
ultimately our expectations of how much of it we will buy 
decades into the future, limiting our present and future 
flexibility. To abuse a metaphor, the growing per-unit cost of 
the cart is driving where we steer the horse.
    At the heart of this is that while ``disruption'' is the 
new buzz word in defense thinking today, part of the Pentagon's 
new outreach to Silicon Valley, we struggle with the dual 
meaning of the concept. We claim to aspire for the new, but to 
be disrupted, the outdated must be discarded.
    The roadblocks to disruption play at multiple levels, from 
specific weapons programs to organizational structures, to 
personnel systems and operating concepts. For instance, there 
is a long record of the Government funding exciting new 
projects that then wither away in that space between lab and 
program of record because they cannot supplant whatever old 
gear or program, factory, or internal tribe that is in the way. 
Indeed, there is even a term for it, the ``valley of death.'' 
The same goes for all the new and important ideas and proposals 
you have heard in these hearings over the last several weeks. 
To be adopted, though, something will have to be supplanted.
    As you program for the future, ultimately what you support 
in the new game-changers of not just programs but also 
thinking, structures, and organizations what you eliminate in 
the old and what you protect and nurture across that valley 
will matter more than any single additional plane or tank 
squeezed into a budget line item or OCO [overseas contingency 
operations] funding. It may even be the difference between the 
win or loss of a major war tomorrow.
    I would like to close by offering two quotes that can serve 
hopefully as guideposts, one looking back and one forward.
    The first is from the last interwar period where Churchill 
may have said it best. Quote: ``Want of foresight, 
unwillingness to act when action would be simple and effective, 
lack of clear thinking, confusion of counsel until the 
emergency comes, until self-preservation strikes its jarring 
gong, these are the features which constitute the endless 
repetition of history.''
    The second is from a professor at China's National Defense 
University, arguing in a regime newspaper how his own nation 
should contemplate the future of war. Quote: ``We must bear a 
third world war in mind when developing military forces.'' End 
quote.
    We need to be mindful of both the lessons of the past but 
acknowledge the trends in motion and the real risks that loom 
in the future. That way we can take the needed steps to 
maintain deterrence and avoid miscalculation and, in so doing, 
keep the next world war where it belongs, in the realm of 
fiction.
    Thank you.
    [The prepared statement of Dr. Singer follows:]

               Prepared Statement by Dr. Peter W. Singer
                       the lessons of world war 3
    United States and Chinese warships battle at sea, firing everything 
from cannons to cruise missiles to lasers. Stealthy Russian and 
American fighter jets dogfight in the air, with robotic drones flying 
as their wingmen. Hackers in Shanghai and Silicon Valley duel in 
digital playgrounds. Fights in outer space decide who wins below on 
Earth.
    Are theses scenes from a novel or what could actually take place in 
the real world the day after tomorrow? The answer is both.
    Senator McCain, Senator Reed, thank you and the rest of the 
committee for inviting me here today. I am a defense analyst, who has 
written nonfiction books on various emerging topics of importance to 
the discussions in this series, ranging from private military 
contractors to drones and robotics to cybersecurity. Today I'd like to 
present a few of the lessons from my new book Ghost Fleet: A Novel of 
the Next World War, which combines nonfiction style research with the 
fictionalized scenario of a 21st century great power conflict to 
explore the future of war.
                   old conflict risks and new stakes
    Great power conflicts defined the 20th century: two world wars 
claimed tens of millions of lives and the ``cold'' war that followed 
shaped everything from geopolitics to sports. At the start of the 21st 
century, however, the ever present fear of World War III was seemingly 
put into our historic rearview mirror. We went from worrying about 
powerful states to failed states, from a focus on the threats of 
organized national militaries to transnational networks of individual 
terrorists and insurgents. Indeed, just four years ago the New York 
Times published an article arguing the era of wars between states was 
over and that ``War Really Is Going Out of Style.''
    If only it would. Today, with Russian landgrabs in the Ukraine and 
constant flights of bombers decorated with red stars probing Europe's 
borders, NATO is at its highest levels of alert since the mid 1980s. In 
the Pacific, China built more warships and warplanes than any other 
nation during the last several years, while the Pentagon has announced 
a strategy to ``offset'' it with a new generation of high-tech weapons.
    Wars start through any number of pathways; one world war happened 
through deliberate action, the other a crisis that spun out of control. 
In the coming decades, a war might ignite accidentally, such as by two 
opposing warships trading paint near a reef not even marked on a 
nautical chart. Or it could slow burn and erupt as a reordering of the 
global system in the late 2020s, the period at which China's military 
build up is on pace to match the U.S.
    Making either scenario more of a risk is that military planners and 
political leaders on all sides assume their side would be the one to 
win in a ``short'' and ``sharp'' fight, to use common phrases.
    Let me be 100% clear, I do not think such a conflict is inevitable; 
though it is noteworthy that the Communist Party's official People's 
Daily newspaper warned that if the U.S. didn't change its policies in 
the Pacific, ``A U.S.-China war is inevitable . . . '' While this may 
be a bit of posturing both for a U.S. and highly nationalist domestic 
audience (A 2014 poll by the Perth US-Asia center found that 74 percent 
of Chinese think their military would win in a war with the U.S.), it 
illustrates further a simple but essential point: The global context is 
changing and what was once thinkable and then became unthinkable, is 
again thinkable.
    For the committee's important work, it means our planning for 
deterrence and warfighting must recognize these risks, and the greater 
stakes. To give a historic parallel, it is the difference between the 
challenges that the British as a dominant global power in the last 
century faced in many of the very same places we find ourselves today, 
like Afghanistan and Iraq, versus the stakes and losses of World War 
One and Two.
                         multi-domain conflict
    A great power conflict would be quite different from the so-called 
``small wars'' of today that the U.S. has grow accustomed to and, in 
turn, others think reveal a new American weakness. One of the key 
aspects is where it might take place, not in specific locations on a 
map like the South China sea, but in overall domains.
    Unlike the Taliban, ISIS (Islamic State of Iraq and Syria), or even 
Saddam Hussein's Iraq, great powers can and will fight across all the 
domains. This will present new threats in areas whwre we've had 
unfettered access; indeed, the last time the U.S. fought a peer in the 
air or at sea was in 1945.
    But a 21st century fight would also see battles for control of two 
new domains. The lifeblood of military communications and control now 
runs through space, meaning we would see humankind's first battles for 
the heavens. Indeed, both China and Russia have anti-satellite weapons 
programs. Similarly, we'd learn that ``cyber war'' is far more than 
stealing social security numbers or email from gossipy Hollywood 
executives, but the takedown of the modern military nervous system and 
Stuxnet-style digital weapons causing physical damage. Worrisome for 
the U.S. is that last year the Pentagon's weapons tester found every 
single major weapons program had ``significant vulnerabilities'' to 
cyber attack, while many of our newest weapons are powered by 
microchips increasingly designed and built by those they might face off 
against, opening up the risks of hardware hacks.
    In both spaces, we have to focus more on building up resilience to 
achieve ``deterrence by denial,'' taking away the potential fruits of 
any attack. This will require new innovative approaches, like networks 
of small, cheap satellites, rather than a small number of billion 
dollar points of failure, and new additions to our cybersecurity 
activities. This again is not merely a matter of greater spending, but 
being willing to explore new approaches and forgo our pattern of 
putting new challenges and capabilities into old boxes. For instance, 
there is much to learn from how Estonia went from being one of the 
first state victims of mass cyber attacks to one of the most secure 
against them, including through the creation of a Cyber Defense League.
                               a new race
    Since 1945, U.S. defense planning has focused on having a 
qualitative edge to ``overmatch'' our adversaries, seeking to be a 
generation ahead in technology. This assumption has become baked into 
everything from our overall defense strategy all the way down to small 
unit tactics.
    Yet U.S. forces can't count on that overmatch in the future. Mass 
campaigns of state-linked intellectual property theft has meant we are 
paying much of the research and development costs of our challengers 
(note the F-35 and J-31 fighter jet's similarity, for example). These 
challengers are also growing their own technology. China, for example, 
just overtook the EU in R&D spending and is on pace to match the U.S. 
in five years, with new projects ranging from the world's fastest 
supercomputers in the civilian space to three different long range 
drone strike programs on the military side. Finally, off-the-shelf 
technologies can be bought to rival even the most advanced tools in the 
U.S. arsenal. The winner of a recent robotics test, for instance, was 
not a U.S. defense contractor but a group of South Korea student 
engineers.
    This is crucial as not just are many of our most long trusted 
platforms vulnerable to new classes of weapons, now in a wider array of 
conflict actors' hands, but an array of potentially game-changing 
weapons lie just ahead:

    <bullet>  A new generation of unmanned systems, both more diverse 
in size, shape, and form, but also more autonomous and more capable, 
meaning they can take on roles from ISR [Intelligence, Surveillance and 
Reconnaissance] to strike, flying from anything from aircraft carriers 
to soldier's hands.
    <bullet>  Weapons that operate using not the kinetics of a fist or 
gunpowder driving a bullet but energy itself, ranging from 
electromagnetic railgun, able to fire a projectile 100 miles, to new 
directed energy systems that potentially reverse the cost equations of 
offense and defense.
    <bullet>  Super long-range, and hyper fast air to air and air to 
ground missiles and strike systems.
    <bullet>  Artificial Intelligence, ubiquitous sensors, Big Data, 
and Battle Management systems that will redefine the observe, orient, 
decide and act (OODA) loop.
    <bullet>  3-D printing technologies that threaten do to the current 
defense marketplace what the iPod did to the music industry.
    <bullet>  Human performance modification technologies that will 
reshape what is possible in the human side of war.

    I would urge the committee and its staff to visit some of the 
various amazing government labs and facilities, from DARPA to the 
Office of Naval Research to Sandia to Air Force Research Lab, just to 
mention a few, where you can see firsthand how none of these science 
fiction sounding technologies are fictional.
    The challenge, though, is the comparison that could be drawn 
between what is now or soon to be possible versus what we are actually 
buying today or planning to buy tomorrow. Our weapons modernization 
programs are too often not that modern. For example, if you start at 
their point of conception, most of our top 10 Programs of Record are 
old enough to vote, with a few actually older than me.
    We too often commit to mass buys before a system is truly tested, 
locking in on single major programs that are ``too big to fail'' and 
actually aren't all that new. This dynamic shapes not just what we buy, 
but extends their development time, and ultimately our expectations of 
how much of that system we will buy decades into the future, limiting 
our present and future flexibility. To abuse a metaphor, the growing 
per unit costs of the cart drives where we steer the horse.
    At the heart of this failing dynamic is that while ``disruption'' 
is a new buzzword in defense thinking today, part of the Pentagon's new 
outreach to Silicon Valley, we struggle with the dual meaning in the 
concept: We claim to aspire for the new, but to be disrupted, the 
outdated must also be discarded. Amazon didn't merely pioneer online 
book sales, but it also ended the business of most brick and mortar 
bookstores.
    The roadblocks to disruption exist at multiple levels, from 
specific weapons programs to organizational change and operating 
concepts. For instance, there is a long record of the government 
funding exciting new projects that then wither away in that space 
between lab and program of record because they can't supplant whatever 
old gear or program, factory, or internal tribe that is in the way. 
Indeed, there is even a term for it: the ``Valley of Death.'' The same 
goes for all the new and important concepts you have heard about in 
these hearings over the last few weeks. To be adapted, something will 
have to be supplanted.
    As you program for the future, ultimately what you support in the 
new gamechangers of not just programs, but also thinking, structures 
and organizations, what you eliminate in the old, and what you protect 
and nurture across that ``Valley'' will matter more than any single 
additional plane or tank squeezed into a budget line item or OCO 
funding. It may be the difference between the win or loss of a major 
war tomorrow.
                       the pontiac azteks of war
    The issue, though, is not just one of pursuing new innovations, but 
that we too often plan for the best in the future of war, not expect 
the worst.
    A key challenge here is our defense acquisition systems has 
specialized in designing, building, and buying the Pontiac Azteks of 
war. The Aztek, which debuted in 2001, was a car that optimistically 
tried to be everything--a sports car, a minivan and an SUV [Sport 
Untility Vehicle]. Instead, it ended up overengineered, overpriced and 
overpromised. There is an array of Pentagon programs today with similar 
characteristics. We optimistically and unrealistically planned for them 
to be good at all types of war, but they risk being unequal to many of 
our new challenges.
    For example, in the air, we are in the midst of buying jet fighters 
with shorter range than their World War II equivalents three 
generations back and a tanker aircraft that lacks the defensive systems 
for anything above a ``medium threat'' environment, at the very moment 
a potential adversary is developing longer reach to target both their 
bases and themselves in an air to air fight. At sea, we are embarking 
on a buying program for a warship that the Navy's own tester says is 
``not expected to be survivable in high-intensity combat.''
    There are deep dangers of this kind of ``fingers crossed'' 
planning. What will it be like in the 2020s to fly a fighter jet 
conceived in the 1990s that happens to get in a dogfight or is called 
upon to do close air support? That leaders in 2015 argued such 
situations wouldn't happen will be little aid to that pilot. What 
happens if an adversary decides not to play by our rules and raises the 
fight above ``medium threat'' level? What happens to a crew that goes 
into battle in a ship ``next expected to be survivable'' for the 
battle?
    My hope is that in helping the U.S. military prepare for the 
future, this committee constantly looks to the potential worst day of 
he future of war, not the best.
                       challenge the assumptions
    From the rise of great powers to the introduction of new classes of 
technology to waves of globalization, we are living through a series of 
sweeping changes that impact the fundamental where, when, how, and even 
who of war. Child soldiers, drone pilots, and hackers all now play a 
role in war. Still, especially given the overreach of acolytes of 
network-centric warfare during the last 1990s drawdown (who argued that 
technology would somehow solve all our problems, ``lifting the fog of 
war''), it must be noted that nothing changes the why of war--our human 
flaws and mistakes still drive conflict, whether it is fought with a 
stone or a drone.
    Nor does it mean that we can ignore the historic lessons of war, 
where we repeatedly fall prey to what HR McMaster has described as key 
``myths'' of war. War will never be perfect. Indeed, when military 
aircraft gained widespread adoption in the 1920s, a new breed of 
thinkers like Billy Mitchell and Giulio Douhet claimed that there would 
be no more need for old ground armies. Yet the need for ``boots on the 
ground'' lived on throughout the 20th century--just as it will live on 
into the 21st.
    Such caveats are not to say that the new technologies like the tank 
or the airplane weren't fundamental shifts in the last century or that 
the dynamic shifts should be ignored in ours. If the United States 
wants to hold on to its grip on the top, just spending more is no 
longer sustainable, nor the right answer. Much as both military and 
civilian leaders in the British Empire had to rethink their assumptions 
about the world, our old assumptions need to be re-examined today.
    We must be open to change across the system, from rethinking how we 
conduct professional military education (such as by making the war 
college more competitive and encouraging and rewarding more externships 
to diversify thinking and exposure to new technologies and concepts) to 
re-examining the very roles we envision for weapons. Just as the B-52 
went being conceived as a strategic nuclear bomber to offering powerful 
close air support capabilities, we might see everything from 
submarines gaining new utility by becoming more akin to aircraft 
carriers for unmanned air and sea systems or long range strike bombers 
complicating enemy 
access denial plans by taking on roles once handled by jet fighters and 
AWACs [Airborne Warning and Control System] and RPA [Robotic Process 
Automation] controllers. Much is possible, if we allow ourselves to 
break free of the status quo and 
experiment our way into the future.
    To continue that Interwar years parallel, we will benefit from 
programs more akin to the Louisiana Maneuvers and Fleet Problem 
exercises that broke new ground and helped discover the next generation 
of both technology and human talent, rather than an approach that 
focuses on validating present capabilities and approaches and/or making 
allies feel better about themselves.
    Any true change will be uncomfortable, of course, as there will be 
winners and losers in everything from the defense marketplace to 
personnel systems. It is to be expected that necessary change will 
inevitably be resisted, sometimes for valid reasons, sometimes for 
reasons that have nothing to do with battlefield performance. For 
instance, the British not only invented the tank and used it 
successfully in World War I, but they carried out a series of 
innovative tests during the interwar years on the famous Salisbury 
plain that showed just how game-changing tanks could be in the next 
conflict. Yet the British veered away from fully adapting to the 
Blitzkrieg concept they arguably birthed, largely because of the 
consequences that implementing it would have had on the cherished 
regimental system that was at the center of British military culture. 
This was not just a British pheonomenon; as late as 1939, the head of 
the U.S. Cavalry, Maj. Gen. John Knowles Herr was testifying to 
Congress about the superiority of horse forces and resisting the shift 
to mechanized units. We should be mindful of any parallels today. This 
resistance will sometime be direct and sometimes be behind the scenes, 
including by claiming never to be satisfied budget wants prevent 
change, when that is what should be causing it.
    In this time of strategic and technologic shift, my hope is that 
the committee will be constantly challenging the status quo and the 
underlying assumptions about what is and is not changing.
                              conclusions
    There are two quotes that can serve as guide posts in this effort, 
one looking back and one forward. The first is from the last interwar 
period, where Churchill may have said it best: ``Want of foresight, 
unwillingness to act when action would be simple and effective, lack of 
clear thinking, confusion of counsel until the emergency comes, until 
self-preservation strikes its jarring gong--these are the features 
which constitute the endless repetition of history.''
    The second is from a professor at China's National Defense 
University, arguing in a regime newspaper how his own nation should 
contemplate the future of war: ``We must bear a third world war in mind 
when developing military forces.''
    We need to be mindful of both the lessons of the past, but also 
acknowledge the trends in motion and the real risks that loom in the 
future. That way we can take the needed steps to maintain deterrence 
and avoid miscalculation, and in so doing, keep the next world war 
where it belongs, in the realm of fiction.
Biography
    Peter Warren Singer is Strategist and Senior Fellow at New America, 
a nonpartisan thinktank based in Washington DC. New America's funding, 
including full list of donors and amounts can be found at: https://
www.newamerica.org/contribute/#our-funding-section.
    Singer is also the author of multiple bestselling and award-winning 
books, including most recently Ghost Fleet: A Novel of the Next World 
War, an editor at Popular Science, where he runs the Eastern Arsenal 
blog on Chinese military technology, and a consultant for the U.S. 
military, intelligence community, and entertainment industry. Further 
background at www.pwsinger.com.

    Chairman McCain. Thank you very much, Doctor.
    General Alexander, you mentioned that the legislation that 
was recently passed on cyber was a good step forward. What 
more?
    General Alexander. Chairman, I think the key thing that has 
to be clear in that legislation, that when there is a military 
response required from actions that that has to go immediately 
to the Defense Department. What I am concerned about is we set 
up a process that it is delayed at the Department of Homeland 
Security, inspected, and then sent. So how long does that 
inspection take? For metadata, we could do that automatically.
    So what I would encourage is the development of a set of 
standards--think of these as protocols--where both houses in 
Congress could agree that these type of information hold no 
personally 
identifiable information and is necessary for the protection of 
the Nation, and it could go directly to all the parties. So I 
am not saying cut DHS [Department of Homeland Security] out. I 
am saying ensure that DOD gets it in real time. It would be 
analogous to a radar, and instead of DOD getting the radar feed 
on where the missile is, that goes to DHS and then they tell 
you where the missile is.
    Chairman McCain. You said it is important to partner with 
industry. I get the impression that industry is not 
particularly interested in partnering with us.
    General Alexander. I think there are two parts to that. You 
know, it has been an exciting year and a half out. What I have 
found is industry is very much into cybersecurity. They are 
very concerned about what they share with the Government 
because of liability. But at the end of the day, they recognize 
that the Government is the only one that could defend them from 
a nation state-like attack.
    Chairman McCain. Dr. Singer, is the F-35 the last manned 
fighter aircraft in your view?
    Dr. Singer. I do not know if it is the last because 
certainly other people may continue to construct them. We may 
as well. The question is, to make a historic parallel, its 
comparison, if we are thinking about the interwar years, the 
Spitfire or, to use a Navy example, the Wildcat systems that 
the investment prove worthwhile, or does it parallel the 
Gloster Gladiator, the last best biplane? I would offer to the 
committee to explore that parallel history of a program that we 
set the requirements. The requirements were set early, and then 
the world changed around it. So all the things that seemed 
fantastic and useful about the Gladiator--it was a metal 
biplane. It carried two machine guns. It could go faster than 
previous biplanes. It was outdated before it even left the 
development cycle. But they continued to push forward with it. 
Its nickname among pilots who flew it in World War II was not 
the Gladiator but it was nicknamed the ``flying coffin.''
    Chairman McCain. Some other aircraft have inherited that 
moniker as well.
    Dr. Singer. So I think the challenge is going to be--we 
will buy the F-35. I think we are going to have to wrestle 
with, obviously, the issues that you have pointed out, the per-
unit costs, how that will affect in the long term our plans for 
how many we want to buy. I have a hard time believing that in 
the year 2025 or 2030 we are still going to be buying the same 
numbers that we expect to buy now. The world will have changed. 
The capabilities will have changed. Also its integration with 
unmanned systems and what role will it play or will it be able 
to play in terms of partnering with unmanned systems or 
managing them. So there is a sea of change.
    My worry is that it is a program that many of the concepts 
for it were set, to put it bluntly, the year that I was leaving 
college.
    Chairman McCain. Mr. Scharre, we all agree that the 
Pentagon is not structured nor is the command system structured 
now to meet the new challenges that you witnesses have aptly 
described. Take a stab at how should we restructure the 
Pentagon to meet these new challenges.
    Mr. Scharre. Thank you, Mr. Chairman.
    I think one important disconnect that has come to light in 
the last 15 years is the disconnect between what the Pentagon 
is doing in terms of long-term acquisition and very near-term 
needs in the combatant commands. We saw this in Iraq and 
Afghanistan, the creation of all of these ad hoc processes like 
MRAP [Mine Resistant Ambush Protected Vehicle] task force, an 
ISR [Intelligence, Surveillance, Reconnaissance] task force, 
and JIEDDO [Joint Improvised-Threat Defeat Agency], things that 
were basically silver bullets the Secretary had to personally 
fire at a problem to get it fixed. So institutionalizing that 
is important not just for counterinsurgency or guerilla wars, 
perhaps even more importantly for major wars where the level of 
violence is likely to be higher and the timelines are shorter 
and the need to rapidly innovate in a battlefield is really 
essential, as well as to anticipate these problems.
    The Department has made some steps in that direction with 
the creation of things like a joint emergent operational needs 
sort of pathway to create requirements. But I think there is a 
lot more to be done in terms of giving the COCOM's a voice, in 
terms of near-term capability development, and then creating a 
pathway. The services have some of these individually--the Air 
Force does--to do rapid capability development.
    Chairman McCain. Mr. Clark?
    Mr. Clark. Yes, sir. So I would say that we need to look at 
having one process that is how we develop the requirements and 
acquire large manned acquisition programs, so ships, aircraft, 
where we might want to have a more deliberate process by which 
we develop the requirements because of the need for them to 
last several decades and potentially protect large numbers of 
people onboard. Then have a separate process like Mr. Scharre 
is talking about where we acquire smaller programs, so 
everything below that which is 99 percent of the programs that 
we develop in DOD where we can develop the requirements in 
concert with a technology demonstration and prototype program. 
A lot of the technologies that new acquisition programs 
leverage are already mature and sitting, waiting at the valley 
of death to make the trip across. So they are waiting for some 
boat to come and pick them up and carry them there. Well, we 
could take advantage of and bridge that valley if we instead 
said everything that is not a large manned platform, for 
example, weapons sensors, unmanned vehicles, et cetera, is able 
to take advantage of an acquisition process where we develop 
requirements at the same time as we develop the specifications 
and the plan for the system. So it would merge requirements and 
acquisition to a much greater degree.
    Chairman McCain. So we would not need a 1,000-page document 
for a new handgun.
    Mr. Clark. Exactly. New handgun, new unmanned system, all 
of those technologies are ones we are going to harvest from 
industry or DOD labs that have already been developed. So why 
not just create a process that develops the specifications that 
we actually want in the final program very quickly based on 
what has already been achieved technically and we know what the 
cost is going to be.
    Chairman McCain. Thank you.
    Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your very, very insightful 
testimony.
    It strikes me that we are talking about, as many of you 
mentioned, this disconnect between the reality that we all 
recognize today, even the leaders in the Defense Department and 
my colleagues here, and operational practice, institutional 
outlooks, the equipment, the training, everything. The question 
is how in very real time, quick time we sync those things up.
    One thought is by having exercises where we actually game 
this out in a comprehensive way. I am recalling--someone 
mentioned the interwar years where--and the chairman mentioned 
the development of the carrier, et cetera. That was done when 
people were sitting at the War College in Newport thinking very 
carefully about the threats, the new technology, and providing 
a basis. So where are we in the process of sort of forcing the 
system by having comprehensive exercises that will force us to 
answer specific questions like how do we organize or 
reorganize. What equipment do we really need, et cetera?
    General Alexander, you can start and then I ask all the 
witnesses.
    General Alexander. Senator, I think the first thing that we 
have to look at is to expand our outlook on what cyber can do 
to our country. I think in the military, we focused on 
military-on-military engagements. But practically speaking, an 
adversary is going to go after our civilian infrastructure 
first. You know, on war, when people talk about total war, take 
the will of the people out to fight. We are seeing that in some 
of the things going on today. Take down the power grid and the 
financial sector, and everybody is going to forget about these 
problems. We are essentially isolated. So I think we have to 
step back and look at this in a more comprehensive manner. What 
does it mean for the Defense Department to really protect the 
Nation in this area.
    I think there is a great start with the way the teams have 
been set up and what they can do, but there is a long way to 
go. I do think we have to have this war game.
    During my tenure at Cyber Command, some of the questions 
came up. Do we go from sub-unified to unified to separate 
service where folks like Petraeus and Stavridis said go to a 
separate service. I was not there, but I do think we have to 
step into this area. Secretary Gates had some great insights on 
so how are we going to do this because it is a new way of 
thinking about warfare where our Nation now is at risk. In the 
past, we could easily separate out the military to overseas and 
what went on in the country as others. In this area, you cannot 
do that because the first thing they are going to go after is 
our civilian infrastructure.
    So I think the war game has got to start with that and how 
we respond to that. It is going to escalate at orders of 
magnitude faster than any other form of warfare that we have 
seen.
    Senator Reed. Thank you.
    Please, Mr. Clark.
    Mr. Clark. Senator, I would say looking at the interwar 
years is a great example because what we did back then is the 
warfighters would get together at Sims Hall up at the Naval War 
College and play out the war game on the floor there with play 
ships and models and everything and then go out and do a series 
of battle experiments at sea to practice the best of breed 
concepts that came out of that process.
    So right now, the Department of Defense is reinvigorating 
its war-gaming efforts in an effort to try to put the 
intellectual capital into the development of new warfighting 
concepts. Then those warfighting concepts that emerge from 
those, the best of breed, if you will, for how they are going 
to fight in the future--then they need to be taken out, as you 
are saying, and experimented with in exercises using real 
systems in a real operating environment.
    I would say one other thing that DOD does not do well, 
which they need to start doing a better job of, is 
incorporating technologists into these discussions. So we run a 
war game. We get a bunch of operators together and we give them 
a problem and they know their systems that they have today from 
the ship or aircraft they just left, and they go play it out 
and figure out the best way to fight. But they are not taking 
advantage of what technology might offer them in the next 5 or 
10 years, which is really the timeframe we are aiming for. So 
we need to bring into those war games, into the subsequent 
experiments the technology experts that know where technology 
is going but do not necessarily know how it is going to be 
used. By putting those two groups of people together, you are 
more likely to get an operational concept that comes out it 
that is able to leverage new technologies and do something 
different than what we did before.
    The examples of the past where we had stealth or where we 
developed passive sonar are perfect examples of where our 
technology people came in and said, well, this is possible. 
Operators said, well, I think I know how I would use that, and 
they came up with a way to apply it. Then we could take that 
out in the field and practice it. That is something DOD needs 
to do a better job of.
    Senator Reed. Mr. Scharre, my time is diminishing. So your 
comments, please.
    Mr. Scharre. Yes. Thanks, Mr. Senator.
    I guess I could not agree more that this process of 
experimentation is really critical. I would just add that it 
has to be segregated from training in terms of qualifying a 
unit. When we send in Army units something like NTC [National 
Training Center], that is about ensuring the unit's readiness 
and training. There may be room for actually taking some 
units--we have done them in the past--and setting them aside as 
experimental units to try new concepts, and that is something 
that the Department should be looking at.
    Senator Reed. Thank you.
    Dr. Singer, finally.
    Dr. Singer. Very rapidly. I think the challenge in the 
existing system is the exercises either are about validating 
existing concepts--you hear the phrase often ``getting back to 
basics.'' What if the basics have changed in the interim--or 
they are about allies, making allies feel better them about 
themselves, partnership capacity building and confidence 
building. That is different than the interwar years of the 
Louisiana maneuvers and the fleet problem exercises.
    Secondly, those were very valuable in the interwar years 
not just in showing what to buy and how to use it but the 
``who,'' what kind of personnel thrive in these new styles of 
war. So it is linking the exercises to your personnel system.
    Third, rapidly, a quick issue is the budget is not a 
preventative of it. They went through the Great Depression and 
figured out aircraft carriers, amphibious landing. It is often 
culture of implementation.
    Then finally, beware in this of the lessons and the people 
saying they are adopt but only in an uneven manner. I think 
that, to circle back to the cybersecurity aspect, is a 
challenge here where we are taking a lot of new capabilities 
and putting some of them into old boxes. So we have built up 
Cyber Command, but we still have a system where the Pentagon's 
own weapons tester found, in their words, significant 
vulnerabilities in every single major weapons system.
    Senator Reed. Thank you.
    I assume, if someone disagrees, that General Alexander's 
comment is that this is much broader than the Department of 
Defense and we tend to look ourselves in sort of stovepipes of 
defense planning, et cetera. But this has to be a usually 
comprehensive exercise involving the Federal Reserve, the 
Department of Defense, the major utilities, everyone engaged. I 
assume everyone agrees with that.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Inhofe?
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, General Alexander, I appreciate the time we 
had. I learned a lot in the time that we spent together when 
you were in your position. It was very meaningful.
    I recall when I was first elected--I came from the House to 
the Senate--I replaced David Boren. David Boren was the 
chairman of the Intelligence Committee. He told me at that time 
one of the problems that we were never able to deal with was 
the fact that we have all of this technology and all these 
things that we are finding out, and yet we seem to be competing 
with ourselves. I mean, you have the FBI, the CIA [Central 
Intelligence Agency], the NSA--we did not have Homeland 
Security then.
    But I am kind of seeing the same thing. Well, we made some 
headway there. In fact, up in Tuzla during the Bosnia thing, 
was the first time all of the entities I mentioned were in one 
room together. At least they were talking.
    Now, you mentioned in your statement commercial and private 
entities cannot afford to defend themselves alone against 
nation state attacks nor nation state-like attacks in 
cyberspace and that the U.S. Government is the only one that 
can and should fire back.
    Now, it just seems to me that we had that--I would ask you 
what agency--how this should be restructured because we have 
each one of these like the NSA. They have a cyber division and 
the CIA and all that. How would you envision--and I know you 
have given some thought to this--restructuring this thing to be 
more effective?
    General Alexander. Well, I am going to take from what I 
talked with Secretary Gates about because I think he had the 
greatest insights. When you look at the departments that are 
responsible for protecting the country in this space, you have 
Homeland Security. You have the Department of Justice, and you 
have the Department of Defense. Practically speaking, all the 
technical talent really lies at NSA in deep technical expertise 
in the network, and hence the reason we put Cyber Command there 
so you married those two pieces up.
    The FBI has some great talent for domestic capabilities, 
but they do not have any of the deep technical talent that came 
out of World War II for encryption, decryption, and the things 
that really helped the network operate. So when you talk about 
network operations, that is probably the best expertise.
    So I think as you look at it, the question then becomes 
what do you do that brings those three departments together. He 
looked at a third hat. I would ask you to reach out to him and 
get his thoughts on it. I know he has testified once, but he 
had some great insights and I think directly from him on that, 
what is probably the best approach. We actually started down 
that road and fell apart at one point. But I think that is 
where our country needs to get to because that allows you to 
look at what you are going to do to defend the Nation and what 
you are going to do to recover when bad things happen. Both of 
those have to be synchronized as we go forward.
    Specifically it goes back to what Senator Reed brought out. 
If our Nation is attacked and they take down the power grid and 
they do massive damage, where is your first priority for the 
future of the Nation is something that has to be, well, how am 
I going to defend this country, first and foremost has to be 
put on the table. So those kind of decisions have to be made. I 
think that is what I would do.
    I am not sure--I have not been able to think of a way of 
collapsing all the intel agencies together unless you just 
smashed them all together under the DNI [Director of National 
Intelligence] and then made some agencies. But you are actually 
back to where you are today. So I do not know a better way 
right off the top of my head to do that, Senator.
    Senator Inhofe. I was going to bring up the effort that you 
made in that position like going out to the University of 
Tulsa, and they developed a great program there. As Dr. Singer 
mentioned, we have to watch what the Chinese and others are 
doing, the emphasis they are putting on, they are teaching 
their kids. I look down the road and think they are passing us 
up everywhere.
    Let me just real quickly get back to the fact that a 
statement that was made by Bob Gates talking about how we have 
never once gotten it right. I can remember the last year I 
served on the House Armed Services Committee was 1994. I recall 
when we had experts testifying, and one of them said that in 10 
years we will no longer need ground troops. Well, that is kind 
of an example of what is out there in a reality that we have 
not been getting it right.
    But one thing I think that Bob Gates got right was when he 
was on the panel. Incidentally, we have had great panels the 
last 3 weeks and up to and including this panel of experts. We 
had the people in think tanks. We also had the five professors 
from different universities. We had them all responding to the 
fact that Bob Gates stated that in 1961 we spent--defending 
America consumed 51 percent of our budget. Today it is 15 
percent of our budget.
    In all the problems that you are addressing that you have 
been talking about--and I would ask all of you this question--
are we not giving the right emphasis to defending America? 
Right now with sequestration coming on, they are insisting on 
having an equal amount of money affecting the social programs 
as defending America. So do you think that we need to--you can 
just say yes or no, going down the table--reprioritize making 
defending America the number one priority again? Dr. Singer?
    Dr. Singer. Sequestration is incredibly unstrategic, but it 
is akin to shooting yourself in the foot not shooting yourself 
in the head. So how we deal with it will determine success or 
failure.
    Senator Inhofe. I think that is yes.
    Mr. Scharre?
    Mr. Scharre. Thank you, Senator.
    I acknowledge there are some very difficult domestic 
political compromises here, but I think it is very clear that 
we certainly are not spending enough on defense today in order 
to defend the country adequately.
    Senator Inhofe. Thank you.
    Mr. Clark?
    Mr. Clark. Yes.
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    Thank all of you for being here today.
    General Alexander, if I could ask, which country or which 
group has the most to gain from attacking--the cyber attack to 
America? Russia, China, ISIL? Who do you rate as the number 
one?
    General Alexander. So each of them have different 
objectives. But Russia--when we disagreed on the Crimea, we saw 
increased attacks against companies like Target and Home Depot 
from their hackers.
    Senator Manchin. How would that benefit them as a country?
    General Alexander. Well, they allow their hackers kind of 
freedom. They can say, okay, you guys can go do this. We are 
not watching. Go have a good time. They steal. They make money. 
We get hurt. Russia kind of sends an indirect message.
    The same thing in Iran. When you look at the disruptive 
attacks on Wall Street, what they are doing is they are sending 
a message. You have sanctioned us in the finance and the energy 
sector. We will fire back. Saudi Aramco, your energy sector.
    In China, it is different. China is all about building 
their economy. All they are doing is stealing everything they 
can to grow their economy. It is intellectual property. It is 
our future. I think it is the greatest transfer of wealth in 
history. Interestingly, we could stop that. I believe that. I 
really do.
    I think, Senator, if I could, what Senator Reed and Senator 
Inhofe brought up, if you put those two together and said why 
do we not have a major exercise with industry in there, 
industry is willing to pay their portion for cyber defense. I 
am convinced of that. If they did their part right in defending 
what they need to do in setting up the ability to tell the 
Nation when they are under attack, you could stop attacks from 
Iran, Russia, and China, and we should do that.
    Senator Manchin. Let me ask you about the NSA. We are 
talking about all this outside interest in attacking the United 
States for many, many reasons you just stated. What have they 
done to stop the Edward Snowdens of the NSA from inside 
attacks?
    General Alexander. So we set up a program in 2013 to look 
at all the things that----
    Senator Manchin. Was it a surprise to you? I am so sorry to 
interrupt you. A surprise to you have this happen. I know you 
were there.
    General Alexander. I was surprised at a person who we had 
entrusted to move data from one server to another really was 
not trustworthy.
    Senator Manchin. You had him at a high level. I mean, you 
knew you had him at a very sensitive, high level, and you did 
not vetting him well enough?
    General Alexander. No. His level was exaggerated by 
himself. He was actually a very low level system administrator 
with an important job of moving information from the 
continental United States to servers in Hawaii. In doing that, 
he took data from those servers.
    We came up with 42 different series of things that could be 
done. We shared those actually with the rest of the Government, 
with industry--the ones that we could--on how to stop insider 
attacks.
    It is interesting. When I talk to most of the financial 
institutions, more than 50 percent of their concerns come from 
insider attacks. So these are things that are going on. You 
have got to do both, and it is all in the behavioral analytics 
and modeling that would go on to stop that.
    So I think we did a good step, but you note a very 
important point. We were caught flat-footed on Snowden.
    Senator Manchin. Do you think those steps have been taken 
to shore that up so that it does not happen again within the 
NSA? You are not sure if other private organizations have taken 
your all's advice or lead?
    General Alexander. Well, for sure in the NSA because we ran 
tests. We actually gamed, and then we ran backward data and 
found that we detected them every time.
    Senator Manchin. How damaging was the information that he 
has shared or basically stolen and taken with him and 
distributed around the world?
    General Alexander. I think it was hugely damaging. You can 
see what the DNI recently said about support to our troops in 
Afghanistan, the fact that some of that information has gotten 
out, and our ability to now detect adversaries in Afghanistan 
has been impacted.
    The same thing on terrorist attacks. It has set us back. I 
personally believe that what he is doing with Russia is hurting 
our country.
    Senator Manchin. Do you believe that Snowden should be 
treated as a traitor?
    General Alexander. I do.
    Senator Manchin. Tried as such.
    General Alexander. Yes, I do.
    Senator Manchin. Thank you.
    Chairman McCain. Senator Sessions?
    Senator Sessions. Thank you, Senator McCain, for your 
leadership and for the series of hearings we have been having.
    I would just join with you in your comments about our 
breaches and Snowden and those issues, General Alexander. I 
think it is very important. I do not sense from my study of it 
that we are having any significant threat to individual 
Americans' liberty. Apparently the President knows everybody 
that owns a gun in the last campaign and ran ads targeting 
everybody for every little thing that they favored, they knew 
about and targeted their campaign message. So we do not have 
anything like that with regard to our defense analysis.
    Well, several years ago, my subcommittee, the Strategic, 
talked about the threats we might have to our missile and space 
systems, and we asked that we have reports and analysis of 
that. Senator Levin, who chaired the committee at the time, and 
Senator McCain and others agreed that this was not only a 
problem for our missile systems but for our entire defense 
systems. I think Dr. Singer just said that earlier.
    So we have got legislation, General Alexander, that focuses 
on that that calls for an analysis of our vulnerabilities and 
puts now $200 million toward identifying those and creating a 
response and a plan to protect our vulnerabilities. So I will 
ask you and Mr. Clark about that, others if you would like to 
share thoughts about it.
    So, first of all, are you familiar with the legislation? Do 
you think it is a step in the right direction? Do we need to go 
further? Are we vulnerable and can we take actions that would 
improve that to limit our vulnerability?
    General Alexander. I am not 100 percent steeped in it but I 
am aware of it, and let me give you my thoughts, if I could.
    I think on the vulnerabilities and where we are going to 
detect and repair those vulnerabilities, that we have got to 
continue to upgrade how we do that. Let me give you an example. 
When I had Cyber Command, the issue that we faced was 15,000 
enclaves. How do you see all those enclaves? The answer is as 
the commander responsible for defending our networks, I could 
not. So when I so how do I know these guys are fixing the 
vulnerabilities and doing everything we told them to do, well, 
they report up and so it cascades up. So simple fix is done at 
manual speed. It takes months when it should be automated. The 
humans should be out of the loop.
    So I think it is a step in the right direction. I would 
look at and encourage you to look at how we could now automate 
parts of this because I think it is crucial to blocking those 
attacks. So I think what you are doing is right. I think there 
are some steps now that we could take to go beyond that, and I 
would be happy to talk with some of your people on that.
    Senator Sessions. Thank you very much.
    Mr. Clark? By the way, Mr. Clark, I see you had the 
distinction of serving on the nuclear submarine Alabama. It is 
kind of special to me. Tell Senator McCain what you say when 
you finish off on your announcements on the Alabama?
    Mr. Clark. Roll tide.
    [Laughter.]
    Chairman McCain. It is deeply moving.
    Mr. Clark. It is, is it not?
    [Laughter.]
    Mr. Clark. So I would say I agree with the General, 
obviously, that we need to move towards using automation to a 
much greater degree to protect our systems from cyber attack. 
Then also this idea that we need to modernize our networks that 
deal with missile defense and for strategic deterrence in 
particular to reduce the number of separate systems involved 
and reduce the amount of surface area, if you will. So every 
separate enclave that he described has its own vulnerability to 
attack like a bunch of little forts that are out there and you 
have to defend every fort individually. So instead, we need to 
start bringing more of those into the same enclave so we only 
have to defend one perimeter as opposed to hundreds of 
perimeters.
    Today in some of these areas where we have had legacy 
systems cobbled together over time, we have got a bunch of 
different systems that are now interconnected as opposed to 
having one system that is able to protect itself automatically. 
Then that goes back to the automation idea.
    I would say a couple other things with regard to our 
vulnerability in space, though. We also have to deal with the 
fact that in space, the advent of the new technologies like 
micro-satellites and servicing robots, to use that again with 
quotes, but the idea that there are countries that are 
developing satellites that are small, satellites designed to 
repair or service or put new batteries into other satellites 
could also be used to attack a satellite without generating the 
kind of debris that we would normally assume would deter 
somebody from attacking a satellite in space. So new 
technologies that would allow attacks in space are something we 
have got to consider as well in terms of how do we protect our 
satellite infrastructure that we depend on for strategic 
deterrence and for missile defense.
    Senator Sessions. Thank you.
    Mr. Scharre or Dr. Singer, would you like to add to that?
    Mr. Scharre. Thank you, sir. I would just add on the space 
side that an important component of enhancing our resiliency in 
space is off-space backups and networks for redundancy and in 
part to protect our assets but also to reduce the incentives 
for attacking them in space. The Department of Defense has had 
a program to build an aerial layer, the joint aerial layer 
network, to do communications and position navigation and 
timing for a number of years that is consistently underfunded 
and in large part because it is the kind of thing that does not 
sort of strike a core constituency within the services. So that 
is something also to add to thinking about our strategic 
resiliency.
    Senator Sessions. Dr. Singer?
    Dr. Singer. Thank you, Senator.
    I would add a note of caution, maybe a little bit of 
disagreement on the panel, and then some suggestions.
    The note of caution is we should not lean too much on the 
Cold War parallels of deterrence and mutuality of response, 
thinking that showing our ability to hit back will deliver 100 
percent security in either space and also the idea of the quick 
timeline. Yes, cyber moves at digital speed, but for example, 
attacks take not days but months, sometimes years to put 
together. On average, it is a time period of 205 days between 
when an attack starts and when the victim finds out about it. 
In turn, your best response often in cyber attack is not to try 
and hit back within that 30-minute window with nuclear weapons 
of the parallel, but in fact, it may be to pause, study it, 
steer them into areas that they cannot cause harm. So the 
parallels sometimes are not exact.
    The deterrence model that I hope we look for--and we have 
heard it from the panel here in both space and cyberspace--is 
more on deterrence by denial, which is building up resilience, 
whether it is in space by moving from a billion-dollar, single 
points of failure that can be easily taken out to networks of 
smaller, cheaper, micro-satellites. The same thing in 
cyberspace, building up resilience in both the military and on 
the civilian sector.
    Within that, I hope we are willing to look at alternative 
approaches and stop trying to take new capabilities and 
problems and put them into old boxes. So, for example, I would 
contrast our defense approach and the way it has not done a 
great job of pulling in civilian talent. Estonia was mentioned 
as a model of a victim, one of the first victims of state-level 
cyber attack, but they have also built up a level of national 
resilience that we do not have. I would suggest the model of 
the Estonian Cyber Defense League as an alternative to our 
approach right now that might be a very positive one.
    Thank you.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman McCain. One of the problems with the Estonian 
model is the privacy issue that causes many of the industries 
here and companies to be resistant to that model.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all for testifying this morning.
    If I could ask each of you to give a very brief response to 
do you think the biggest threat as we look at cyber attacks and 
other challenges to our power grid and to the United States 
come from the great powers, the great power competition that 
you referred to, Mr. Clark, or do they come from terrorist 
groups and non-nation states? General Alexander?
    General Alexander. I think the greatest concern comes from 
nation states. The most frequent attacks come from hackers, 
terrorists, and others.
    Senator Shaheen. Mr. Clark?
    Mr. Clark. I agree. I think the greatest threat is going to 
be from nation states.
    Senator Shaheen. Does anybody disagree?
    Mr. Scharre. Yes. I guess I would disagree. I mean, I think 
in terms of large scale, certainly nation states can bring more 
power to bear, but I think that this issue of frequency and 
likelihood is absolutely critical. It is something we need to 
factor into thinking about threats. I think it is clear that 
non-state actors can wreak quite a big of destruction on the 
United States. Deterrence is less effective.
    Senator Shaheen. General Alexander, I think I understood 
you to say that we could stop attacks from Iran, Russia, and 
China, and you prefaced that by talking about the importance of 
the private sector and their willingness to invest in their own 
cybersecurity. If we can do that, what has been the impediment 
to doing that, and how should the operation be organized?
    General Alexander. So I think there are several 
impediments. First, having the right cyber technology, a 
holistic and comprehensive approach that allows a commercial 
entity or company to understand when they are being attacked or 
exploited, the ability to share that information, both from 
cyber legislation and from a technical perspective, the ability 
for the Government to receive and then to respond. I do think 
it is here where the wargaming and other things would go on. So 
what is your response going to be if these events occur? So you 
have thought that through ahead of time and you know how and 
what and the commands know what they are going to do.
    Senator Shaheen. Well, again, if we can do that, should it 
be organized under the Cyber Command within DOD or should it be 
organized someplace else? Why have we not done that already?
    General Alexander. Well, this goes back to the 
organizational structure that was asked previously. We have 
parts of this in DHS that is really responsible for the 
resiliency, correctly. We have the DOD defend the Nation. Then 
you have the Department of Justice with the responsibility for 
criminal activities.
    What Secretary Gates said is you have got those three, but 
they are all talking about the same domain and you can go very 
quickly from, as Mr. Scharre brought up, a non-nation state 
actor acting like a nation state actor.
    So I think you have to have war games and we have to go 
through that. We have not organized ourselves right, nor did we 
bring Government and industry together and we do not have the 
legislation to allow that to occur.
    Senator Shaheen. Are you suggesting that we should organize 
it within the Department of Defense?
    General Alexander. I think the Department of Defense has to 
have a key if not the lead role because when push comes to 
shove and somebody has to respond for the good of the Nation, 
it is the Defense Department. If our Nation is under attack, 
they are the ones that are going to be held accountable.
    Senator Shaheen. Thank you.
    Mr. Scharre, you recently wrote about the dangers of 
radical transparency and how our adversaries would be able to 
exploit what our military does because they will be able to get 
that information because of our transparency. Can you explain 
or suggest what we might do to respond to that?
    Mr. Scharre. Sure. So I think there are a couple of 
components of that. One is the digitization of Government data. 
Certainly we have seen this with incidents like Snowden and 
Bradley Manning and the ability to take large amounts of data. 
Now, there are obviously a number of efforts underway inside 
the Government.
    But I think there is also an element of transparency in 
terms of our military operations being conducted. We have seen 
this transformed domestic policing in the United States. Now 
this era of ubiquitous smart phones where every action can be 
recorded. I worry that our forces on the ground are not 
adequately trained and prepared for that. We have seen one-off 
incidents in these wars where there is an incident like Koran 
burning or someone urinating on corpses and their strategic 
effects. But a world where every action by one of our soldiers 
and marines on the ground is recorded and tweeted around in 
real time is something that I do not think we are prepared for. 
I say this in large part from personal experience fighting as 
an NCO on the ground in Iraq and Afghanistan where occasionally 
we will have interactions with the population where things are 
rough. These are difficult conflicts. But having it go viral is 
a very different kind of environment.
    Senator Shaheen. My time is up. But, Mr. Chairman, if I 
could ask just one more question.
    Secretary Gates, when he was here, referenced the fact that 
the U.S. Information Agency is defunct now and that our 
strategic efforts to communicate really pale in comparison to 
some of our adversaries. Certainly that is true with Russia. It 
is true with ISIS I think. So how do any of you suggest that we 
better respond to that, and should those efforts to get out, 
given the challenges of transparency that you mentioned, but 
our need to do a better job in these areas--how do we do that 
and who should head that effort? Should it be Defense? Should 
it be the State Department? Mr. Scharre, since you are 
answering.
    Mr. Scharre. Yes. I think it is worth exploring the idea of 
a new agency. It is possible. That is a good solution. It is 
possible that does not help. But certainly we do need to adapt 
our communications to this digital and social media age.
    Mr. Clark. I would add that I think one area that we have 
not fully exploited since the Cold War is taking advantage of 
the demonstration of new technologies, whether they are 
successful or not, and communicating that to potential 
adversaries to create uncertainty in their mind as to whether 
they are going to be successful. So we develop a new railgun. 
We develop a new laser. We develop an electronic warfare system 
that we think is going to offer a lot of promise. Or we go 
build a few of them and go demonstrate them and then 
communicate that so that it is more widely understood. So I 
think we could take a radical transparency and turn around and 
use it for our own purposes by creating uncertainty in the 
minds of potential enemies.
    Senator Shaheen. I certainly agree with that.
    Dr. Singer?
    Dr. Singer. Part of why they have been so successful at is 
they are using a technology that is inherently networked and 
coming at it with a network-style approach. So I would guard 
against us coming at it with a kind of 1940's centralized 
approach. That is part of why we are not doing well.
    Second is they know specifically what they want to do. We 
have not yet figured out whether we want to counter-narrative 
or take them off the network or, in turn, take advantage of 
this very same radical transparency and intelligence gather on 
them. So on one hand, ISIL is getting its message out. On the 
other hand, we are gathering more information about them than 
any adversary before because of this. So we need to figure that 
out for ourselves.
    Then third, why they have been able to do it in some 
manners better than us is that they have cohesion between their 
communication strategy and their battlefield operations. So, 
for example, before they launched the operation against Mosul, 
they had preset hash tags ready to go. We do not have that kind 
of cohesion between our strategic communications and our 
battlefield operations.
    Senator Shaheen. Thank you all.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Dr. Singer, earlier you said the per-unit cost of the cart 
is driving where we steer the horse. I would like to open it up 
to the entire panel and ask what can we do about cutting. Where 
can we do less? A lot of times we talk about where we can do 
more. I would like your opinions on where we can do less with 
research, with buying, training. What will we not need in the 
future? Dr. Singer?
    Dr. Singer. I think you have heard from the panel many 
great ideas, and the question is whether we will be able to 
implement them in shifts in everything from our personnel 
system and professional military education, all the way to the 
example of distinguishing between the type of systems and the 
requirements that we build for them when we approach it, the 
problem of legacy systems.
    Another thing that I would put specifically on the table is 
our tendency to plan and assume for the best and then we act 
surprised when things do not work out that way. That was what I 
was referencing in terms of the Pontiac Aztek of war problem 
where we have systems--and again, all of you are thinking about 
certain systems in terms of we develop a warship that our 
Navy's own tester says will not be survivable in combat, and 
then we act surprised and say, gosh, we got to fix that, or 
tanker aircraft that are planned not to be in anything above a 
medium threat environment. Then, of course, the enemy gets a 
vote, and we go, gosh, we should have figured out about that.
    What I am getting as that we too often, in an attempt to--
again, we get caught within this dynamic of the per-unit costs. 
It is shaping everything from what we develop to, oh, my 
goodness, we cannot change the amount we were planning to buy 
for what it will do to the future per-unit cost of it. As part 
of this, we should also be able--and I would associate myself 
with the other remarks--revisualize how certain weapons systems 
can take on new and important roles the way the B-52 bomber, 
for example, went from strategic nuclear deterrence operations 
to close air support. We may be able to rethink that approach 
in everything from what is an aircraft carrier--will submarines 
be able to take on that role--to the long-range strike bomber. 
Is it just for strike, or will it be able to take on ISR or 
even air-to-air combat roles in the future? These are 
possibilities if we allow them to happen and not be locked in 
by past decisions.
    Senator Fischer. Mr. Scharre?
    Mr. Scharre. Thank you, Senator.
    I think there is an issue of quantity. There certainly are 
places to trim the quantities of assets, not just to have fewer 
numbers of more capable things but then to trade that for 
larger numbers of lower-cost systems. So moving to this issue 
of thinking about, as Dr. Singer mentioned, sort of the major 
combat assets as--think of them as sort of a quarterback behind 
a fight, a bomber that is not just carrying assets to the 
fight, but the pilots are controlling a swarm of maybe lower-
cost unmanned vehicles and a submarine as the hub of a network 
of autonomous undersea vehicles or undersea payloads that then 
expand the capabilities we actually have in the fight.
    Mr. Clark. What this kind of points to is separating the 
platform, if you will, from the payload. So what we have done 
in the past is we have developed the ship or aircraft with all 
of its systems built into it, and we would then periodically 
modernize that by tearing it all apart and then rebuilding it 
all with new technology every 10 or 20 years or so. We need to 
move towards not buying the next generation of these aircraft 
and ships and other platforms in a way that integrates all 
those systems, but instead buy much cheaper and less equipped 
things and then equip them with payloads that can then adapt 
much more quickly over time because the innovation cycle for 
something like a missile or a radar system or a passive radar 
sensor is much quicker than that of the overall platform. So we 
can afford to go to cheaper platforms.
    So in terms of what we have today, I would not say that we 
want to throw stuff on the scrap heap that we currently have in 
the fleet, but we want to look at ways we can reequip it with 
the next generation of payloads. Instead of replacing them with 
another highly integrated airplane or ship, let us keep them, 
take out their old stuff, and just use then interchangeable 
payloads in the future to start reducing the cost of these 
platforms in the future. So to get to the F-35 example, so 
maybe the F-35 is the last aircraft we buy that is really a 
purpose-built strike fighter. To Dr. Singer's point, maybe you 
do end up with airplanes in the future that are just larger and 
have bigger sensors and they do all the missions and the 
payload changes to accommodate that.
    General Alexander. Senator, I think one of the things that 
we should look at is--the commercial industry spends billions 
if not trillions of dollars a year in cybersecurity alone. When 
you think about all that money that is being spent, it is being 
spent to solve their problem. But they, if they work together, 
create a sector solution and that sector solution could be very 
important for defending our country. If we had Government and 
industry work together in a way that was meaningful so that 
what they applied those resources for helped give them more 
reflective surface in cyber--it would tell the Government when 
the Government has to act--you could focus Government resources 
where it is really needed.
    So I think the idea of having a war game and then looking 
at how you get the financial sector, the energy sector, the 
health care sector, and the Government together and maybe a few 
others, put those in a room and look at what they are doing, 
what you would find out is, you know, one big bank along is a 
spending almost $750 million a year in cybersecurity. What if 
it was done in a way that helped protect the whole sector, and 
if they worked together, that surface would be far better than 
anything the Government could do. We need them to do that so 
that the Government can focus on what you want, especially the 
Defense Department, to do.
    Senator Fischer. Mr. Scharre, you were talking about swarms 
and a change in warfighting. If I could, Mr. Chairman, we hear 
about platforms. We hear about payloads. What about personnel? 
Are we going to be looking at the same infantry in 20, 30, 40 
years? The infantry can take and hold ground. Can technology 
replace that?
    Mr. Scharre. Well, I think technology can certainly aid in 
taking ground. Yes. When it comes to holding it and then 
building up a security infrastructure that can pass on to 
someone else, that is something that is going to require 
interpersonal interaction.
    Could we use robotic systems in war to help ground maneuver 
warfare? I think absolutely. I think there is a lot of 
opportunities. The Army probably is not yet seizing to look at 
something like a modern day robotics, the Louisiana maneuvers, 
to experiment with maneuver warfare. But when it comes to 
sitting down with tribal elders, a person has got to do that.
    Senator Fischer. Thank you.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you to the witnesses.
    General Alexander, you talked about and we read about all 
the time the number of cyber attacks on the Nation or on 
governmental agencies that are occurring with greater 
frequency. I think you use 350 cyber attacks. I am not sure 
what unit of time that was. Give us a good example of a counter 
cyber attack that the United States has undertaken. So when we 
have been attacked, give me a good example of something we have 
done in response.
    General Alexander. Senator, I cannot give you that in this 
forum, but I think that is something that would be good to 
discuss for the committee in a classified session.
    Senator Kaine. I just want to make this point. I thought 
that was going to be your answer.
    There is not a deterrence doctrine if people do not know 
what the response will be. The President last week said he was 
going send 50 special forces to Syria. I know to the number how 
many bombing raids we have run in the war against ISIL that is 
now in its nearly 16th month. We know the number of personnel 
that are 
deployed.
    When the American public and policymakers read over and 
over again in the press about cyber attacks on the Nation, they 
are very public. But when we cannot discuss even with the 
committee in a public setting or with the American public what 
we are doing in response, it kind of leads to a little bit of a 
feeling of like we are impotent against these attacks. I know 
that we are not. But if we can talk about troop deployments in 
the war on ISIL and bombing sorties that are run but we cannot 
talk in open session about what we do in response to cyber 
attacks that are every bit in the public news as any of the 
bombing campaigns are, I think it really leads to a sense of 
helplessness by the public and the committees themselves. I 
hope we will have a follow-up and talk about this.
    General Alexander. Could I offer, Senator?
    Senator Kaine. Please.
    General Alexander. Let us go hypothetical instead of 
actual, and we could talk about hypothetically what the Defense 
Department could do and others.
    Senator Kaine. I would rather actually move to another 
topic. Hypotheticals are great. Why can we know actual in so 
many realms of what we do in defense, but we are not willing to 
talk actual about cyber? Because we certainly hear about the 
actual attacks on us. So I think that raises a question I would 
like to explore more.
    A very interesting hearing, all your written testimony and 
oral testimony too. The title was provocative, ``the Future of 
Warfare.'' A lot of the discussion has been about technical 
technology issues.
    I think one of the interesting areas about the future of 
warfare is the question of unilateral being with partners. We 
were attacked on 9/11 by al Qaeda and we immediately assembled 
a coalition that amounted to about 60 nations to try to respond 
to that. The first thought after the attack on Pearl Harbor was 
not we ought to go out and assemble a coalition, although there 
were other nations, obviously the allied nations that were 
involved in World War II.
    Is there something unique about the future--certainly the 
current and the future of warfare that renders this whole idea 
of coalitions kind of more of a common feature? The F-35 is a 
platform that was built with the participation of nine partner 
nations, not just different service branches but partner 
nations. Talk about coalitions and alliances in the future of 
warfare. I would just be curious to any of your thoughts about 
that.
    General Alexander. If I could, in the cyber realm, we would 
be much better off with partners in this area. Think about the 
undersea cables. They come from the United Kingdom to us, 12 of 
the 17 or 18. So the United Kingdom and Europe--if they had a 
similar approach to cybersecurity and they agreed to defend 
their end, we defend our end, we have now moved our defense out 
to Europe for our country. I think that is a very good thing 
and we could do things like that in this space. So I do believe 
there is much need for collaboration, but it also brings in all 
the issues now you have with civil liberties and privacy 
because every nation sees it different, even in Europe. Every 
one of those see it differently. So I think we have got to set 
the standard, and that is one of the things that we could do as 
a country.
    Mr. Clark. I would say the benefit that we get from 
coalitions, though, is primarily non-material. I would argue 
that they do not bring a lot of necessarily military 
capabilities to bear that are easily applied in a unified 
command context. It actually makes it a little bit harder if 
you are trying to do it with multiple nations' forces. But what 
they do bring, as General Alexander was saying, is access to 
areas that we would otherwise not be able to base from or 
operate from or be able to monitor.
    It also provides, if you will, the political top cover so 
that if we can demonstrate that that is the way that we are 
used to 
operating, it may drive our competitors or our adversaries into 
a calculation where they realize that, well, I am not just 
going to be upsetting the United States if I take this action, 
but I will also be upsetting a number of my other neighbors, 
which could create other problems down the road politically for 
them. So there may be a political benefit in the long term to 
us managing things through a coalition.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    General Alexander, do we have a stated doctrine with regard 
to what is a cyber attack or do we have a defined limit where 
we identify something as an act of war if our defense, our 
energy, or our financial resources are attacked?
    General Alexander. The only thing that I know that comes 
close to that is the President's statement of 2009 about how we 
would respond using any form of power, cyber, military, 
diplomatic, to respond to a cyber. There are no rules of the 
road or red lines in cyber. I think war games can help tighten 
some of that up and should.
    Senator Rounds. Would anyone disagree with that analysis?
    Mr. Clark. I would add one thing, that one of the 
challenges you have in cyber is that if we try to use a cyber 
capability to respond to a cyber attack, we may end up making 
clear to the adversary the access that we have into his 
networks. So one problem we have is we do not want to burn the 
source. So if we are attacked in cyberspace, we might need to 
go to some other means to respond because we do not want to 
give up the fact that we have got access to his networks and 
are able then to monitor his activities in the future. As 
General Alexander said, we might be able to take advantage of 
the attack to actually gain new access that we do not want to 
make clear to the enemy.
    Senator Rounds. Yes. Mr. Singer?
    Dr. Singer. I would just add the key is not the means. It 
is not that it is cyber. It is the end effect which will 
determine it. So whether it is through cyber or a missile as to 
whether it causes loss of life, physical damage, even if 
someone set a--a foreign adversary set a fire that killed 
hundreds of Americans, we would not say, gosh, you used matches 
not cyber or a missile. So cyber can be a little bit of a 
misdirection. It is more about the end effect and how we judge 
that.
    Senator Rounds. Do we need a different doctrine? Do we need 
an established doctrine to determine whether or not a cyber act 
is an act of war?
    Mr. Clark. I would say we need to have a real clear 
definition of what we think constitutes an attack that would be 
meriting of a response because we do that in the physical realm 
to a much greater degree. Obviously, this gets built up as a 
body of action over time. So it is precedent that does it to 
some extent.
    General Alexander. If I could, to answer that question, I 
think when you look at our NATO responsibilities, I think we do 
have to have this laid out. What we cannot do is walk into a 
war because we did not understand that this would be an act of 
war so that if someone were to attack one of our NATO allies 
and cause destruction and lives, what constitutes an act of war 
is not really clearly stated. There has been a lot of stuff in 
the Tallinn Papers that have been written, but it does not get 
to the point of this is clear. So I think we need to have those 
discussions in a classified and unclassified realm so everybody 
understands. I do agree with it is the intent of the 
individuals. If their intent is to do harm, I think you now 
need to look at where you take --
    Senator Rounds. Would you share with me what you consider 
to be an appropriate response should there be an act of war in 
the cyber realm?
    General Alexander. I think first ideally you could prevent 
it, but if you could not prevent it, I think you now have two 
things that are going on, the resilience in your networks, 
bringing those back up, and then a whole series of actions from 
political, economic, diplomatic, military. In cyber, there are 
a lot of things you could do to stop that nation from 
communicating outside that nation with other tools. I think it 
is those types of capabilities and wargaming and things that 
ought to be looked at analogous to the way we did armored 
warfare 70 years ago.
    Senator Rounds. Sometimes we talk about this in a way in 
which we have a tendency to literally scare ourselves because 
we are talking about how serious these could be. Do we have the 
capability and the resources right now to actually respond 
should we have that type of a cyber attack that would amount 
to--if we define it properly as an act of war, are we in a 
position today as a country to respond to an act of war?
    General Alexander. We have 40 offensive teams that were 
created at U.S. Cyber Command. Those teams have some great 
capabilities. It does not cover the whole world, but it gives 
you a great starting point. I think our first thought in 2010 
was let us set up with the initial force structure that we 
needed it, set it up in terms of offense and defense in teams 
that could actually do offensive actions to defend the country.
    Senator Rounds. Anyone have anything to add to that? Yes, 
sir. Dr. Singer?
    Dr. Singer. I would just add two things. The first is the 
idea of assuming that our response would have to be limited 
just to cyber means. If someone carries out an act of war 
against us using cyber means, we are not and should not be 
limited in our response to use other means. That is why we are 
seeing that kind of deterrence hold.
    The second, though, is to--as General Alexander said, we 
have built up great cyber offense capability. There are many 
things that Mr. Snowden did, but one of the other things he did 
is revealed that we have very potent cyber offense capability. 
I would add, though, to those who believe that building up more 
will deliver deterrence, the question why has that not 
delivered deterrence yet. There is no question that we have 
great cyber offense capability and yet the attacks have 
continued to come. That is why I echo back to we need to do 
more about building up deterrence through denial which is 
making ourselves more resilient both in military and civilian 
means so we can shrug off those attacks, which therefore makes 
the attacks less productive, less likely on us.
    Senator Rounds. Thank you, Mr. Chairman.
    Chairman McCain. Senator King?
    Senator King. Thank you, Mr. Chairman.
    Dr. Singer, I must compliment you. To found a technology 
advisory firm called NeoLuddite is an act of genius.
    I also enjoyed your Churchill quote. One of my favorite 
Churchill quotes was he was once asked how he thought history 
would treat his role in World War II. His response was, ``very 
well because I intend to write it.''
    On this issue of deterrence--and I think Senator Rounds 
really hit the point, and I think we should follow up on this. 
It is the question of what is an act of war and when will we 
respond because if an act of war is not defined, your opponent 
has to know that you are going to consider it an act of war and 
that there will be a response. Mr. Singer, I think your point 
is well taken, that it does not necessarily have to be a cyber 
response. But I do think there does need to be some response. 
Deterrence by denial, it seems to me--ultimately you have got 
to have some offensive capability. You have got to be able to 
punch back or you are simply always on the defensive. You are 
nodding your head. I assume you agree with that concept.
    Dr. Singer. I very much agree. I will compliment you in 
turn. Thank you for your kind words.
    I have an article coming out next week on this question of 
deterrence and the three approaches are what the committees 
wrestled with. It is one to set very clear norms so both sides 
or all the sides understand what is and is not an act of war so 
that there is no miscalculation.
    The second is to understand that you can respond, but you 
can respond in many other means, many other areas and it is not 
just through military. It may be through trade. It may be 
through espionage, whatever. There was a far more complex game 
going on in the Cold War where your only response was you hit 
me with a nuke. I threaten to hit you back.
    Then the third is this point about deterrence by denial, 
something that was not possible in the Cold War. The idea of 
civilian involvement was kind of--you know, the bomb shelters 
and the like were not very useful. Deterrence by denial, 
though, now would be an incredible useful concept, and 
importantly, resilience works not just against state-level 
attacks, but it is also effective against all the other attacks 
out there, whether it is non-state actors like terrorists or 
just criminal groups.
    Senator King. On that point, General, good to see you 
again. I think a point you made that I had not really thought 
about was the idea of a joint private sector cybersecurity 
effort perhaps facilitated by the Government but not with 
Government involvement so we do not have the privacy issues. 
But it strikes me as inefficient in the extreme to have Bank of 
America spending billions on cybersecurity and Anthem and 
Target and Walmart when, in reality, they are all chasing the 
same problem. It may be that a consortium--as I recall, there 
was a semiconductor consortium some years ago--to deal with 
this in a joint way might save the private sector a lot of 
money. The Government could just act as a facilitator.
    Dr. Clark, I think an important point that has been made 
today--and it was made in one of the hearings the other day--
was instead of building weapons systems that have absolutely 
everything that are going to last 40 years and therefore, by 
definition, be obsolete, we ought to building modular systems, 
if you will, that can be modernized on the fly rather than 
starting all over again. Is that essentially what your 
testimony was?
    Mr. Clark. Yes, definitely. That gives you the ability to 
take advantage of the technology refresh cycle that exists for 
those smaller systems. We talked about Moore's Law and how that 
results in a doubling of computer programming power every 12 to 
18 months. The computer is really the heart of almost every one 
of our payloads, whether it is a sensor or a missile or even a 
smart bomb today, or unmanned vehicle. So we should take 
advantage of the fact that that technology refresh cycle is 
going to be so fast and develop those payloads on a much faster 
timeline.
    Senator King. Trying to develop a weapon system that has 
everything for everybody at one time that will be fixed in time 
is just the wrong way to go.
    Mr. Clark. Which gets back to the requirements problem. If 
I define my requirements in isolation from what the technology 
might be able to give me in a near-term time frame, I end up 
aspiring to something I will never be able to achieve.
    Senator King. The requirements proliferate because 
everybody wants their--it is the problem of a camel is a horse 
designed by a committee.
    Mr. Clark. Right, instead of defining requirements in 
conjunction with what your technology is already delivering.
    Senator King. Dr. Singer, if your article has not gone to 
press, I would urge a quote from Robert Frost, good fences make 
good neighbors. When people know what the rules are, that is 
when you can avoid conflict.
    A final question just for the record. General Alexander, 
very chilling in your early testimony that we will not have 
time for human decision-making in responding to some of these 
kinds of attacks. In other words, the 30 minutes or an hour for 
the missiles is now in a matter of seconds. The question is how 
do we war-game and prepare a response that can be done 
instantaneously without the intervention of human discretion. I 
think that is an issue--my time has expired, but I think that 
is an issue that deserves some serious thought and discussion.
    Thank you, gentlemen, very much. This has been very 
illuminating.
    [The information referred to follows:]

    To answer this question, I think it is important to look at our 
offensive and defensive capabilities, at a classified level, and see 
what we are capable of doing. With those insights, you immediately come 
to the conclusion that some of our responses could be pre-programmed, 
to operate at network speed, consistent with policies set by the 
Commander-in-Chief, in consultation with Congress and the military 
leadership, as appropriate. This requires a detailed set of analyses 
about the options available to our civilian and military leadership, 
and the Rules of Engagement the Administration would give to USCYBERCOM 
[Cyber Command] to conduct, essentially, defensive measures to protect 
our Nation. Some of these options we discussed with Secretary Carter, 
when he was the DEPSECDEF [Deputy Secretary of Defense]. It is my 
professional opinion that Congress and the Administration should be in 
sync with the ROE [Rules of Engagement] given to USCYBERCOM in these 
cases.
    To evolve these ROE, I believe we should conduct a series of 
wargames to fully understand the issues and measures that should be 
implemented.
    When we walk through these wargames, I think we are likely to come 
to the conclusion that USCYBERCOM and NSA have to have network speed 
access to detect threats and respond to attacks on our Nation.
    Because any delay in responding to cyber attacks could have 
catastrophic results, it is critical that we think through these issues 
now, as a nation, and that all elements of our political, civilian, and 
military leaders--from Congress to the White House and the Pentagon--be 
on the same page about how to respond to these threats.

    Chairman McCain. Dr. Singer, I would suggest words of 
Chairman Mao. It is always darkest before it is totally black.
    [Laughter.]
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you for your support to our Nation in so 
many varying ways. I think the discussion today has been very 
beneficial I think for all of us and our constituencies.
    General Alexander, I would like to start with you, sir. We 
have spent a lot of time talking about the cyber threats that 
exist out there and the devastating effects to our networks, 
should they be attacked or when they are attacked, and really 
the ability to recruit and retain some talent to deal with the 
cutting-edge threats that exist out there.
    What I would like to know is a little bit more. How can we 
utilize our Reserve and our National Guard forces to bring in 
some of the best and the brightest? We have a lot of folks that 
certainly serve in very similar capacities in their civilian 
employment. Is there a way that we can use them to leverage our 
forces?
    General Alexander. Actually, Senator, that is a great 
question. We were doing that when I was on. I know that 
continues. So each of the National Guard units are setting up 
cyber teams that would also help. As you note, some of these 
have some of the best technical experts in civilian industry 
that partner with us. So you go out to the State of Washington 
with Microsoft employees or all around the world--all around 
the U.S. I think there are some great partnerships there, and 
it also gives you an opportunity to bring those on to active 
duty when you need them and then taking them off.
    Finally, if we work it right, it also helps provide 
security for the State and local government.
    Senator Ernst. I think that is wonderful. I know that in my 
transportation company, we had some computer whizzes working in 
the civilian industry. They were truck drivers when we were 
mobilized. But a lot of talent that exists out there.
    Mr. Scharre, Paul, I know that we have spent some time 
talking about future personnel generations in our Department of 
Defense. I would like to visit a little bit with you about, 
again, the National Guard and the Reserves and where you see 
their role in the future, whether it is Army, Navy, Air Force, 
Marines, and how they can support future conflicts.
    Mr. Scharre. Thanks, Senator.
    I think this issue of civilian expertise is a unique 
capability that the National Guard and Reserve brings to the 
table. Your example of computer experts driving trucks--and I 
saw active duty reservists--many similar things in Iraq--were 
even doing civil affairs functions. We still had people 
misaligned. We are not as aligned as well as maybe they could 
be with some of these skills that actually are resident in a 
Guard and Reserve force. So a process inside the Department to 
actually identify--have service members self-identify those 
skills and allow them to be tracked inside the Department so 
that if the Nation needs to be able to draw upon that, we could 
know who are these experts would be extremely valuable and I 
think a way to really increase even further the skills and 
capabilities that the National Guard and Reserve bring to the 
table.
    Senator Ernst. I think that is a great idea. I know that we 
do identify many of our civilian skill sets through the Guard 
and Reserves, but I do not know that the DOD truly pays 
attention to that. I think we have a lot of, as I said, talent 
and abilities that could be better utilized on or with an 
active duty force.
    Do you think that the DOD will continue to rely heavily 
upon our Guard and Reserves as we move into future conflicts in 
outlying years as heavily as they have maybe in the past 14 
years?
    Mr. Scharre. I think there is no question they will 
continue to play a valuable role. Certainly we have asked a lot 
of Guard and Reserve members, and they have given a lot in the 
last 14 years. So I think they will continue to be a valuable 
contributor in the future.
    Senator Ernst. Thank you.
    I will move on to a different topic and, Mr. Clark, maybe 
you can assist with this. Today I did lead a number of my 
colleagues in a letter regarding our concern for Russia's 
activities near some of our underwater cables. It is very 
concerning because these are fiber optic cables and they carry 
everything from sensitive information, communications, many of 
these things that are vital to our economic stability. I know 
that it is a very sensitive topic, but I think it is pretty 
vital that we start talking about our interests in underwater 
fiber optic cables.
    So are you concerned at all about the security that we have 
that either exists or does not exist out there? If you could 
expound on that, please.
    Mr. Clark. I am very concerned about it. Those cables carry 
trillions of dollars in financial transactions every year. 
About 90 percent of the world's economy runs on undersea cables 
as a result of that.
    The Russians for a long time have had an undersea 
reconnaissance program where they go and look at things under 
the water, and they have taken an interest recently in undersea 
cables. We can tell by the areas where they are operating that 
they are looking for something down there in the vicinity of 
undersea cables.
    Out in the open ocean, these undersea cables are fairly 
hard to find because you kind of have to search a large area. 
But in the areas where they have their landings on the shore, 
either the United States, over in Europe, or in the Middle 
East, they are relatively easy to locate and then trace back 
into the water.
    I think one concern we would have is in conflict. Those 
cables could be easily broken. They are broken fairly regularly 
today as a result of trawlers or anchors that take them up. 
Today the responsibility for responding or replacing or 
repairing those cables lies with industry. So they have on call 
the cable laying ships that go out and fix them. But you are 
talking about time frames of weeks to months to repair a cable 
that has been damaged as a result of either hostile or 
accidental action.
    So one concern I would have is we need to improve the 
ability to rapidly respond to these kinds of attacks to be able 
to restore the activity on those cables. Then two, we need to 
have better monitoring capabilities in the vicinity of these 
landings where it is a target-rich environment for an undersea 
vehicle or a ship that is going to deploy a remotely operated 
vehicle to go attack them.
    But there are technologies out there that could provide the 
ability to monitor these areas pretty well, but counter-UAV 
[Unmanned Aerial Vehicle] technology will be a key part of it 
and being able to find something small like Dr. Singer and Mr. 
Scharre have talked about is going to be really hard. So we 
need to come up with better capabilities to detect these very 
small underwater vehicles that could be used against undersea 
cables. But it is a huge potential vulnerability that could be 
exploited both in peacetime or in war.
    Senator Ernst. Yes, I agree. Thank you very much. I 
appreciate that. I think that that is something that we need to 
turn our direction to also.
    So thank you, Mr. Chair.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman and to all of you 
who are testifying.
    The Defense Department has used a technology, basically 
quality over quantity, to stay ahead of the other countries. So 
one of the other hearings we had said that we are falling 
behind in our ability to rely on our technical superiority. So 
do you share that view, and if so, what are some very 
fundamental steps we should be taking in order to increase our 
capacity, technological capacity? Any of you can answer.
    Mr. Scharre. I will start.
    I think one of the main factors is time. How do we shorten 
the time by which we develop major programs? Mr. Clark talked 
about modularity, thinking about payloads over platforms. I 
would also encourage us to think about software over payloads. 
You can upgrade software very rapidly. But there are even some 
more sort of fundamental shifts that people are thinking about. 
You know, this DARPA program that I mentioned earlier SoSITE 
[System of Systems Integration Technology, Experimentation], is 
thinking about basically taking a major platform and breaking 
it apart entirely into a larger number of basically just the 
payloads that are all interacting together, and that is 
something worth experimenting with and exploring.
    Senator Hirono. So are you saying that we should spend more 
money on R&D or is it also the way we are structuring how the 
money is spent?
    Mr. Scharre. I think the way in which you spend the money 
is absolutely critical.
    Senator Hirono. How would you change how we are spending 
our money?
    Mr. Scharre. The R&D spending in the Department is very 
decentralized and fragmented. So just a more centralized 
process that focuses, as Mr. Clark mentioned, on the key areas, 
and this effort is underway with the LRDP [Long Range 
Development Plan], long-range something something defense 
acronym--you know, I think are beneficial in that regard.
    Dr. Singer. Senator, I would just add. I think it is both 
the way, but we also clearly do not spend enough on R&D. We 
have seen the percentages go down both on the Government side 
but also as a Nation, as was mentioned, in the defense industry 
side as well. The issue of quantity/quality is not just in 
terms of the weapon system but just simply if you run out of 
missiles, say, for example, in a fight, you will have to exit. 
So you may survive but you have deferred to the enemy in that 
time.
    Senator Hirono. Did you want to----
    Mr. Clark. I would just add one more thing is that we have 
a pretty good investment inside DOD in R&D. It is not well 
focused, as we talked about.
    In addition to that, industry used to do a lot of internal 
research and development with their own money to go explore new 
military capabilities that might be beneficial in the future. 
They have reduced that investment significantly with the 
reduction over the last several years in the amount of 
procurement because it is normally a percentage of procurement. 
Also there are some things that the Department is doing that 
has been disincentivizing industry from pursuing its own 
internal research and development that has in the past given us 
things like stealth and things like new radar technology. So I 
think one thing we ought to look at is how do we encourage 
industry to be independently looking at problems that they 
could address with their new technologies.
    Senator Hirono. Perhaps one of the ways that we incentivize 
the private sector is, of course, to have the potential of 
technology transfer in whatever research that they are doing 
and developing.
    For Mr. Scharre and Mr. Clark, what impacts do you 
anticipate our reliance on fossil fuels will have on our 
planning and the effectiveness of our future warfighters? What 
is your assessment of the Department's progress in terms of 
reducing its reliance on fossil fuel sources?
    Mr. Scharre. I think there are a couple key reasons to do 
so. One is, of course, strategic risk and vulnerability. 
Another one is cost. But an important one is alternative energy 
solutions can help increase the endurance for many various sort 
of long-endurance capabilities, particularly robotics, that we 
could put out on the battlefield. So things like better 
batteries, fuel cells, solar power can allow us to put 
persistent surveillance sensors out there to help detect the 
enemy for a very long period of time, months or years at a 
time. So there are some significant operational advantages as 
well.
    Mr. Clark. It is about not so much fossil fuels as just 
reducing our energy dependence in general because what you see 
is we have to project forces over a very long distance because 
all of our friends and allies are an ocean away from us. So we 
are generally transferring those forces over a long distance, 
and even when they get there, they are having to operate at the 
very edge of our logistics chain. So reducing the amount of 
energy they need in general would be important. Taking 
advantage of technologies that do not require fuel at all would 
be important. So the idea of going to new battery technologies 
that are able to last for a very long period time and then 
eventually be recharged by the sun or by returning to some 
docking station would be a very good way for us to reduce the 
tether that we have to maintain because right now we have to 
have refueling aircraft and ships out at the edge with the 
ships that they are refueling and then refuel a ship, for 
example, every few days while it is operating, and then 
aircraft, obviously, have to operate for a much shorter period 
of time before they need to be refueled. So moving to energy 
technologies that do not require fuel to be delivered to the 
platform on a regular basis I think would be very important.
    Senator Hirono. Thank you.
    Chairman McCain. Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chair.
    Sorry Senator Hirono and I had to step out for a few 
minutes. We were actually celebrating the 240th birthday of the 
United States Marine Corps. So we had to welcome the chair and 
ranking member as members of the Navy and the Army.
    Chairman McCain. A dark day.
    [Laughter.]
    Senator Sullivan. Gentlemen, thanks very much for your 
testimony.
    General Alexander, I was actually struck by your testimony 
in one area that--well, in a couple areas I thought it was very 
insightful. But one of the things that we have been hearing 
about in terms of cyber is this idea that--this notion that we 
are constantly being attacked, we are constantly--and you 
mentioned it. Some of the dollars and statistics you have in 
your testimony on cyber crime and what that costs is really 
eye-popping.
    But there has been this notion of us being on defense, 
defense, defense. One thing that I liked about your testimony 
is that you talked about a little in terms of offense where we 
have invented a lot of this technology. We are the leader in it 
still. So there are all kinds of opportunities for offense.
    Could you just provide some examples of that? I mean, the 
chairman's opening statement about turning technologies into 
offensive advantages I think was very illuminating from a 
historical perspective. But what are some opportunities in 
terms of offense that we have with regard to cyber?
    General Alexander. Well, there are a number of offensive 
capabilities. I think first and foremost you have to be able to 
see what the adversary is doing, hence the need for the 
commercial sector to be part of the solution so what is hitting 
them can be seen by everyone. So if you think about how two 
computers actually talk--you know, I want to talk to you. You 
come back and say on this channel. We go to the ACK 
[Acknowledged] and NAK [Not Acknowledged] kind of thing. That 
takes time, milliseconds. If you think about some computer 
trying to get in while that is happening, if the Government can 
see it, the Government can stop it or at least delay it or stop 
the router or do things with it. So what you have is 
opportunities to change what is happening in cyberspace with 
offensive tools that would defend the country.
    The issue comes down to so what would you authorize, for 
example, Cyber Command to do in order to defend it. You might 
say, well, I am going to let you do everything you can to block 
all the way to where it is originating from, but I do not want 
you to destroy systems yet. Destroying systems is going to go a 
step further. But technically speaking--and you have seen 
this--you could destroy a computer in cyberspace by getting on 
it and doing certain things to it. So the technical ability is 
there. It is public record. Now all you need is access, and how 
you get into that access is where you take the capabilities of 
an NSA with a Cyber Command and FBI at times and put those 
together. So you have tremendous opportunities.
    I think when we look back at our capability, you look at we 
are the most integrated networked society in the world. We look 
back, and we say look at all these opportunities in the 
offense, and then you look at ours on the defense. You would 
say, man, we are broke. If we throw rocks, we have all these 
glass windows. First step, fix those.
    Senator Sullivan. Let me ask just kind of a related 
question on--I know there has been a lot of discussion in this 
testimony on deterrence or raising the costs of cyber attacks. 
It seems to me--and I would welcome any of your opinions--that 
if you are from an authoritarian regime like Russia or Iran or 
China, they in some ways have an advantage because they can 
just deny and lie. No, we had nothing to do with that, even 
though they did or they do.
    But you mentioned like one example to me that the Iranians 
were attacking our financial system. Would it make sense for us 
to say publicly that if you do that again, we will crash your 
entire financial sector? Is that the kind of thing that we 
should be looking at in terms of raising the cost? Because it 
seems to me if you are an authoritarian regime, you can lie 
about who is doing it, that the costs of actually all these 
attacks is almost minimal because we do not react. Should we 
maybe look at being a little more public in upping the ante and 
saying if you do this, North Korea, Iran, China, we will 
respond? In some of these countries, I am sure we could crash 
their whole economy. What would be a problem with that kind of 
deterrence that makes it a little more transparent but raises 
the cost dramatically? Then, of course, if we announce that, we 
would have to act. I am curious. Any of the panelists, what 
would you think of something a little more transparent from our 
perspective, and do we have a disadvantage when we are dealing 
with authoritarian regimes that routinely lie about this issue?
    Mr. Clark. I would say one thing we have to think about is 
the fact that the deterrent action might need to be fairly 
proportional with the action it is intended to deter because it 
will not have credibility otherwise. If we say that because the 
Iranians are attacking some of our banking sector, that we 
would go and crash their financial system, that might be 
disproportional, and therefore they do not find that to be a 
credible threat because they will say, well, they will never do 
that.
    Senator Sullivan. But what if we did it?
    Mr. Clark. Well, if we did it, it may deter further action, 
but it may be seen by the international community as being 
highly disproportionate. So we might need to come up with a 
more proportional reaction to things like that so that the 
adversary will say, well, he actually could do that. I mean, 
this is something that the United States could do in response.
    That gets to where maybe the response needs to be not in 
cyberspace but in another domain, for example, electronic 
warfare, jamming, small attacks on oil infrastructure. Those 
could all be undertaken with a relatively small amount of 
collateral effects while also demonstrating the resolve of the 
United States and being able to do something that they would 
find to be credible and that we could repeat but that does not 
cause such a huge damaging reaction that people are not going 
to believe we will ever use it.
    Dr. Singer. Senator, the challenge in this is there is not 
the mutual, in terms of the old mutual shared destruction. So, 
for example, we are far more vulnerable to cyber attack than 
North Korea, but that is actually a good thing because we are 
integrated with the global economy. We have freedom. We have 
all these other things. We would not want to be in that 
position that they are in. So recognizing the lack of 
mutuality, echoing the points about maybe looking at other 
deterrence angles.
    But I would add one more important thing. When we are 
talking about offense, when we are talking about steering Cyber 
Command to taking on these roles and the civilian lead, it is 
moving it and us away from its role in clear warfare itself, 
and the determinant of success or failure in future wars with 
cyber will not be thinking about it individually but will be 
how it is integrated with other warfighting capacity. So the 
more we focus on the power grid, the less it is integrating 
that cyber capability in terms of war, using it to take down an 
air defense so it is cohesive with your warplanes going over 
as, for example, Israel was able to pull off in Operation 
Orchard. So what I am getting at is be careful of steering 
Cyber Command more and more towards civilian roles. It may lead 
us to success in non-war but set us up for a fall in real war.
    General Alexander. I just want to add some clarity to that 
to make sure that, at least from my perspective, you understand 
because where you can get commercial industry to help is to do 
their part. That is the war game and the effort. But Cyber 
Command and our Defense Department cannot work without the 
energy sector. If that is shut down, we got a problem. Our 
Defense Department needs to defend the nation in this area. I 
am not proposing that they go in and prop up any energy company 
or any of these. Help them build the right cybersecurity so 
that we know they can defend themselves and call for help when 
they need it, and then push that out beyond the boundary.
    But I think our Defense Department has to think more 
comprehensively of this whole thing. I agree. Going after all 
targets and stuff is part of it. But my concern is the easy 
thing, if I were a bad guy, I would just go after our 
infrastructure. I would take it out before you could respond. 
That is what the Chinese approach to warfare is. So I think we 
have to put all that on the table, war-game it, and then ensure 
we have it correct.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ayotte?
    Senator Ayotte. I want to thank all of you for being here. 
Appreciate it.
    I wanted to follow up, General Alexander, on something that 
you had in your prepared statement, and you wrote that Russia's 
intervention in Ukraine and in Syria--the Syrian conflict are 
just the start of a potential series of actions that seek to 
reshape the international environment. So I wanted to get your 
assessment based on all your experience of what comes next with 
Moscow and what should we be doing to respond.
    General Alexander. Well, my greatest concern is eastern 
Ukraine. I think everything that is going on is for Putin to 
get more closure on eastern Ukraine where the weapons platforms 
that he really cares about are created. I think he wants 
control of that. I think by pushing what he has done, he is 
going to continue to go for that. There is nothing that I have 
seen that would indicate he is going to stop from doing that, 
and I think he will lie. He will do everything he can and then 
help make that happen.
    Syria is a great way to push--you know, think of it as a 
faint. He can accomplish some real objectives there between 
Iran, Syria, and Russia, and he is doing that by helping to 
shape what he thinks are the best proxies for Russia, Syria and 
Iran, in the region. So he wins twice there. It takes our focus 
off eastern Ukraine--people are still dying there--and focuses 
everybody on Syria. I would not be surprised if over the next 6 
months we see some more action in eastern Ukraine at the same 
time.
    With respect to Syria, what I am really concerned about is 
the tension it creates up. We get to a point where we have to 
fire back against Russia or Iran for their actions in Syria. If 
we do that, I think we are going to see their response in 
cyber. I really do because there is no way Iran can come after 
us. They can launch terrorist attacks. We have been fairly good 
at stopping those, but they can hit us with cyber. It goes back 
to what is a credible deterrence. What happens if they change 
their approach from disruptive attacks against the financial 
sector to destructive against the 
financial and the energy.
    Senator Ayotte. So I guess I would--anyone who wants to 
comment on this. But as I hear you discuss this, I think if we 
let him continue to do this without any response, as far as I 
can see, does this not almost become a fait accompli, which we 
could see ourselves headed in this direction which is going to 
require--you know, put us in a more dangerous situation? If you 
were advising right now the President, what would you tell him 
to do to respond to Putin?
    Mr. Clark. I would say refocus back on Ukraine. So Syria is 

obviously a very dynamic and difficult situation, but Ukraine 
is a situation where we have a friend of the United States, not 
an ally, but a partner that is under threat and attack by 
Russia and providing the Ukrainians the capability to better 
defend themselves in the electromagnetic spectrum, as well as 
in cyber, would be really important to giving them the 
capability to defend themselves and disrupt the Russian 
attempts to gain more territory. That would force Putin to now 
refocus his effort back onto that and make a determination as 
to whether he is going to be resolved and continue in Ukraine 
or if he is going to eventually recede. But right now, because 
we have not been focused on it, he is able to continue to 
accrete influence without any counter.
    General Alexander. If I could. I agree. I think our vital 
interests in Eastern Europe and in the Middle East are at risk. 
I think we have already had some outcomes of the Iranian deal. 
I think having some deal with Iran to stop nuclear weapons is 
important, but we lost some of our allies in doing this. Losing 
those allies is something we cannot afford to have happen. So I 
think we have to step back and say what is our strategy for 
both. We are going to have to deal with both at the same time. 
In the Middle East, we need our allies to know we are going to 
stand beside them. It is the same thing in eastern Ukraine 
because everybody is looking at it. They say you have made all 
these declarations about NATO about you are going to be there 
for us. So what happens? Are you going to be there?
    At times, unintentionally our actions may look like we are 
not. What I am concerned about when you talk to Saudis, the 
Israelis, and others, they think hold it. Are you here with us 
or are you with Iran? What is your objective? I think we have 
to clarify that. Our Nation needs to let our allies know we are 
there for them. I think that is the first and most important 
thing we should do, and we should discuss with them how we are 
going to stop issues in the Ukraine with NATO and what we are 
going to do in the Middle East to shore up our allies there.
    Senator Ayotte. Does anyone want to add to that?
    Dr. Singer. I would just add that the last several decades 
of U.S. foreign policy strategy, defense strategy has been 
focused on the challenge set of networks of individuals, 
criminals, insurgents, terrorists and the problem set of failed 
states. Moving forward, we are going to have to recognize that 
whether it is Russia or also China, we have a return to great 
state competition, and what that means is that when we look at 
certain areas, we need to look at it through a lens of not just 
the failed state but proxy warfare as well. I think we are 
seeing certain echoes of that and we are going to be able to 
learn the lessons from the past of what does and does not work 
in proxy warfare and reframe our approaches along those lines. 
On top of this is focusing on how do you keep a lid--how do you 
win a competition, but also keep a lid on it from escalating.
    Senator Ayotte. Thank you all. Appreciate it.
    Chairman McCain. General, just to follow up on your comment 
to Senator Ayotte, you say we would have to take some actions 
to reassure our allies or other nations in the region in the 
Middle East. What actions would those be?
    General Alexander. I think we need to reach out to Saudi 
Arabia, United Arab Emirates, Kuwait, Jordan, and Egypt and sit 
down with them and say we are here. I think some of things that 
we ought to talk about is----
    Chairman McCain. We say that all the time, by the way.
    General Alexander. You know, when you look at it, when you 
look at Egypt, perhaps some of the best comments I have heard 
on a strategy for Egypt was, well, how do you get them 
stability. How do you get them security? You got to have energy 
to growing jobs. You got to give these guys jobs. 24 percent 
unemployment is really bad for us. It is bad for the world. How 
do we help get the Middle East in place? They have enough money 
to do it. We have the expertise to help them get there. I think 
we have got to look at the security, the stability, the energy 
sector, and the jobs, the economic development for the Middle 
East to get them to a place where they can be looking forward 
to their future versus fighting all these issues that we are 
seeing with radical Islam. So I think a comprehensive program 
like that, led by our country and others in the Middle East, is 
a step forward and let them know that we are going to be there 
not just for a couple hours but for the next several decades.
    Chairman McCain. Right now, the Egyptian regime is becoming 
more and more repressive. 45,000 people in prison, no semblance 
of any real progress on a number of areas which are in 
contradiction to our fundamental principles.
    General Alexander. This is a tough area. I have been to 
Egypt several times, and there is no good solution without 
economic growth. So I guess the question, Chairman, is how do 
we help them get out of this because in my dealings with our 
counterparts, they understand and want to do it. How do you get 
there? There is so much tension in that region. If we do not 
help them get to economic growth, what they are going to have 
is continued failed states, and with those failed states, now 
we got--it is just another one. So it seems to me at some point 
we have got to come up with a strategy that counters that. I 
personally believe that that is some way of developing their 
economies.
    Chairman McCain. Dr. Singer, I have your book on my desk 
admittedly in a pile of books on my desk. I will move it to the 
top of the pile. The next time I encounter you, I will be able 
to give you a vigorous critique of the thesis that you espouse 
in that book. Congratulations on its success.
    Mr. Scharre, thank you for your articulate answers to the 
questions.
    Mr. Clark and General Alexander, a special thanks to you 
for your past service but also it will be the intention--and we 
do work on a bipartisan basis, as you know, with this 
committee--to start looking at the follow-on to the cyber 
legislation that we just passed through the Senate. We will be 
calling on all of you as we move forward with that effort. I 
think you would agree that additional legislation is necessary. 
Would you agree with that, General?
    General Alexander. I do, Chairman.
    Chairman McCain. Thank you.
    Jack?
    Senator Reed. Mr. Chairman, this was an extraordinarily 
insightful panel. I am not surprised. You chose wisely, a West 
Point graduate whose fleet commander shaped his life. You have 
a submarine officer. You have an Army Ranger, and you have a 
graduate of Harvard University. So good job, Mr. Chairman.
    Chairman McCain. The hearing is adjourned.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
